The Department of Health and Human Services
                     and
          The Department of Justice
Health Care Fraud and Abuse Control Program
      Annual Report for Fiscal Year 2012




              February 2013
                                 TABLE OF CONTENTS


                                                                        Page

Executive Summary                                                       1
Introduction                                                            3
Monetary Results                                                        5
Program Accomplishments                                                 8

      Department of Health and Human Services
            Office of Inspector General                                 38
            Centers for Medicare & Medicaid Services                    55
            Administration on Community Living                          70
            Office of the General Counsel                               73
            Food and Drug Administration Pharmaceutical Fraud Program   76

      Department of Justice
            United States Attorneys                                     78
            Civil Division                                              80
            Criminal Division                                           83
            Civil Rights Division                                       86


Appendix: Federal Bureau of Investigation                               91
          Return on Investment Calculation                              94
          Total HCFAC Funding                                           95

Glossary of Terms                                                       96




                                      GENERAL NOTE

                               All years are fiscal years unless
                                 otherwise noted in the text.
                                               EXECUTIVE SUMMARY


The Health Insurance Portability and Accountability Act of 1996 (HIPAA) established a national
Health Care Fraud and Abuse Control Program (HCFAC or the Program) under the joint
direction of the Attorney General and the Secretary of the Department of Health and Human
Services (HHS) 1, acting through the Inspector General, designed to coordinate Federal, state and
local law enforcement activities with respect to health care fraud and abuse. In its sixteenth year
of operation, the Program’s continued success confirms the soundness of a collaborative
approach to identify and prosecute the most egregious instances of health care fraud, to prevent
future fraud or abuse, and to protect program beneficiaries.

Monetary Results

During Fiscal Year (FY) 2012, the Federal government won or negotiated over $3.0 billion in
health care fraud judgments and settlements2, and it attained additional administrative
impositions in health care fraud cases and proceedings. As a result of these efforts, as well as
those of preceding years, in FY 2012, approximately $4.2 billion was deposited with the
Department of the Treasury and the Centers for Medicare & Medicaid Services (CMS),
transferred to other Federal agencies administering health care programs, or paid to private
persons during the fiscal year. Of this $4.2 billion, the Medicare Trust Funds3 received transfers
of approximately $2.4 billion during this period, and over $835.7 million in Federal Medicaid
money was similarly transferred separately to the Treasury as a result of these efforts. The
HCFAC account has returned over $23.0 billion to the Medicare Trust Funds since the inception
of the Program in 1997.

Enforcement Actions

In FY 2012, the Department of Justice (DOJ) opened 1,131 new criminal health care fraud
investigations involving 2,148 potential defendants. Federal prosecutors had 2,032 health care
fraud criminal investigations pending, involving 3,410 potential defendants, and filed criminal
charges in 452 cases involving 892 defendants. A total of 826 defendants were convicted of
health care fraud-related crimes during the year. Also in FY 2012, DOJ opened 885 new civil
health care fraud investigations and had 1,023 civil health care fraud matters pending at the end
of the fiscal year. In FY 2012, Federal Bureau of Investigation (FBI) health care fraud
investigations resulted in the operational disruption of 329 criminal fraud organizations, and the
dismantlement of the criminal hierarchy of more than 83 criminal enterprises engaged in health

1
    Hereafter, referred to as the Secretary.
2
The amount reported as won or negotiated only reflects Federal recoveries and therefore does not reflect state
Medicaid monies recovered as part of any global, Federal-State settlements.
3
Also known as the Medicare Hospital Insurance (Part A) Trust Fund and the Supplemental Medical Insurance (Part
B) Trust Fund.


                                                         1
care fraud.

In FY 2012, HHS’ Office of Inspector General (HHS/OIG) excluded 3,131 individuals and
entities. Among these were exclusions based on criminal convictions for crimes related to
Medicare and Medicaid (912) or to other health care programs (287); for patient abuse or neglect
(212); and as a result of licensure revocations (1,463). In addition, HHS/OIG imposed civil
monetary penalties against, among others, providers and suppliers who knowingly submitted
false claims to the Federal government. HHS/OIG also issued numerous audits and evaluations
with recommendations that, when implemented, would correct program vulnerabilities and save
program funds.




                                               2
                                           INTRODUCTION


                         ANNUAL REPORT OF
             THE ATTORNEY GENERAL AND THE SECRETARY
                DETAILING EXPENDITURES AND REVENUES
      UNDER THE HEALTH CARE FRAUD AND ABUSE CONTROL PROGRAM
                        FOR FISCAL YEAR 2012

                                          As Required by
                            Section 1817(k)(5) of the Social Security Act

                                   STATUTORY BACKGROUND


The Social Security Act Section 1128C(a), as established by the Health Insurance Portability and
Accountability Act of 1996 (P.L. 104-191, HIPAA or the Act), created the Health Care Fraud
and Abuse Control Program, a far-reaching program to combat fraud and abuse in health care,
including both public and private health plans.

As was the case before HIPAA, amounts paid to Medicare in restitution or for compensatory
damages must be deposited in the Medicare Trust Funds. The Act requires that an amount
equaling recoveries from health care investigations – including criminal fines, forfeitures, civil
settlements and judgments, and administrative penalties – also be deposited in the Trust Funds.

The Act appropriates monies from the Medicare Hospital Insurance Trust Fund to an expenditure
account, called the Health Care Fraud and Abuse Control Account (the Account), in amounts that
the Secretary and Attorney General jointly certify as necessary to finance anti-fraud activities.
The maximum amounts available for certification are specified in the Act. Certain of these sums
are to be used only for activities of the HHS/OIG, with respect to the Medicare and Medicaid
programs. In FY 2006, the Tax Relief and Health Care Act (TRHCA) (P.L 109-432, §303)
amended the Act so that funds allotted from the Account are “available until expended.”
TRHCA also allowed for yearly increases to the Account based on the change in the consumer
price index for all urban consumers (all items; United States city average) (CPI-U) over the
previous fiscal year for fiscal years for 2007 through 2010.4e In FY 2010, the Patient Protection
and Affordable Care Act, as amended by the Health Care and Education Reconciliation Act,
collectively referred to as the Affordable Care Act (P.L. 111-148, ACA) extended permanently
the yearly increases to the Account based upon the change in the consumer price index for all
urban consumers or CPI-U.




4
 The CPI-U adjustment in TRHCA did not apply to the Medicare Integrity Program (MIP). Section 6402 of the
ACA indexed Medicare Integrity Program funding to inflation starting in FY 2010.

                                                     3
In FY 2012, the Secretary and the Attorney General certified $294.8 million in mandatory
funding for appropriation to the Account. Additionally, Congress appropriated $309.7 million in
discretionary funding. A detailed breakdown of the allocation of these funds is set forth later in
this report. HCFAC appropriations generally supplement the direct appropriations of HHS and
DOJ that are devoted to health care fraud enforcement and funded approximately three-fourths of
HHS/OIG’s appropriated budget in FY 2012. (Separately, the FBI received $136.2 million from
HIPAA which is discussed in the Appendix.)

Under the joint direction of the Attorney General and the Secretary, the Program’s goals are:

(1) to coordinate Federal, state and local law enforcement efforts relating to health care fraud
    and abuse with respect to health plans;

(2) to conduct investigations, audits, inspections, and evaluations relating to the delivery of and
    payment for health care in the United States;

(3) to facilitate enforcement of all applicable remedies for such fraud;

(4) to provide guidance to the health care industry regarding fraudulent practices; and

(5) to establish a national data bank to receive and report final adverse actions against health care
    providers and suppliers.

The Act requires the Attorney General and the Secretary to submit a joint annual report to the
Congress which identifies both:

(1) the amounts appropriated to the Trust Funds for the previous fiscal year under various
    categories and the source of such amounts; and

(2) the amounts appropriated from the Trust Funds for such year for use by the Attorney General
    and the Secretary and the justification for the expenditure of such amounts.

This annual report fulfills the above statutory requirements.

Additionally, this report fulfills the requirement in the annual discretionary HCFAC
appropriation (Public Law 112-74 “Consolidated Appropriations Act of 2012”) that this report
“include measures of the operational efficiency and impact on fraud, waste, and abuse in the
Medicare, Medicaid, and CHIP programs for the funds provided by this appropriation.”




                                                 4
                                              MONETARY RESULTS

As required by the Act, HHS and DOJ must detail in this Annual Report the amounts deposited
to the Medicare Trust Funds and the source of such deposits. In FY 2012, approximately $4.2
billion was deposited with the Department of the Treasury and CMS, transferred to other Federal
agencies administering health care programs, or paid to private persons during the fiscal year.
The following chart provides a breakdown of the transfers/deposits:

                           Total Transfers/Deposits by Recipient FY 2012
Department of the Treasury
 Deposits to the Medicare Trust Funds, as required by HIPAA
      Gifts and Bequests                                                                                  $54
      Amount Equal to Criminal Fines                                                           $1,389,126,761
      Civil Monetary Penalties                                                                    $15,766,272
      Asset Forfeiture                                                                            $20,370,629
      Penalties and Multiple Damages                                                             $602,272,078
      Subtotal                                                                                 $2,027,535,794

Centers for Medicare & Medicaid Services
 HHS/OIG Audit Disallowances – Recovered - Medicare                                               $89,677,376
 Restitution/Compensatory Damages                                                                $332,565,650
        Subtotal*

Grand Total of Amounts Transferred to the Medicare Trust Funds                                 $2,449,778,820

Restitution/Compensatory Damages to Federal Agencies
TRICARE                                                                                          $121,733,571
Department of Veterans Affairs                                                                    $81,149,775
HHS/OIG Cost of Audits, Investigations and Compliance Monitoring                                  $11,847,360
Office of Personnel Management                                                                   $157,225,672
Other Agencies                                                                                     $3,113,738

Federal Share of Medicaid                                                                        $835,723,125
HHS/OIG Audit Disallowances – Recovered - Medicaid                                               $275,559,307
       Subtotal                                                                                $1,486,352,548
Relators= Payments**                                                                             $284,539,872
   TOTAL ***                                                                                   $4,220,671,240
* Restitution, compensatory damages, and recovered audit disallowances include returns to both the Medicare
Hospital Insurance (Part A) Trust Fund and the Supplemental Medical Insurance (Part B) Trust Fund.
**These are funds awarded to private persons who file suits on behalf of the Federal government under the qui tam
provisions of the False Claims Act, 31 U.S.C. ' 3730(b).
***State funds are also collected on behalf of state Medicaid programs; only the Federal share of Medicaid funds
transferred to CMS are represented here.




                                                        5
The above transfers include certain collections, or amounts equal to certain collections, required
by HIPAA to be deposited directly into the Medicare Trust Funds. These amounts include:

(1) Gifts and bequests made unconditionally to the Trust Funds, for the benefit of the Account or
    any activity financed through the Account;

(2) Criminal fines recovered in cases involving a Federal health care offense, including
    collections under section 24(a) of Title 18, United States Code (relating to health care fraud);

(3) Civil monetary penalties in cases involving a Federal health care offense;

(4) Amounts resulting from the forfeiture of property by reason of a Federal health care offense,
    including collections under section 982(a)(7) of Title 18, United States Code; and

(5) Penalties and damages obtained and otherwise creditable to miscellaneous receipts of the
    general fund of the Treasury obtained under sections 3729 through 3733 of Title 31, United
    States Code (known as the False Claims Act, or FCA), in cases involving claims related to the
    provision of health care items and services (other than funds awarded to a relator, for
    restitution or otherwise authorized by law).




                                                 6
                                    PROGRAM ACCOMPLISHMENTS


EXPENDITURES

In the sixteenth year of operation, the Secretary and the Attorney General certified $294.8 million
in mandatory funding as necessary for the Program. Additionally, Congress appropriated $309.7
million in discretionary funding. The following chart gives the allocation by recipient:

                      FY 2012 ALLOCATION OF HCFAC APPROPRIATION
                      Organization          Mandatory    Discretionary                             Total
                                            Allocation 5  Allocation                             Allocation
Department of Health and Human Services
Office of Inspector General 6                196,090,169    29,673,810                            225,763,979
Office of the General Counsel                  8,887,870             0                              8,887,870
Administration for Community Living           10,709,503             0                             10,709,503
Food and Drug Administration                   3,377,220             0                              3,377,220
Centers for Medicare & Medicaid Services      14,530,000   250,442,767                            264,972,767
 Subtotal                                    233,594,762   280,116,577                            513,711,339

Department of Justice
United States Attorneys                                       31,400,000         4,064,433         35,464,433
Civil Division                                                18,972,139         5,190,085         24,162,224
Criminal Division                                              3,380,000         5,117,052          8,497,052
Civil Rights Division                                          3,838,000         1,055,842          4,893,842
Nursing Home and Elder Justice Initiative                      1,000,000                 0          1,000,000
Federal Bureau of Investigation 7                                      0         3,446,994          3,446,994
Justice Management Division                                      200,000                 0            200,000
Department of Justice - Other                                  2,434,610        10,799,404         13,233,414
Subtotal                                                      61,224,749        29,673,810         90,898,559
TOTAL8                                                       294,819,511       309,790,387        604,609,898

ACCOMPLISHMENTS

5
    In FY 2007, mandatory funds became available until expended. Discretionary funding is two-year funding.
6
 In addition, HHS/OIG obligated $9.4 million in funds received as Areimbursement for the costs of conducting
investigations and audits and for monitoring compliance plans@ as authorized by section 1128C(b) of the Social
Security Act, 42 U.S.C. § 1320a-7c(b).
7
 In addition, in FY 2012, the FBI received $136.2 million in mandatory HIPAA funding.
8
 Amounts only represent those that are provided by statute, and do not include other mandatory sources or
discretionary appropriated sources provided through Departments’ annual appropriations.




                                                         7
Overall Recoveries

During this fiscal year, the Federal government won or negotiated approximately $3.0 billion in
judgments and settlements, and it attained additional administrative impositions in health care
fraud cases and proceedings. The Medicare Trust Funds received transfers of approximately $2.4
billion during this period as a result of these efforts, as well as those of preceding years; and
another $835.7 million in Federal Medicaid money was transferred to the Treasury separately as a
result of these efforts. 9

In addition to these enforcement actions, numerous audits, evaluations and other coordinated
efforts yielded recoveries of overpaid funds, and prompted changes in Federal health care
programs that reduce vulnerability to fraud.

The return-on-investment (ROI) for the HCFAC program over the last three years (2010-2012) is
$7.90 returned for every $1.00 expended. This is $2.50 higher than the average ROI for the life
of the HCFAC program since 1997. Due to the fact that the annual ROI can vary from year to
year depending on the number of cases that are settled or adjudicated during that year, DOJ and
HHS use a three-year rolling average ROI for results contained in the report. Additional
information on how the ROI is calculated can be found in the Appendix.

Departmental Collaboration

Health Care Fraud Prevention & Enforcement Action Team (HEAT)

The Attorney General and the Secretary maintain regular consultation at both senior and staff
levels to accomplish the goals of the HCFAC Program. On May 20, 2009, Attorney General
Holder and Secretary Sebelius announced the Health Care Fraud Prevention & Enforcement
Action Team (HEAT), a new effort with increased tools and resources, and a sustained focus by
senior level leadership to enhance collaboration between the Departments of Health and Human
Services and Justice. With the creation of the new HEAT effort, DOJ and HHS pledged a cabinet-
level commitment to prevent and prosecute health care fraud. HEAT, which is jointly led by the
Deputy Attorney General and HHS Deputy Secretary, is comprised of top level law enforcement
agents, prosecutors, attorneys, auditors, evaluators, and other staff from DOJ and HHS and their
operating divisions, and is dedicated to joint efforts across government to both prevent fraud and
enforce current anti-fraud laws around the country. The Medicare Fraud Strike Force teams are a
key component of HEAT.




9
  Note that some of the judgments, settlements, and administrative actions that occurred in FY 2012 will result in
transfers in future years, just as some of the transfers in FY 2012 are attributable to actions from prior years.




                                                         8
The mission of HEAT is:

   o To marshal significant resources across government to prevent waste, fraud and
     abuse in the Medicare and Medicaid programs and crack down on the fraud
     perpetrators who are abusing the system and costing us all billions of dollars.

   o To reduce skyrocketing health care costs and improve the quality of care by ridding
     the system of perpetrators who are preying on Medicare and Medicaid beneficiaries.

   o To highlight best practices by providers and public sector employees who are
     dedicated to ending waste, fraud, and abuse in Medicare.

   o To build upon existing partnerships between DOJ and HHS, such as our Medicare
     Fraud Strike Force Teams, to reduce fraud and recover taxpayer dollars.

Since its creation in May 2009, HEAT has focused on key areas for coordination and
improvement. HEAT members are working to identify new enforcement initiatives and areas for
increased oversight and prevention to increase efficiency in pharmaceutical and device
investigations. DOJ and HHS have expanded data sharing and improved information sharing
procedures in order to get critical data and information into the hands of law enforcement to track
patterns of fraud and abuse, and increase efficiency in investigating and prosecuting complex
health care fraud cases. The departments established a cross-government health care fraud data
intelligence sharing workgroup to share fraud trends, new initiatives, ideas, and success stories to
improve awareness across the government of issues relating to health care fraud.

Both departments also have developed training programs to prevent honest mistakes and help stop
potential fraud before it happens. This includes CMS compliance training for providers,
HHS/OIG’s HEAT Provider Compliance Training initiative, on-going meetings at U.S.
Attorneys’ Offices (USAOs) with the public and private sector, and increased efforts by HHS to
educate specific groups – including elderly and immigrant communities – to help protect them. In
addition, DOJ conducts, with the support of HHS, a Medicare Fraud Strike Force training
program designed to teach the Strike Force concept and case model to prosecutors, law
enforcement agents, and administrative support teams. CMS and HHS/OIG are providing
ongoing training to DOJ and HHS staff on the use of new technology to catch and quickly turn off
funding to those who are defrauding the system.

To achieve the mission and objectives of HEAT, the Attorney General and the Secretary
promoted several HEAT initiatives during the fiscal year:

   •   In February 2012, the Medicare Fraud Strike Force attained another milestone with the
       indictment and arrest of a Texas physician and the office manager of his medical practice,
       along with five owners of home health agencies (HHA) for their roles in the single largest
       fraud orchestrated by one doctor in the history of HEAT and the Medicare Fraud Strike
       Force operation. See the summary included with the Dallas HEAT cases below.



                                                 9
   •   In May 2012, Medicare Fraud Strike Force teams in 7 cities executed a nationwide
       operation that resulted in charges against 107 individuals, including doctors, nurses, and
       other medical professionals, for their alleged participation in Medicare fraud schemes
       involving approximately $452 million in false billing. The coordinated operation involved
       the highest amount of false Medicare billings in a single takedown in the Strike Force’s
       history. As part of the operation, HHS also suspended or took other administrative action
       against 52 providers.

   •   From September 27 through September 28, 2012, DOJ hosted a health care fraud training
       conference for Federal prosecutors, FBI agents, HHS/OIG agents, and others.

In addition to the activities of HEAT, on July 26, 2012, Attorney General Holder and Secretary
Sebelius announced the launch of a ground-breaking partnership among the Federal government,
State officials, several leading private health insurance organizations, and other health care anti-
fraud groups to prevent health care fraud. This voluntary, collaborative arrangement uniting
public and private organizations is designed to share information and best practices in order to
improve detection and prevent payment of fraudulent health care billings. Its goal is to reveal and
halt scams that cut across a number of public and private payers.

CMS and law enforcement agency representatives, such as members of the Civil and Criminal
Divisions, the USAOs and Executive Office for United States Attorneys (EOUSA), the FBI, and
HHS/OIG, continue to meet on a periodic basis through numerous local or regional health care
fraud working groups and task forces.

In addition, attorneys from HHS/OIG have been detailed to the Fraud Section of the Criminal
Division as Special Trial Attorneys and to USAOs as Special Assistant U.S. Attorneys to provide
USAOs with additional prosecutorial resources.

During FY 2012, the many significant HCFAC Program accomplishments included the following:

Medicare Fraud Strike Force

The first Medicare Fraud Strike Force (Strike Force) was launched in March 2007 as part of the
South Florida Initiative, a joint investigative and prosecutorial effort against Medicare fraud and
abuse among Durable Medical Equipment (DME) suppliers and Human Immunodeficiency Virus
(HIV) infusion therapy providers in South Florida. The Strike Force teams use advanced data
analysis techniques to identify high-billing levels in health care fraud hot spots so that interagency
teams can target emerging or migrating schemes along with chronic fraud by criminals
masquerading as health care providers or suppliers. Based on the success of these efforts and
increased appropriated funding for the HCFAC program from Congress and the Administration,
DOJ and HHS expanded the Strike Force to include teams of investigators and prosecutors in a
total of nine cities – Miami, FL; Los Angeles, CA; Detroit, MI; Houston, TX; Brooklyn, NY;
Baton Rouge, LA; Tampa, FL; Chicago, IL; and Dallas, TX.

Each Medicare Fraud Strike Force team combines the data analysis and administrative action


                                                 10
capabilities of CMS, the investigative resources of the FBI and HHS/OIG, and the prosecutorial
resources of the Criminal Division’s Fraud Section and the USAOs. Strike Force
accomplishments from cases prosecuted in all nine cities during FY 2012 include 11:

       •   117 indictments, informations and complaints involving charges filed against 278
           defendants who allegedly collectively billed the Medicare program more than $1.5 billion;

       •   251 guilty pleas negotiated and 13 jury trials litigated, with guilty verdicts against 29
           defendants; and

       •   Imprisonment for 201 defendants sentenced during the fiscal year, averaging more than 48
           months of incarceration.

In the five and a half years since its inception, Strike Force prosecutors filed more than 724 cases
charging more than 1,476 defendants who collectively billed the Medicare program more than
$4.6 billion; 918 defendants pleaded guilty and 105 others were convicted in jury trials; and 745
defendants were sentenced to imprisonment for an average term of more than 45 months. 12

Examples of successful cases initiated or concluded in districts where Strike Force prosecution
teams were operational during FY 2012, as well as other successful cases are provided below.
Summaries of additional successful prosecutions and settlements follow, organized by fraud type.

Phase 1: Miami (Southern District of Florida)

•      In August 2012, the owner and operator of a Miami health care agency pleaded guilty for his
       participation in a $42 million home health Medicare fraud scheme. According to plea
       documents, the defendant conspired with patient recruiters for the purpose of billing the
       Medicare program for unnecessary home health care and therapy services. The defendant and
       his co-conspirators paid kickbacks and bribes to patient recruiters in return for these recruiters
       providing patients and other necessary documentation to the home health care agency for
       medically unnecessary therapy and home health services for Medicare beneficiaries. The
       defendant and his co-conspirators also paid kickbacks and bribes directly to physicians in
       exchange for home health and therapy prescriptions, plans of care, and medical certifications.
       The defendant used these documents to fraudulently bill the Medicare program for home
       health care services. The defendant is currently awaiting sentencing.

•      In June 2012, an Asheville, N.C. resident pleaded guilty for her role in a health care fraud
       scheme that resulted in the submission of more than $63 million in fraudulent claims to
       Medicare and Medicaid in Miami and Hendersonville, N.C. The defendant, a licensed
       psychological associate, admitted to participating in a fraud scheme that was orchestrated
       through a Community Mental Health Center (CMHC) that purported to provide partial

11
  The accomplishments figures presented in the bullets include all reported Strike Force cases handled by DOJ
Criminal Division attorneys and AUSAs in the respective USAOs during FY 2012.
12
     These statistics are for the period of May 7, 2007, through September 30, 2012.

                                                           11
    hospitalization programs (PHPs). Specifically, the defendant and others agreed to fabricate
    therapy notes and other medical records and to direct other therapists to do the same, all to
    make it appear as though Medicare beneficiaries received appropriate services.

•   In April 2012, the U.S. District Court in Miami sentenced the three owners of a Miami health
    care agency to 120 months, 87 months and 87 months respectively for their participation in a
    $60 million Medicare home health care fraud scheme. The defendants pleaded guilty to one
    count of conspiracy to commit health care fraud. The defendants admitted that, from about
    January 2006 to about November 2009, they operated a home health care agency that paid
    illegal kickbacks to recruiters to obtain Medicare beneficiaries, which they then billed to
    Medicare for home health care services that were not medically necessary, and in many cases,
    never provided at all.

•   In January 2012, an office administrator at a home health care provider was sentenced to 78
    months of incarceration after she pleaded guilty to charges of conspiracy to commit health
    care fraud. In all, the defendant and two co-conspirators were ordered to pay $15.3 million,
    $118,000, and $395,000, respectively, in restitution, jointly and severally, for their roles in the
    fraud scheme. The trio was affiliated with two home health companies that purported to
    provide home health and physical therapy services to Medicare beneficiaries. The home
    health companies fraudulently billed Medicare for home health services provided to
    beneficiaries who were not restricted to their homes and who had no medical need for the
    services.

•   In September 2011, the U.S. District Court in Miami sentenced an owner and operator of a
    CMHC to 50 years in prison, following his guilty plea to participating in a massive illegal
    kickback and money laundering scheme that resulted in a $205 million fraud. In August
    2011, a Federal jury in Miami convicted another owner of the same CMHC for her role in the
    scheme. The owner, convicted at trial, and another owner of the CMHC were each sentenced
    to 35 years in prison. In June 2012, a Federal jury in Miami convicted five additional
    defendants, including two doctors, for their roles in the same scheme. The owners/operators
    of the CMHC paid millions of dollars in illegal kickbacks to owners of Assisted Living
    Facilities and Halfway Houses to induce them to funnel vulnerable victims, many with
    Alzheimer or other forms of dementia, to the CMHC. The CMHC performed little or no
    legitimate mental health services, but submitted $205 million in claims to Medicare. The
    convicted defendants are currently awaiting sentencing. To date, the case has resulted in two
    trials, at which a total of six defendants were convicted. An additional thirteen individuals
    and the two corporate defendants have pleaded guilty. The convicted defendants include all
    of the owners and operators of the CMHC, as well as two physicians. The 50-year sentence
    represents the longest prison sentence in the history of the Medicare Fraud Strike Force.

Phase 2: Los Angeles (Central District of California)

•   In June 2012, a Los Angeles physician’s assistant who worked at fraudulent medical clinics
    was convicted of conspiracy, health care fraud, and aggravated identity theft charges in


                                                 12
    connection with an $18.9 million Medicare fraud scheme. The trial evidence showed that
    between March 2007 and September 2008, the defendants’ co-conspirator and others owned
    and operated several Los Angeles medical clinics established for the sole purpose of
    defrauding Medicare. These clinics hired street-level recruiters to find beneficiaries willing to
    provide their Medicare billing information. In exchange, the defendants co-conspirators paid
    the recruiters cash kickbacks. The clinics then billed Medicare for unnecessary DME for these
    beneficiaries. Evidence at trial showed that the defendant worked at the clinic and wrote
    prescriptions for power wheelchairs for beneficiaries he had never examined and who never
    visited the clinics. In one case, the evidence showed that he wrote a prescription for a
    beneficiary who suffered from a mental defect and did not have the mental capacity to operate
    the wheelchair. The physician’s assistant is currently awaiting sentencing.

•   In January 2012, the U.S. District Court in Los Angeles sentenced a pastor of a now defunct
    Los Angeles church who owned and operated several fraudulent DME supply companies to
    15 years in prison for his role in a $14.2 million Medicare fraud scheme. In July 2011, a jury
    found the defendant, his wife, and one of their employees guilty of conspiracy and health care
    fraud offenses. According to evidence introduced at trial, the husband and wife were pastors
    at a church in Los Angeles, where they also operated the fraudulent company. They hired
    several of their parishioners to assist them in running this company and another fraudulent
    DME supply company. The couple diverted most of this money from the bank accounts of
    the supply companies to pay for the fraudulent prescriptions and documents which the
    defendant purchased to further the scheme and to cover the leases on their Mercedes vehicles,
    home remodeling expenses, and other personal expenses.

Phase 3: Detroit (Eastern District of Michigan)

•   In July 2012, the U.S. District Court in Detroit sentenced a Detroit-area rehabilitation agency
    owner to 84 months in prison for his leading role in a $3 million Medicare fraud scheme. The
    defendant was convicted by a Federal jury, following a weeklong trial, of one count of
    conspiracy to commit health care fraud and six counts of health care fraud. According to
    evidence presented during the trial, the defendant was the owner of a fraudulent rehabilitation
    agency in Dearborn, Michigan. Between January 2003 and February 2007, the agency
    purchased falsified physical and occupational therapy files from more than 30 therapy and
    rehabilitation companies and used them to fraudulently bill Medicare for more than $3
    million. Four co-defendants in this case pleaded guilty and were sentenced for their role in the
    same scheme. The rehabilitation facility owner was excluded by OIG for 25 years.

•   In May 2012, a Federal grand jury returned an indictment charging a social worker and the
    owner of an adult day care center and psychotherapy clinic with conspiracy to commit health
    care fraud for their participation in a $20 million psychotherapy fraud scheme. In June 2012,
    the social worker pleaded guilty to conspiracy to commit health care fraud, admitting to
    owning and running multiple clinics at which services were never performed or were
    performed by unlicensed staff who were not authorized to perform services reimbursed by
    Medicare. The staff members also fabricated therapy notes for patients that were never seen
    and billed Medicare using document templates created by the social worker. In August 2012,


                                                 13
    the owner of the adult day care center and psychotherapy clinic pleaded guilty to conspiracy
    to commit health care fraud and health care fraud with respect to the submission of false
    psychotherapy claims through her clinic.

•   In January 2012, a Detroit-area home health agency owner pleaded guilty for his leading role
    in a $13.4 million Medicare home health care fraud and money laundering scheme. The
    owner, who was charged along with nineteen other defendants in the original and superseding
    indictments, admitted to paying kickbacks to beneficiaries, billing Medicare for services never
    rendered and laundering the proceeds of the fraud. Nine defendants charged in the scheme
    have pleaded guilty, and three are fugitives.

•   In January 2012, the U.S. District Court in Detroit sentenced an operator of three medical
    clinics to 30 months of incarceration and ordered the operator to pay restitution in the amount
    of $2.9 million, jointly and severally, for his participation in a multimillion-dollar scheme to
    defraud Medicare. The clinic operator and his co-conspirators paid Medicare patients to
    undergo medically unnecessary diagnostic tests at their three clinics. In exchange for illegal
    kickbacks, the Medicare beneficiaries signed documents indicating they had received the
    services billed to Medicare. The clinics involved in the fraud scheme subsequently billed
    Medicare for expensive and medically unnecessary diagnostic tests and diverted the proceeds
    to the clinic owners and co-conspirators for their personal use. The co-conspirators are
    awaiting sentencing for their roles in the scheme.

•   In November 2011, the two owners of a medical clinic in Michigan were each sentenced to 14
    years of incarceration and ordered to pay over $6 million in restitution, jointly and severally,
    after they pleaded guilty to charges related to a health care fraud and money laundering
    scheme. The clinic purported to provide infusion and injection therapy to HIV-positive
    patients. The owners recruited and paid kickbacks to Medicare beneficiaries and billed
    Medicare for services not provided, while purchasing only a fraction of the medications billed
    to Medicare. The owners fled the United States to avoid being apprehended, but were arrested
    on March 14, 2011, by the Colombian National Police and transferred to the custody of U.S.
    officials.

•   In October 2011, the U.S. District Court in Detroit sentenced the owner of a fraudulent
    Detroit-area medical clinic to 10 years in prison for his leading role in a $9.1 million Medicare
    fraud scheme. The owner was previously convicted by a Federal jury. According to evidence
    presented at trial, Medicare beneficiaries were not referred to the clinic by their primary care
    physicians, or for any other legitimate medical purpose, but rather were recruited to come to
    the clinic through the payment of illegal cash kickbacks. The clinic then billed Medicare for
    infusions of expensive and exotic medications, purportedly administered to treat HIV and
    Hepatitis-C. However, the medications were never administered. Once Medicare started
    paying the co-conspirators, the defendant enlisted a family friend to help him launder the
    proceeds of the fraud through a shell corporation in Florida. Evidence at trial showed that the
    shell corporation had no employees, did no research, and was based at the family friend’s
    residence. The family friend, after taking a commission for himself, distributed the laundered
    proceeds to the defendant, his wife and co-owner, and co-conspirators.


                                                14
Phase 4: Houston (Southern District of Texas)

•   In July 2012, a Federal grand jury returned an indictment charging the owners and employees
    of a mental health care company, as well as patient recruiters, in an alleged $97 million
    Medicare fraud scheme. Four of the defendants are accused of signing admission documents
    and progress notes certifying that patients qualified for mental health services, when in fact,
    the patients did not qualify for or need these services. The indictment also alleges that the
    owners billed Medicare for intensive mental health services when the beneficiaries were
    actually watching movies, coloring and playing games – activities that are not covered by
    Medicare. Finally, the owners and another defendant are alleged to have paid kickbacks to
    group care home operators and patient recruiters in exchange for delivering ineligible
    Medicare beneficiaries.

•   In June 2012, the U.S. District Court in Houston sentenced the former co-owners of a home
    health care company to 9 years in prison for their participation in a $5.2 million Medicare
    fraud scheme. The owners paid co-conspirators to recruit Medicare beneficiaries for the
    purpose of filing claims with Medicare for care that was medically unnecessary, or not
    provided. To date, nine individuals, including nurses and patient recruiters, have been
    sentenced related to the scheme.


•   In May 2012 a Federal jury convicted an owner of a DME company in connection with a
    $750,000 Medicare fraud scheme. The company purported to provide orthotics and other
    devices to Medicare beneficiaries. This equipment was medically unnecessary and/or not
    provided. The defendant awaits sentencing.

•   In February 2012, the assistant administrator of a CMHC pleaded guilty to an indictment just
    15 days after it was filed. The defendant admitted in his plea that he and others at the CMHC
    engaged in a scheme to submit over $116 million in fraudulent claims to Medicare, and to pay
    kickbacks to patient recruiters and owners of assisted living facilities and group care homes in
    exchange for the recruiters and owners sending Medicare beneficiaries to the CMHC’s partial
    hospitalization program, which purported to provide intensive mental health services. The
    CMHC then submitted claims to Medicare for mental health services that were not medically
    necessary, and in some cases never provided. The assistant administrator is currently awaiting
    sentencing.

•   In February 2012, a Federal jury convicted a patient recruiter for a DME company of health
    care fraud related to a fraud scheme involving arthritis kits. The defendant operated a call
    center and hired teenagers to make unsolicited telephone calls to elderly Medicare
    beneficiaries, asking them if they wanted a free arthritis kit, which included several devices
    that were billed to Medicare but were not medically necessary or appropriate. Each arthritis
    kit was billed to Medicare at more than $3,000. The patient recruiter is currently awaiting
    sentencing.



                                                15
Phase 5: Brooklyn (Eastern District of New York)

•   In June 2012, a Federal jury convicted a Brooklyn-area doctor who operated a medical clinic
    in New York for his participation in a scheme to submit approximately $22.6 million in
    fraudulent claims to Medicare and numerous private insurance companies. The doctor
    submitted claims to Medicare and the insurance companies for surgeries that never occurred
    and services that were not provided. Evidence at trial also showed that the defendant sent
    letters to his patients asking them to falsely certify in writing that they had received the phony
    surgeries. The doctor is currently awaiting sentencing.

•   In November 2011, a Federal grand jury returned an indictment charging six defendants,
    including three medical doctors and a chiropractor, for their alleged participation in a fraud
    scheme at two medical clinics in Flushing. The indictment states that defendants provided a
    variety of spa services such as massages and facials, while billing Medicare for physical
    therapy and other services that were medically unnecessary and never provided. The
    defendants also recruited Medicare beneficiaries to their clinic by offering lunches and
    dancing classes, in exchange for the beneficiaries providing their Medicare numbers to be
    billed for medical services that they did not need and never received.

•   In November 2011, a Federal grand jury returned an indictment charging a Staten Island
    osteopathic doctor for participating in a scheme to defraud Medicare of approximately $13
    million. The doctor allegedly billed Medicare for a variety of services she purported to
    provide – including vitamin infusion therapy, sleep studies, nerve conduction tests and duplex
    scans – but which were medically unnecessary and never provided. In May 2012, the doctor
    entered a guilty plea to health care fraud and awaits sentencing.

Phase 6: Baton Rouge (Middle District of Louisiana)

•   In August 2012, the U.S. District Court in Baton Rouge sentenced the owner of multiple DME
    companies that operated in Louisiana to 15 years in prison for his role in three separate
    Medicare fraud schemes that resulted in more than $22.5 million in fraudulent billings to
    Medicare. The defendant, with his wife, owned and operated several DME companies, and
    was convicted at trial in August 2011 for one scheme and in November 2011 for another. In
    January 2012 he pleaded guilty for his role in a third conspiracy. The defendant paid
    kickbacks to recruiters to acquire Medicare beneficiary information, and then fraudulently
    billed Medicare for DME that was medically unnecessary and, in some cases, never provided.
    When a claim was denied by Medicare through one of the defendant’s companies, it would
    often be resubmitted through another company. In July 2012, the defendant’s wife, a co-
    conspirator in two of these cases, was sentenced to 7 years in prison.

•   In May 2012, a Federal grand jury returned an indictment against seven individuals alleged to
    have participated in a fraud scheme involving $225 million in false claims for services
    purportedly provided at two CMHCs. The case represents the largest CMHC-related scheme


                                                 16
    ever prosecuted by the Medicare Fraud Strike Force. The charges are based on allegations
    that the defendants recruited beneficiaries from nursing homes and homeless shelters,
    including drug addicted and elderly individuals, and provided them with no services or
    medically inappropriate services, while billing Medicare for intensive mental health services.

Phase 7: Tampa (Middle District of Florida)

•   In May 2012, a Federal grand jury returned an indictment charging the owners of multiple
    Florida-area physical therapy companies with participating in a scheme to defraud Medicare
    of approximately $8.2 million. According to the indictment, the defendants paid patient
    recruiters to acquire Medicare beneficiary information for purposes of falsely billing
    Medicare. In addition, upon acquisition of their physical therapy clinics, they also acquired
    the historical patient records left at the clinic sites, including the names and identification
    numbers of Medicare beneficiaries. The defendants allegedly allowed others, who owned and
    operated similarly illegitimate physical therapy clinics in the Southern and Middle Districts of
    Florida, to submit fraudulent claims for reimbursement to Medicare through their three
    clinics.

•   In October 2011, the U.S. District Court in Tampa sentenced the owner/operator of a
    fraudulent physical therapy company in Lakeland, Florida to 42 months in prison for his
    leading role in a scheme to defraud Medicare of $757,654. The defendant admitted to
    purchasing a pre-existing physical therapy business and transforming it into a fraudulent
    enterprise. The defendant and his co-conspirators also paid kickbacks and bribes to Medicare
    beneficiaries in order to obtain their Medicare billing information and used that information to
    submit claims to Medicare for physical therapy services that were never provided. The
    defendant also stole the identities of a physical therapist and Medicare beneficiaries to submit
    additional false claims to Medicare.

Phase 8: Dallas (Northern District of Texas)

•   In February 2012, a Federal grand jury indicted a Dallas-area doctor and owner of an
    association of health care providers, along with five others, in a $374 million home health care
    fraud scheme, the largest fraud case ever indicted in terms of the amount of loss charged
    against a single doctor. The indictment charges the defendant with fraudulently certifying or
    directing the certification of more than 11,000 individual patients from more than 500 home
    health agencies for home health services over five years. These certifications allegedly
    resulted in more than $350 million being fraudulently billed to Medicare and more than $24
    million being fraudulently billed to Medicaid.

•   In December 2011, four owners of a Dallas home health agency, and one patient recruiter pled
    guilty to charges related to their participation in a scheme to defraud Medicare and Medicaid
    of approximately $1 million. The agency submitted fraudulent claims to Medicare for home
    health services purportedly provided to Medicare beneficiaries. The defendants falsified
    Medicare documentation and skilled nursing notes indicating that the patients were
    homebound and eligible for home health care services. They also falsified time sheets and


                                                17
    patient visit logs for services that were not adequately rendered or were never provided at all,
    but then billed Medicare as if the services were adequately provided.

•   In December 2011, the U.S. District Court sentenced a patient recruiter for a home health
    agency to 33 months in prison for her role in a scheme to defraud Medicare and Medicaid of
    approximately $1 million. This defendant recruited Medicare beneficiaries and agreed to pay
    patients kickbacks of $100 per month so that they would continue to use the home health
    agency. In August 2012, a co-defendant and owner of the home health agency was sentenced
    to 37 months in prison. This defendant admitted that she submitted fraudulent claims to
    Medicare for home health services for Medicare beneficiaries who were not homebound and,
    therefore, ineligible for home health care services.

Phase 9: Chicago (Northern District of Illinois)

•   In August 2012, a home health care agency in suburban Chicago, two nurses who are part
    owners of the company and a third nurse affiliated with them, along with two marketers, were
    indicted on Federal charges for allegedly participating in a conspiracy to pay and receive
    kickbacks in exchange for the referral of Medicare patients for home health care services. The
    part owners of the home health care agency and three other defendants allegedly conspired to
    pay and receive approximately $400,000 in kickbacks to themselves, nurses, marketers and
    others for the referral and retention of Medicare patients that enabled the home health care
    agency to bill Medicare approximately $5 million.

•   In July 2012, a physician who operated a Chicago area medical clinic was sentenced to 30
    months in Federal prison for engaging in a health care fraud scheme between 2007 and July
    2010. The defendant was convicted at trial in March 2012 of defrauding Blue Cross Blue
    Shield of Illinois by submitting false insurance claims for medically unnecessary tests he
    ordered for patients and using false diagnosis codes to justify those tests.

•   In June 2012, the owner of multiple area outpatient surgery centers was arrested on fraud and
    tax charges in a 19-count indictment alleging that he paid bribes and kickbacks to physicians
    for patient referrals and filed false Federal income tax returns that understated his income. The
    defendants was charged with 10 counts of mail fraud, five counts of interstate travel in aid of
    racketeering, and four counts of filing false income tax returns for the years 2005-08. The
    indictment seeks forfeiture of at least $1.8 million in alleged fraud proceeds, or substitute
    assets, including the defendant’s suburban residence and two surgical centers in Chicago.

•   In June 2012, 10 defendants, including the owners of two Chicago home health care
    companies and three physicians, were indicted for allegedly participating in two separate
    schemes to pay and receive cash kickbacks in exchange for the referral of Medicare patients
    for home health care services. In one case, the owners of the home health care company, and
    seven other defendants allegedly engaged in a fraud scheme involving payment of more than
    $1.1 million in cash kickbacks to doctors, social workers, and a registered nurse in exchange
    for the referral of Medicare patients. In the second case, the owner was charged alone with
    allegedly paying at least $500,000 in cash kickbacks to doctors in exchange for Medicare


                                                 18
    patient referrals.

•   In March 2012, two physicians and four registered nurses were among 11 defendants who
    were added to an indictment against a suburban Chicago man who operated two home health
    care businesses for allegedly swindling Medicare of at least $20 million over five years. Nine
    co-defendants allegedly conspired with the lead defendant to submit millions of dollars in
    false claims for reimbursement of home health care services purportedly provided to Medicare
    beneficiaries, which were never provided or were not medically necessary so that they could
    profit from the fraudulently-obtained funds. These co-schemers allegedly used the proceeds
    for various purposes, including: using cash to gamble at casinos in the Chicago area and Las
    Vegas; purchasing automobiles, jewelry and real estate in the United States and the
    Philippines and, paying kickbacks to others in exchange for patient referrals.

In addition to the Medicare Strike Force matters listed above, our respective Departments
successfully pursued the following matters, which are grouped by subject below:

Pharmaceutical and Device Manufacturers and Related Individuals

•   In July 2012, GlaxoSmithKline paid $3 billion, plus interest, to resolve its criminal and civil
    liability arising from the company’s unlawful promotion of certain prescription drugs, its
    failure to report certain safety data, and its civil liability for alleged false price reporting
    practices. The company pled guilty and paid $1 billion in fines and forfeitures for
    misbranding the anti-depressant drugs Paxil and Wellbutrin and for failing to report required
    information to the Food and Drug Administration (FDA) in connection with the diabetes drug
    Avandia. GSK also paid $2 billion to resolve its FCA and civil liability for: (1) promoting the
    drugs Paxil, Wellbutrin, Advair, Lamictal and Zofran for off-label, non-covered uses and
    paying kickbacks to physicians to prescribe those drugs as well as the drugs Imitrex,
    Lotronex, Flovent and Valtrex; (2) making false and misleading statements concerning the
    safety of Avandia; and (3) reporting false best prices and underpaying rebates owed under the
    Medicaid Drug Rebate Program. As part of the settlement, GSK entered into a 5-year CIA
    (Corporate Integrity Agreement) with HHS/OIG.

•   In November 2011, Merck, Sharp & Dohme paid $950 million to resolve criminal charges and
    civil claims related to its promotion and marketing of the painkiller Vioxx (rofecoxib). Under
    the terms of the resolution, Merck pleaded guilty to a one-count information charging a single
    violation of the Food Drug and Cosmetic Act (FDCA) for introducing a misbranded drug,
    Vioxx, into interstate commerce and paid a $32.1 million criminal fine. In addition, Merck
    paid $628.3 million to resolve False Claims Act allegations regarding off-label marketing of
    Vioxx and false statements about the drug’s cardiovascular safety.

•   In April 2012, McKesson Corporation paid $190 million to resolve claims that it violated the
    FCA by reporting inflated pricing information for a large number of prescription drugs,
    causing Medicaid to overpay for those drugs. McKesson, a large drug wholesaler, reported
    the inflated pricing data to First DataBank, a publisher of drug prices that are used by most



                                                19
    state Medicaid programs to set payment rates for pharmaceuticals. This settlement resolves
    claims based on the Federal share of Medicaid overpayments caused by McKesson’s conduct.

•   In October 2011, Scios, a subsidiary of the pharmaceutical company Johnson & Johnson,
    pleaded guilty to a violation of the FDCA and agreed to pay a criminal fine in the amount of
    $85 million. Scios admitted that it intended Natrecor to be used off-label for infusing chronic
    (nonacute) congestive heart failure patients on a scheduled, serial basis, even though the
    company understood that this was not an approved use of the drug.

•   In December 2011, GE Healthcare, Inc., (GEHC) paid $30 million plus interest to resolve
    allegations that an acquired entity previously known as Amersham Health, Inc., (Amersham)
    violated the FCA. Specifically, the Government alleged that Amersham knowingly provided
    false or misleading information to CMS and its contractors from January 2000 through
    December 2003 regarding Myoview, a radiopharmaceutical product used in certain cardiac
    diagnostic imaging procedures. In particular, the Government contended that the false and
    misleading information Amersham provided caused the Medicare program to reimburse
    certain claims for Myoview at artificially inflated rates.

•   In November 2011, Medtronic, Inc., a DME manufacturer, agreed to pay $23.8 million plus
    interest to resolve allegations that it violated the FCA. The Government alleged that
    Medtronic used postmarket studies and device registries as vehicles to pay physicians illegal
    kickbacks to induce them to implant Medtronic pacemakers and defibrillators. It was also
    alleged that Medtronic solicited physicians for the studies and registries to convert their
    business from a competitor’s product and persuade physicians to continue using Medtronic
    products.

•   In November 2011, Genentech, Inc. paid $20 million to resolve allegations that it violated the
    FCA in connection with an illegal off-label marketing and kickback scheme. In particular, the
    allegations involved Genentech’s marketing of the drug Rituxan, which is used to treat
    different types of cancer.

•   In December 2011, KV Pharmaceutical Company, which was the parent of now-defunct
    Ethex Corporation, paid $17 million to resolve FCA allegations that Ethex failed to advise the
    CMS that two unapproved products did not qualify for coverage under Federal health care
    programs. In particular, the United States alleges that Ethex misrepresented the regulatory
    status of both drugs and failed to advise CMS that these unapproved drugs did not qualify for
    coverage under Federal health care programs.

•   In February 2012, Dava Pharmaceuticals Inc. paid $11 million to settle FCA allegations that it
    misreported drug prices in order to reduce its Medicaid Drug Rebate obligations. In
    particular, the settlement resolves allegations that between Oct. 1, 2005 and Sept. 30, 2009,
    Dava and its corporate predecessors knowingly treated certain of their drugs as “generic”
    rather than “branded” in order to lower their monthly rebate obligations to the Medicaid
    program.



                                                20
•   In December 2011, RAM Medical, Inc., a New Jersey distributor of medical devices,
    pharmaceuticals, food, cosmetics, and miscellaneous commodities, entered a guilty plea to an
    information charging the company with one count of introducing adulterated medical devices
    into interstate commerce and one count of introducing misbranded medical devices into
    interstate commerce. In May, 2012, RAM Medical, Inc. was sentenced to a 36 month term of
    probation and ordered to pay a $100,000 fine and $72,922 in restitution for importing and
    selling counterfeit and contaminated surgical hernia mesh. RAM Medical purchased
    overstocked and discounted products from wholesalers and suppliers all over the world and
    resold these products to distributors and end-users in the United States. Numerous boxes sold
    included misbranded, counterfeit mesh, as well as adulterated mesh, which contained
    numerous microorganisms.

•   In November and December 2011, four former executives of Synthes or its subsidiaries each
    pleaded guilty, as responsible corporate officers, to one misdemeanor count of shipping an
    adulterated and misbranded medical device in interstate commerce. Their terms of
    imprisonment ranged from 5 months to 9 months of incarceration. In connection with this case
    Synthes and its former subsidiary, Norian Corporation (Norian) – which develop,
    manufacture, distribute, market, and sell medical devices – entered into a global resolution
    with the Government to resolve liability with respect to allegations of conducting
    unauthorized clinical trials of their Norian XR and Norian SRS medical devices. These
    devices were allegedly used in surgeries to treat vertebral compression fractures of the spine, a
    painful condition commonly suffered by elderly individuals. Many of these procedures were
    performed on Medicare and other Federal health care program beneficiaries, and the
    procedures were conducted despite a warning on the label for Norian XR against this use and
    despite serious medical concerns about the safety of the devices when used in the spine.

Hospital

•   In March 2012, Beth Israel Medical Center paid over $13 million to resolve FCA claims that
    it fraudulently inflated fees for services provided to Medicare patients in order to obtain larger
    supplemental reimbursement, known as “outlier payments,” that Medicare pays to hospitals
    and other health care providers in cases where the cost of care is unusually high. In particular,
    Beth Israel manipulated its fee structure to make it appear as though its treatment of certain
    patients was unusually costly, when in fact it was not. As a result, Beth Israel obtained
    millions of dollars in Medicare outlier payments to which it was not entitled during the
    relevant time period.

•   In May 2012, Lenox Hill Hospital paid $11.8 million to resolve FCA claims that it inflated
    fees for services provided to Medicare patients in order to obtain larger supplemental
    reimbursement, known as “outlier payments,” that Medicare pays to hospitals and other health
    care providers in cases where the cost of care is unusually high. In particular, Lenox Hill
    raised its room and board charges and manipulated its overall charge structure to make it
    appear as though its treatment of certain patients was unusually costly, when in fact it was not.
    As a result, Lenox Hill obtained millions of dollars in Medicare outlier payments to which it
    was not entitled from February 21, 2002 through August 7, 2003.


                                                 21
•   In June 2012, Atlantic Health System, Inc., AHS Hospital Corp. and Overlook Hospital, paid
    $8.9 million to settle FCA allegations that they submitted false claims to Medicare for
    services provided at Overlook Hospital. Overlook Hospital and its owners, AHS Hospital
    Corp. and Atlantic Health System Inc., allegedly overbilled Medicare for patients who were
    treated on an inpatient basis when they should have been treated as observation patients or
    treated on an outpatient basis.

•   In February 2012, Rhode Island Hospital agreed to pay $5.3 million to resolve its liability
    under the FCA for allegedly submitting improper claims to Medicare and Medicaid. The
    improper claims sought reimbursement for medically unnecessary overnight stays for patients
    receiving Gamma Knife stereotactic radiotherapy. From January 1, 2004 through December
    31, 2009, overnight hospital admissions were ordered for approximately 260 patients
    receiving these treatments.

•   In June 2012, Christus Spohn Health System Corporation paid $5.1 million to settle
    allegations that six of its hospitals in and around Corpus Christi, Texas, violated the FCA by
    inappropriately admitting patients to inpatient status for outpatient procedures. The
    government alleged that the hospitals were routinely billing outpatient surgical procedures as
    if they required an inpatient level of care, which greatly increased the Medicare
    reimbursement.

•   In January 2012, Cayuga Medical Center of Ithaca, New York, paid $3.5 million to resolve
    FCA allegations that it submitted false claims to Medicare and Medicaid in connection with
    improper physician recruitment agreements entered into between Cayuga Medical Center and
    various medical practices.

•   In April, August and November 2011, three Connecticut hospitals paid a total of over $1.4
    million to resolve FCA allegations that the hospitals submitted false claims to Medicare and
    Medicaid when billing for injections of Lupron, a cancer drug. The hospitals regularly billed
    the higher-paying, female-related Lupron billing code for its male patients who were being
    treated for prostate cancer and therefore received substantially higher reimbursement than
    they should have received. In addition, even after the hospitals realized that they had
    improperly coded their Lupron injection services and had been overpaid by government health
    insurance programs, the hospitals never self-disclosed their improper billing to the
    government or made any attempt to pay the money back to the Medicare and Medicaid
    programs.

•   In October 2011, Gibson Memorial Hospital agreed to pay approximately $1 million to
    resolve its civil liability for allegedly violating the FCA. The hospital submitted claims to
    Medicare and Medicaid for out-patient surgery services that were being provided at a
    neighboring ambulatory surgery center, not owned by the hospital. The claims falsely stated
    that the services were being provided at Gibson Memorial Hospital, which resulted in higher
    Medicare and Medicaid reimbursements. The hospital was also including the costs of these
    surgeries on its cost reports, even though no costs had been incurred.

                                                22
•   In December 2011, Satilla Health Services, Inc., d/b/a Satilla Regional Medical Center
    (Satilla) paid $840,000 to resolve FCA allegations that it submitted claims to Medicare and
    Medicaid for medically unnecessary and dangerous endovascular procedures performed by a
    physician for Satilla’s heart center that caused serious injury to 37 patients. In addition,
    Satilla entered into an agreement for its sale to another company, which resulted in a new
    board of directors, new administrators, and a new compliance program at Satilla.

•   In February 2011, fourteen hospitals located in New York, Mississippi, North Carolina,
    Washington, Indiana, Missouri and Florida paid a total of more than $12 million to settle FCA
    allegations that the health care facilities submitted false claims to Medicare. The settlements
    resolved allegations that these hospitals overcharged Medicare between 2000 and 2008 when
    performing kyphoplasty, a minimally-invasive procedure used to treat certain spinal fractures
    that often are due to osteoporosis. In many cases, the procedure can be performed safely as a
    less costly outpatient procedure, but the government contends that the hospitals performed the
    procedure on an inpatient basis in order to increase their Medicare billings.

Physicians

•   In November 2011, a family practice physician in Michigan was sentenced to 10 years of
    incarceration and ordered to pay $5.4 million in restitution for receiving kickbacks and
    fraudulently billing for diagnostic tests and services that were not medically necessary. The
    physician ordered unnecessary and actively harmful nuclear stress tests for her patients at a
    frequency beyond that of any other medical practice in the country. Because each of these
    tests is the radiation equivalent of at least 80 to120 chest x-rays and because excess radiation
    creates a greater risk of cancer, the physician exposed patients to substantial risk.

•   In April 2012, a California physician was sentenced to 60 months of probation and ordered to
    pay over $1.9 million in restitution, jointly and severally, after pleading guilty to making a
    false statement to a Government agency. The physician was also excluded by HHS/OIG for a
    period of 5 years based upon the conviction. According to court documents, the defendants
    conspired to offer and make payments to Medicare patients in exchange for their Medicare
    numbers. In addition, the defendants paid “cappers” for the referral of Medicare patients to
    the various clinics. The defendants then submitted fraudulent claims to Medicare for services
    that were not performed, were not performed as billed, or were performed by persons other
    than the provider under whose identification those services were billed. Investigators also
    believe that the defendants falsely stated that the clinics would be owned and operated by a
    licensed physician, when in fact the true owner was not a physician. During the course of the
    investigation, the physician knowingly made false statements to HHS/OIG agents,
    deliberately trying to conceal his role and relationship to the co-defendants. The true owner
    was previously sentenced to 3 years and 3 months of incarceration and ordered to pay more
    than $2 million in restitution, jointly and severally. This was a joint investigation with the
    FBI, DOJ, and the Bureau of Medi-Cal Fraud and Elder Abuse (BMFEA).




                                                 23
•   In March 2012, a Pennsylvania physician was sentenced to over 7 years in prison for a health
    care fraud scheme in which he submitted fraudulent claims and caused more than $1.8 million
    in payments to be paid by Medicare and 31 other health insurers. A Federal jury had
    previously convicted the physician of 150 counts of health care fraud, wire fraud, and making
    false statements in health care matters. He submitted claims for services rendered to patients
    whom he did not personally see or evaluate. The patients had been seen by other physicians
    in the office, but the defendant falsified the charts by making notations indicating that he had
    personally seen and evaluated the patients.

•   In December 2011, a Georgia radiologist was convicted following a jury trial, sentenced to 54
    months’ incarceration, and ordered to pay $919,000 in restitution for health care fraud, wire
    fraud, mail fraud, and alteration of records to obstruct an investigation. The defendant
    submitted bills for radiology services that he did not perform. Non-physician technicians who
    were not qualified to interpret x-rays and other films had actually performed the services, yet
    the defendant fraudulently passed off their reports to hospitals as his own. He also instructed
    employees to alter and destroy records in response to a government subpoena.

•   In June 2012, a Colorado neurologist agreed to pay $747,013 to settle allegations that he
    submitted improper claims to Medicare. The neurologist performs intraoperative monitoring
    (IOM) for companies located throughout the United States. IOM involves remote monitoring
    of a patient’s nervous system during surgery. Under Medicare rules, a physician is permitted
    to bill for the professional component of IOM as a telehealth service, but the physician is
    required to bill for the actual time spent on a per-hour basis, regardless of the number of cases
    simultaneously being monitored. The United States alleged that the neurologist routinely
    conducted multiple IOM services simultaneously in his office and billed Medicare on an
    hourly basis for each patient he was monitoring concurrently, instead of on an hourly basis
    overall. Consequently, he billed in excess of 24 hours per day. In addition to the settlement
    agreement, he agreed to enter into a 5-year Integrity Agreement with OIG.

•   In November 2011, a Maryland physician, was sentenced to over 8 years in prison followed
    by three years of supervised release for six health care fraud offenses in connection with a
    scheme in which he submitted false claims for inserting medically unnecessary cardiac stents,
    ordering unnecessary tests, and making false entries in patient medical records, in order to
    defraud Medicare, Medicaid, and private insurers. The doctor was ordered to pay restitution to
    Medicare and the other health insurance programs in the amount of $579,070 and to forfeit
    $579,070 as proceeds of the crime.

•   In October 2011, 24 defendants were charged in New York in connection with a massive
    health care fraud. Twenty-two of these defendants – including two general practitioner
    doctors, one neurologist, and two chiropractors – were charged with participating in
    fraudulent billing scams that caused no-fault insurance carriers to pay out millions of dollars
    in reimbursements for medical treatments that were never provided to patients or that were
    medically unnecessary. Two defendants, operators of a medical supply company, were
    charged with orchestrating a billing scam in which the defendants forged doctors’ signatures



                                                 24
    and prescriptions to support fraudulent billing to Medicare and Medicaid for millions of dollar
    in durable medical equipment, such as motorized wheelchairs, never supplied to patients.

Other Health Care Providers

•   In August 2012, a formerly licensed psychologist pleaded guilty to a scheme to defraud
    Medicare and Medicaid. Between September 2008 and April 2012, the defendant submitted
    Medicare and Medicaid claims for daily or near daily psychotherapy services to 19
    beneficiaries. He billed up to 17 hours per day for 364 days a year and admitted that, based
    on an estimate of the services he did provide, the amount reimbursed by Medicare and
    Medicaid for services he did not provide to those 19 beneficiaries was $1 million. The
    defendant also admitted that he forged, or caused another person to forge, the signatures of
    five beneficiaries on patient sign-in sheets. He is subject to a sentence of up to 20 years, a
    fine of $500,000, and forfeiture of $1 million. The defendant has surrendered his license to
    practice psychology.

•   In June 2012, a North Carolina woman was sentenced to 36 months imprisonment and ordered
    to pay full restitution for her role in a conspiracy to defraud North Carolina Medicaid of $1.1
    million in sham mental and behavioral health services. The woman held herself out to be a
    provisionally-licensed counselor when, in fact, she was not. Instead, she purchased a fake
    degree online and failed the licensing test five times. Other Medicaid-approved providers
    joined the scheme to defraud by agreeing to submit false and fraudulent claims to Medicaid
    under their provider numbers for services which the unlicensed woman supposedly rendered.

•   In April 2012, Tenet Healthcare Corporation, which owns a network of healthcare facilities
    throughout the nation, paid $42.75 million to resolve allegations that its inpatient
    rehabilitation facilities (IRF) unlawfully admitted Medicare patients who did not meet the
    Medicare standards for IRF admissions. IRFs are designed for patients who require a more
    intense inpatient rehabilitation program than is generally provided in other settings, such as
    acute care hospitals or skilled nursing facilities.

•   In January 2012, a Maryland podiatrist was sentenced to 54 months of incarceration and
    ordered to pay $1.1 million in restitution for his scheme to defraud Medicare Advantage
    (Medicare Part C) plans. The podiatrist pleaded guilty to fraudulently billing Medicare for
    services to patients he had never seen. Additionally, he used the names and other personally
    identifiable information of approximately 200 nursing home patients to submit false claims
    for podiatry care he never provided.

Pharmacies

•   In April 2012, Walgreens, an Illinois-based corporation operating a national retail pharmacy
    chain, paid the United States and participating states $7.9 million to resolve allegations that
    Walgreens violated the FCA. In particular, the settlement resolved allegations that Walgreens
    offered illegal inducements to beneficiaries of government health care programs, including
    Medicare, Medicaid, TRICARE and the Federal Employees Health Benefits Program

                                                 25
    (FEHBP), in the form of gift cards, gift checks and other similar promotions that are
    prohibited by law, to transfer their prescriptions to Walgreens pharmacies. The government
    investigation found that Walgreens had offered government health beneficiaries $25 gift cards
    when they transferred a prescription from another pharmacy to Walgreens. The company’s
    advertisements that promoted gift cards and gift checks for transferred prescriptions typically
    acknowledged that the offer was not valid with Medicaid, Medicare or any other government
    program. Nevertheless, the government alleged that Walgreens employees frequently ignored
    the stated exemptions on the face of the coupons and handed gift cards to customers who were
    beneficiaries of government health programs, in violation of Federal law.

•   In October 2011, the controlling member and pharmacist for an Indiana pharmacy, was
    sentenced to 51 months of incarceration and ordered to pay $3.5 million in restitution for his
    role in a health care fraud and money laundering scheme. Between January 2006 and
    September 2010, the pharmacist used his position at the pharmacy to carry out a scheme to
    defraud the Indiana Medicaid Program. He entered false prescriptions in the pharmacy’s
    computer billing system which, in turn, billed the Indiana Medicaid Program. This
    investigation was conducted jointly with the Indiana Medicaid Fraud Control Unit (MFCU).

•   In August 2012, a Tennessee pharmacist agreed to plead guilty to defrauding health care
    benefit programs of more than $845,000 in a scheme where he mailed misbranded iron
    sucrose to Kansas dialysis centers. The pharmacist represented to the dialysis centers that he
    was providing an FDA-approved product, when he was actually providing a product he
    manufactured, using unapproved chemicals from China. He faces 60 months in prison under
    the terms of a plea agreement.

•   In December 2011, an assistant pharmacist of a Massachusetts pharmacy was sentenced to 12
    months and 1 day of incarceration and was ordered to pay restitution in the amount of
    $292,635 and $60,037 to Medicaid and Medicare, respectively, for his role in a health care
    fraud scheme. The assistant pharmacist and the owner of the pharmacy solicited paper
    prescriptions from customers in exchange for illegal kickbacks and submitted false claims to
    Medicare and Medicaid. They targeted customers with HIV/AIDS and/or psychiatric
    disorders, such as depression and bipolar disorder. The owner was previously convicted on
    the same charge and sentenced to 15 months of incarceration.

Clinics

•   In June 2012, a man, his sister, and her daughter were all sentenced for their roles in a
    Medicare fraud scheme. The trio, along with two co-conspirators, fraudulently organized and
    operated three diagnostic testing clinics in Eastern Michigan. According to court documents,
    between May 2007 and January 2010, the three clinics submitted false claims to Medicare for
    medically unnecessary services. The defendants paid drivers to recruit, drive, and pay
    kickbacks to Medicare beneficiaries to induce them to visit the clinics. The United States
    alleged that the beneficiaries were recruited from soup kitchens and paid to sign paperwork
    indicating they had received diagnostic testing, including nerve conduction testing, that was
    medically unnecessary. The sister was sentenced to 5 years of incarceration and ordered to

                                                26
    pay $2.9 million in restitution, jointly and severally. She was also excluded by HHS/OIG for
    a period of 10 years. The man was sentenced to 24 months of incarceration and ordered to
    pay $592,813 in restitution, jointly and severally. The daughter was sentenced to 36 months
    of incarceration. The co-conspirators were each sentenced to 12 months of incarceration and
    ordered to pay $2.99 million and $1.2 million in restitution, respectively, jointly and severally.

•   In April 2012, the physician-owner of a medical clinic in the state of Washington and his
    mother were sentenced on charges of health care fraud and filing false income tax returns.
    According to court documents, the owner, who was the sole physician for the clinics, used
    three of the clinics to write a high number of prescriptions to thousands of patients for
    narcotic pain medications, such as Oxycodone and Methadone, while often providing little or
    no medical care. His mother served as the business manager and supervisor for the non-
    medical staff. They collected significant sums for these visits and further inflated the
    treatment code levels when billing these visits to the health care programs. The physician-
    owner was sentenced to 12 years and 7 months of incarceration and ordered to pay $1.28
    million in restitution, jointly and severally. His mother was sentenced to 7 years and 3
    months of incarceration and ordered to pay $1.22 million in restitution, jointly and severally.
    Additionally, the physician-owner and his mother were each excluded by HHS/OIG for a
    period of 40 years and 30 years, respectively.

•   In June 2012, an Asheville, N.C. resident pleaded guilty for her role in a health care fraud
    scheme that resulted in the submission of more than $63 million in fraudulent claims to
    Medicare and Medicaid in Miami, FL and Hendersonville, N.C. The defendant, a licensed
    psychological associate, admitted to participating in a fraud scheme that was orchestrated
    through a CMHC that purported to provide partial hospitalization programs (PHPs).
    Specifically, the defendant and others agreed to fabricate therapy notes and other medical
    records and to direct other therapists to do the same, all to make it appear Medicare
    beneficiaries received appropriate services.

•   In June 2012, the CEO and founder of a Pennsylvania mental health clinic, was convicted by a
    jury of 76 counts of health care fraud, aggravated identity theft, distribution of controlled
    substances, and distribution of controlled substances to minors. The defendant opened the
    clinic in 2008 and advertised it as a trauma-specific mental health clinic, directed at victims of
    trauma, children, and members of the military and their families. The defendant falsely
    portrayed herself as a psychiatrist to the patients of the clinic. Using the prescription pads of
    two actual psychiatrists, she provided forged prescriptions to the patients at the clinic and
    medicated the patients whom she purported to be treating. The defendant also wrote
    prescriptions to children, one as young as four years old. In furtherance of her crime, she also
    used the name and unique identifying information of an actual psychiatrist to bill insurance
    companies for patient visits. From February 4, 2009, until the clinic was closed, the defendant
    submitted thousands of bills to insurance companies, charging them more than $500,000, as if
    the patients were being seen by a psychiatrist.

•   In October 2011, the owner and operator of a Texas physical therapy facility and his co-
    conspirators fraudulently used the facility to pay kickbacks to Medicare beneficiaries and

                                                 27
    recruiters; provide physical therapy services to Medicare beneficiaries even though it did not
    employ any licensed or qualified physical therapists; and bill Medicare for physical therapy
    services that were not rendered. To mask this practice, the facility created false and
    fraudulent patient files. The owner/operator was sentenced to 27 years and 3 months of
    incarceration and ordered to pay more than $30.2 million in restitution, jointly and severally.
    The co-conspirators were also sentenced in the scheme. One was sentenced to 3 years and 10
    months of incarceration and ordered to pay more than $25.5 million in restitution, jointly and
    severally. The other was sentenced to 11 years and 3 months of incarceration and ordered to
    pay more than $15.6 million in restitution, jointly and severally.

•   In November 2011, a facility that treats individuals for lymphatic disorders in New Jersey was
    ordered to pay $3 million in restitution after pleading guilty to the submission of false claims
    by its office manager. Between January 2004 and June 2007, the office manager billed
    Medicare and Medicaid for services not provided to patients. Specifically, the staff allegedly
    submitted claims for surgical procedures when, in fact, they had provided physical therapy
    services, which have a lower reimbursement rate.

•   In July 2012, a Miami-area resident and manager of a Detroit-area health clinic and his son
    and clinic-owner were both sentenced after pleading guilty to charges of conspiracy to commit
    health care fraud. Between August 2007 and October 2009, the two and their co-conspirators
    billed Medicare for medically unnecessary tests and services performed by the clinic. The
    Government contended that they used patient recruiters to offer kickbacks to patients and
    coach patients to feign symptoms, which were used as justification for the clinic’s physicians
    to order unnecessary diagnostic tests. The father was sentenced to 40 months of incarceration
    and ordered to pay over $5.3 million in restitution, jointly and severally. His son was
    sentenced to 60 months of incarceration and ordered to pay $6.3 million in restitution, jointly
    and severally.

Medical Equipment Suppliers

•   In April 2012, AmMed Direct, LLC, a durable medical equipment supplier based in
    Tennessee, paid $17.5 million to the United States and $439,003 to the State of Tennessee to
    settle FCA allegations that it submitted false claims to Medicare and Tennessee Medicaid
    (TennCare). The United States alleged that AmMed violated the Medicare Cold Call Rule by
    offering covered supplies, such as diabetes testing supplies, to Medicare beneficiaries who
    called AmMed to request non-covered supplies, such as diabetes cookbooks, that AmMed
    advertised as free. The United States also alleged that AmMed unlawfully retained refunds
    owed to Medicare and TennCare for returned medical supplies.

•   In August 2012, the co-owner of two Los Angeles-area health care companies was sentenced
    to 42 months of incarceration and ordered to pay $7 million in restitution, jointly and
    severally, for his conviction stemming from a 9-year Medicare fraud scheme. The individual
    and a co-defendant were the founders and operators of Prosperity Home Health Services, Inc.
    (Prosperity), a home health agency, and Caravan Medical Supplies Inc. (Caravan), a DME
    company. According to court documents, between October 2002 and February 2011, the co-

                                                28
    owner and co-conspirators paid marketers for Medicare beneficiary information and doctors’
    prescriptions that were acquired fraudulently by the marketers. This information was then
    used by Prosperity and Caravan to submit false claims to Medicare for services that were not
    medically necessary or not provided. The co-defendant was previously sentenced to 8 years
    of incarceration and ordered to pay $7 million in restitution, jointly and severally. The co-
    defendant was also excluded by HHS/OIG for a period of 30 years.

•   In November 2011, Shield Healthcare, a medical supply company in the Los Angeles area,
    paid $5 million to resolve its civil liability under the FCA. From 2003 through 2009, the
    defendant allegedly submitted fraudulent, inflated claims for payment to California’s Medi-
    Cal program for incontinence supplies, as well as other medical supplies.

•   In November 2011, operators and employees of The Mobility Store (TMS), a Houston DME
    company were sentenced to prison for their roles in fraudulently billing braces to Medicare
    and Medicaid as orthotic devices. As a result of this scheme, Medicare reimbursed TMS at a
    rate many times the actual cost of the braces. The four individuals were sentenced to 15
    years, 11 years and 3 months, 3 years and 7 months, and 2 years and 9 months of
    incarceration, respectively, for their roles in the scheme. Additionally, one of the individuals
    was ordered to pay $4 million in restitution, jointly and severally, and the other three were
    each ordered to pay $8.6 million, jointly and severally.

•   In October 2011, the owner/operator of two DME companies that provided oxygen therapy in
    central and west Florida and two associated managers were sentenced to incarceration and
    ordered to pay restitution for participating in a scheme to defraud Medicare and Medicaid.
    Although DME companies are expressly prohibited by Medicare regulations from performing
    the qualifying tests to establish medical necessity for home oxygen, the owner/operator
    allegedly instructed his employees to perform such tests; falsify test results; and alter
    information on office computers, such as the beneficiary’s name and the procedure date. The
    owner/operator was sentenced to 12 years of incarceration and ordered to pay $7 million in
    restitution, jointly and severally. The two managers were sentenced to 42 months of
    incarceration for their roles in the scheme, respectively, and both were ordered to pay $7
    million, jointly and severally, in restitution.

•   In March and May 2012, and as part of an organized crime ring takedown, the owner of a
    Georgia DME company and an associate were sentenced for their roles in a Medicare fraud
    scheme. According to court documents, the owner stole the identities of hundreds of
    Medicare beneficiaries and physicians from multiple states and submitted claims to Medicare
    for medical equipment that was never provided. In addition, his associate engaged in
    numerous fraudulent financial transactions designed to deliberately conceal the proceeds from
    the fraudulent claims that were submitted to Medicare. The owner was sentenced to 12 years
    of incarceration and ordered to pay over $1.8 million in restitution, jointly and severally, for
    conspiracy to commit health care fraud and aggravated identity theft. His associate was
    sentenced to 60 months of incarceration and ordered to pay $308,963 in restitution, jointly and
    severally, on charges of money laundering conspiracy. He will be deported after his
    incarceration. In addition, the owner and associate were each excluded by HHS/OIG for a


                                                 29
    period of 20 years and 15 years, respectively. This case was jointly investigated with the U.S.
    Immigration and Customs Enforcement, the FBI, and the Los Angeles County Sheriff’s
    Office. This investigation has led to more than 35 arrests in connection with this scheme.

•   In October 2011, the owner of a California medical supply company was sentenced to 37
    months of incarceration and ordered to pay $576,803 in restitution for one count of health care
    fraud. Between October 2007 and December 2008, the owner defrauded the Medicare and
    Medi-Cal programs by paying kickbacks to marketers to solicit beneficiary information with
    promises of free DME. The owner then sold the beneficiary information to a Medicare billing
    service, which, in turn, sold some of the information to a fraudulent DME company. The
    fraudulent company then submitted claims to Medicare falsely representing that it had
    supplied DME to the Medicare beneficiaries. The owner received the longest possible prison
    term. In January 2011, the fraudulent company’s owner was sentenced to 37 months of
    incarceration and ordered to pay over $330,000 in restitution.

•   In June 2012, a sales representative for a nationwide supplier of DME, was sentenced to 36
    months of probation and ordered to pay $70,358 in restitution, jointly and severally, after
    pleading guilty to charges of health care fraud. In order to induce beneficiaries to attend her
    sales presentations, the sales representative advertised “no cost” custom fit shoes for diabetics
    and medical equipment for individuals suffering from arthritis. She obtained beneficiaries’
    Medicare and physician information and then suggested products that could help with their
    ailments. The sales representative then ordered as many DME products as possible for those
    beneficiaries without regard to whether they actually requested the products or had a medical
    need for the equipment. When beneficiaries complained about receiving items that they did
    not order, she allegedly told them to “keep the products in the closet until you need them.”
    The president of the supplier was previously sentenced to 3 years and 1 month of
    incarceration and ordered to pay more than $2.2 million in restitution after pleading guilty to
    charges of health care fraud, money laundering, and introduction of an adulterated and
    misbranded medical device into interstate commerce.

Managed Care Organizations

•   In August 2012, SCAN Health Plan, a Long Beach-based managed care health plan, paid
    $319 million to the Federal government and the State of California to resolve allegations that
    it received overpayments from Medi-Cal, California’s Medicaid program, for services
    provided to long term care patients. The overpayments to SCAN resulted from two actuarial
    errors made during the California’s rate-setting process. The first error, which spanned the
    period January 1, 1985 through December 31, 2008, caused Medi-Cal to pay for SCAN’s
    long-term care (LTC) patients, who were generally cared for at home, in the same amount as it
    would for Medi-Cal fee-for-service LTC patients, who were generally in nursing homes. The
    amount paid by Medi-Cal for that latter category of nursing home care is much higher than it
    paid for home care. The second actuarial error, made between July 1, 2001 and December 31,
    2007, failed to account for the fact that SCAN’s Medi-Cal contract authorized SCAN to
    terminate the memberships of LTC patients after they had spent a maximum of two months in



                                                 30
    a nursing home. Due to this error, Medi-Cal, in effect, kept paying SCAN for certain LTC
    patients even after SCAN was no longer obligated to provide services to them.

•   In April 2012, WellCare, a Florida-based managed care organization, agreed to pay the United
    States and nine States a total of $137.5 million to resolve FCA allegations that it
    (1) falsely inflated the amount it claimed to be spending on medical care in order to avoid
    returning money to Medicaid and other programs in various states; (2) knowingly retained
    overpayments it had received from Florida Medicaid for infant care; (3) falsified data that
    misrepresented the medical conditions of patients and the treatments they received; (4)
    engaged in certain marketing abuses, including the "cherrypicking" of healthy patients in
    order to avoid future costs; (5) manipulated "grades of service" or other performance metrics
    regarding its call center; and (6) operated a sham special investigations unit. WellCare will
    make payments over a period of three years. In addition to the settlement, WellCare entered
    into a 5-year CIA with enhanced oversight and reporting obligations.

Nursing Homes

•   In August 2012, a nursing home operator in Georgia was sentenced to serve 20 years in
    Federal prison and ordered to pay $6.7 million in restitution on charges of conspiring with his
    wife to defraud the Medicare and Georgia Medicaid programs between July 2004 and
    September 2007. Medicare and Medicaid paid the operator more than $32.9 million during
    that time for food, medical care, and other services for nursing home residents, but evidence
    presented at trial showed that conditions in the nursing home were so poor that any services
    provided were of no value. This is the first time that a defendant has been convicted after a
    trial in Federal court for submitting claims for payment for “worthless services.” In addition
    to the health care fraud conspiracy count, the operator was also convicted of eight counts of
    failing to pay over $800,000 in his nursing home employees' payroll taxes to the IRS, and of
    failing to file personal income tax returns in 2004 and 2005.

•   In May 2012, Bethany Lutheran Home, Inc. paid $675,000 to resolve FCA allegations that
    from 2002 through 2008, it billed Medicare for medically unnecessary and unreasonable
    rehabilitation therapy services. Because the daily rate that Medicare paid Bethany Lutheran
    depended, in part, on the medically unnecessary therapy it provided, Bethany Lutheran billed
    Medicare at a higher rate than was appropriate.

•   In October 2011, Vanguard Healthcare Ancillary Services, LLC; Vanguard Healthcare, LLC;
    and Vanguard Healthcare Services, LLC (collectively, Vanguard), agreed to pay $2 million as
    a part of a settlement agreement to resolve allegations of false claims and illegal kickbacks.
    Between March 1998 and September 2008, Vanguard allegedly submitted claims to Medicare
    for enteral (nutrition) therapy goods and services that were also billed to the Tennessee and
    Mississippi Medicaid programs. Vanguard also allegedly submitted claims to Medicare for
    certain free items, namely pumps used to deliver nutritional products and intravenous poles
    used in the administration of enteral therapy that Vanguard had received at no cost from a
    third party supplier in order to induce referrals. This investigation was conducted jointly with
    the Tennessee MFCU.

                                                31
Home Health Providers

•   In August 2012, the president and an employee of a home health services supplier in Florida
    were sentenced for their participation in a multi-million dollar fraud scheme. According to
    court documents, between February 2005 and April 2011, the president and her co-
    conspirators paid kickbacks and bribes to patient recruiters in return for the recruiters
    providing patients to the home health supplier, as well as prescriptions, plans of care (POC),
    and certifications for medically unnecessary therapy and home health services. Employees of
    the home health company then falsified patient files for Medicare beneficiaries to appear as
    though they qualified for the services. The president then used these prescriptions, POCs, and
    medical certifications to fraudulently bill Medicare for home health care services. The two
    individuals were sentenced to 9 years and 3 years and 10 months of incarceration,
    respectively. In addition, the president was ordered to pay $14 million in restitution, jointly
    and severally, and the employee was ordered to pay over $2 million in restitution.

•   In August 2012, a private citizen, a representative of an estate, Diversified Health
    Management Inc. (f.k.a. CareAll Management, LLC), the James W. Carell Family Trust,
    CareAll, Inc., VIP Home Nursing and Rehabilitation Services LLC, Professional Home
    Health Care LLC, and University Home Health LLC paid $9.4 million to settle FCA
    allegations that the defendants knowingly submitted or caused to be submitted eight false cost
    reports to Medicare, for cost report years 1999, 2000, and 2001, that concealed the “related
    party” relationship between the agencies and their management company, resulting in the
    defendants’ receipt of excessive Medicare reimbursement.

•   In February 2012, a personal care attendant and her daughter were sentenced for their roles in
    a Medicaid fraud scheme. A relative of the pair was a Medicaid beneficiary and received
    attendant care services from the attendant pursuant to the Medicaid Commerce Waiver
    Program. An initial investigation by the Pennsylvania MFCU revealed that the beneficiary
    suffered from ulcers, bed sores, dehydration, and malnutrition and had missed numerous
    medical appointments. A doctor who examined him in June 2009 recommended that the
    beneficiary be immediately transported to an emergency room. On a number of the
    attendant’s timesheets, the attendant’s daughter signed on behalf of the beneficiary, verifying
    the hours and services provided. Numerous timesheets and claims submitted to Medicaid
    included hours that the attendant allegedly provided care when in fact the attendant was
    employed elsewhere or was out of town or when the beneficiary was hospitalized or was in a
    nursing home. The attendant was sentenced to between 11.5 months to 23 months of
    incarceration and ordered to pay $128,000 in restitution. Her daughter was ordered to pay
    $38,614 of this amount, jointly and severally with the attendant, and was sentenced to a 7-year
    term of probation. This was a joint investigation with the MFCU of the Pennsylvania
    Attorney General’s Office and the Montgomery County District Attorney’s Office.

•   In January 2012, the owner/operator of a Minnesota home health facility was sentenced to 24
    months of incarceration and ordered to pay $656,876 in restitution to Medicaid for claims
    submitted for personal care assistant (PCA) services. Between May 2007 and March 2008,

                                                32
    the owner/operator submitted false claims with respect to the number of PCA service hours
    provided to Medicaid beneficiaries. The owner/operator also submitted false claims to
    Medicaid for services that were not rendered, were provided by an unqualified individual, and
    were not medically necessary. This case was jointly investigated with the Minnesota MFCU.

•   In December 2011, Health Care of Virginia, LLC, (HCV), an HHA, was ordered to pay
    $323,420 in restitution for health care fraud. The company allegedly submitted claims to the
    Virginia Medicaid program for services rendered by untrained personal care aides. The
    investigation indicated that HCV falsified training certificates and patient assessments. Two
    other defendants pleaded guilty for their roles in the fraud scheme and have been sentenced.
    This was a joint investigation with the Virginia MFCU.

Other Medicare/Medicaid Matters

•   In September 2012, Universal Health Services Inc. (UHS), and its subsidiaries, Keystone
    Education and Youth Services LLC and Keystone Marion LLC d/b/a Keystone Marion Youth
    Center agreed to pay over $6.9 million to resolve allegations that they submitted false and
    fraudulent claims to Medicaid. Between October 2004 and March 2010, the entities allegedly
    provided substandard psychiatric counseling and treatment to adolescents in violation of the
    Medicaid requirements. The United States alleged that UHS falsely represented Keystone
    Marion Youth Center as a residential treatment facility providing inpatient psychiatric
    services to Medicaid enrolled children, when in fact it was a juvenile detention facility. The
    United States further alleged that neither a medical director nor licensed psychiatrist provided
    the required direction for psychiatric services or for the development of initial or continuing
    treatment plans. The settlement further resolved allegations that the entities filed false records
    or statements to Medicaid when they filed treatment plans that falsely represented the level of
    services that would be provided to the patients. This was a joint investigation with the
    Virginia MFCU.

•   In August 2012, a CFO of a Medicaid contractor agreed to plead guilty to defrauding Kansas
    Medicaid of more than $2.1 million for sham consulting fees he had paid to a bogus company
    he created, and for sports equipment he “donated” to various sports teams he coached. The
    CFO used the money to build an extravagant home in the country, including a $70,000 pool.
    By the terms of the plea agreement the defendant has entered into, he will be sentenced to 36
    months incarceration and ordered to pay restitution of over $2.1 million.

•   In June 2012, in Ohio, two leaders of an international ring, which stole identities of doctors
    and patients in an effort to bill Medicare for more than $48 million in fraudulent charges, were
    sentenced to 11 years and 8 years of incarceration, respectively. This case was part of a
    nationwide sweep in which 73 people were indicted in New York, Georgia, California and
    New Mexico, for the submission of well over $100 million in fraudulent claims to Medicare.

•   In March 2012, two defendants were convicted of violations of the Controlled Substances Act,
    and the Money Laundering statute, for their involvement in an illegal Internet pharmacy
    operation. One defendant owned and operated the illegal Internet pharmacy, Pitcairn, based in


                                                 33
    Florida; the other owned and operated the fulfillment pharmacy, Kwic Fill, located in North
    Carolina, that filled drug orders for Pitcairn and other illegal Internet pharmacies. Pitcairn
    earned over $75 million during its four years of operation. Kwic Fill earned over $4 million
    in just two months. The pharmacies provided controlled substances to customers solely based
    on the provision of a credit card number and completion of a 10-question medical
    questionnaire. The $75 million in Pitcairn’s revenue was laundered through ten different
    countries, including Switzerland, Liechtenstein, Luxembourg, the Netherlands, Romania,
    Canada, Panama, the Bahamas, St. Kitts & Nevis, and the Netherlands Antilles. Eight other
    defendants have entered guilty pleas in this matter. Three additional defendants are set for
    trial in September 2012.

•   In March 2012, a North Carolina woman was sentenced to 54 months incarceration for her
    role in defrauding Medicaid of $1.5 million. The woman conspired with other Medicaid
    approved providers to submit claims for fraudulent services which she allegedly provided. In
    reality, she did not provide any of the claimed services and merely operated an after school
    program. She nevertheless sought and obtained Medicaid reimbursement for these services by
    misrepresenting the nature of the service and the identity of the clinician providing the
    service. The defendant then spent the proceeds of this fraud on numerous luxury vehicles.
    She also purchased her residence in North Carolina and a time share in Kissimee, Fla., with
    the proceeds of her fraud. In announcing the sentence, the judge characterized the “theft of
    money from a fund for low-income recipients” as appalling and noted that the conduct was
    “egregious” and “deserving of just punishment.” The defendant was ordered to pay $1.5
    million in restitution.

•   In December 2011, a Georgia man was sentenced to over 5 years in prison and ordered to pay
    $1.0 million for health care fraud and criminal HIPAA violations. The defendant persuaded
    numerous practicing physicians to bill Medicare, Medicaid, and private insurers under their
    own provider numbers for allergy-related care provided by him. The defendant had never
    been licensed in Georgia as a physician, physician assistant, nurse practitioner, or clinical
    nurse specialist.

Transportation Providers

•   In June 2012, Rural/Metro Corporation, Rural/Metro of Central Alabama Inc., and Mercury
    Ambulance Service paid $5.4 million to settle FCA claims that the company improperly billed
    Medicare for payment on ambulance services that were never provided or were medically
    unnecessary. In particular, the United States alleged that the defendants represented that
    transported patients were either bed-confined or that transportation by ambulance was,
    otherwise, medically required. Many of those patients, however, were neither bed-confined
    nor needed to be moved on stretchers, and did not require ambulance transportation or qualify
    for ambulance transport under the applicable Medicare requirements.

•   In June 2012, the owners and operators of an ambulance and medical transport company in
    North Carolina entered into a FCA settlement agreement for $950,178. The settlement
    resolved allegations that, between January 2002 and October 2006, the owner/operators


                                               34
    submitted Medicare and Medicaid claims for non-emergency ambulance transport for dialysis
    patients whose transports were not medically necessary because the patients were ambulatory
    and/or not bed-confined. As part of the settlement, the second owner/operator agreed to an
    exclusion of 15 years based on her conviction of conspiracy to make false statements relating
    to health care matters. In the criminal case, she was sentenced to 28 months of incarceration
    and ordered to pay $475,089 in restitution. This was a joint investigation with the North
    Carolina MFCU.

•   In November 2011, the president and owner of an ambulance company in Rhode Island was
    sentenced to 24 months of incarceration and ordered to pay $704,117 in restitution for health
    care fraud. Between March and December 2008, the president/owner submitted fraudulent
    claims to Medicare and Blue Cross and Blue Shield by billing routine dialysis transports as
    specialty care transports (SCT), even though the ambulance company did not have the proper
    equipment or personnel to provide SCTs. This upcoded billing, which should have been
    billed as basic life support, resulted in a higher reimbursement rate. The president/owner also
    instructed his employees to alter the trip sheets to ensure that the transports qualified as SCTs.

Hospice Providers

•   In February 2012, Odyssey Healthcare, Inc., (Odyssey) a subsidiary of Gentiva Health
    Services, Inc., agreed to pay $25 million to resolve FCA allegations that between January
    2006 and January 2009, it submitted claims for hospice services that were medically
    unnecessary. The investigation found Odyssey billed Medicare for continuous or crisis care
    services when the patients were not experiencing a crisis. “Continuous or crisis” care is
    reimbursed by Medicare at a higher rate than routine care. As part of the settlement, Odyssey
    entered into a 5-year CIA with HHS/OIG.

•   In December 2011, Diakon Lutheran Social Ministries d/b/a Diakon Hospice Saint John
    (Diakon) paid $10.6 million to resolve FCA claims that it erroneously submitted claims for
    Medicare beneficiaries who were not eligible for hospice care during the period from October
    1, 2004 to September 30, 2010.

•   In June 2012, Hospice Care of Kansas, LLC and its parent company, Voyager HospiceCare,
    Inc., paid $6.1 million to resolve allegations that it violated the FCA by submitting claims
    between January 2004 and December 2008 for ineligible beneficiaries who did not have a
    terminal prognosis of six months or less.

•   In August 2012, Hospice Family Care Inc. (HFC) in Arizona agreed to pay $3.7 million to
    resolve its liability for allegations under the FCA. HFC, which was owned by two registered
    nurses, provided hospice care under Medicare’s hospice benefit. To be eligible for hospice
    care, the patient’s attending physician and the hospice’s medical director must certify the
    patient is terminally ill. Medicare reimbursement is based on the level of care provided by the
    hospice. According to court records, HFC allegedly submitted claims to Medicare for the care
    of patients who were either completely or partially hospice ineligible or were provided a
    higher level of hospice care than was necessary or allowable. As part of the agreement, both


                                                 35
    nurses agreed to be excluded from participation in Federal health care programs for a period
    of 7 years.

•   In December 2011, Hospice Home Care, Inc., (HHC) agreed to pay $2.7 million to resolve its
    liability under the FCA for allegedly submitting false claims to Medicare. Between January
    2002 and December 2004, HHC allegedly billed Medicare for general inpatient services when
    the patients received only routine care, which has a lower reimbursement rate.

Other Schemes

•   In March 2012, LifeWatch Services, Inc. paid $18.5 million to resolve allegations that it
    violated the FCA by submitting false claims to Medicare for heart monitoring services that
    were not eligible for reimbursement.

•   In July 2012, NextCare, Inc, an Arizona-based company, agreed to pay $10 million to settle
    Federal and state allegations that it submitted false claims to Medicare, TRICARE and the
    FEHBP, as well as the Medicaid programs of Colorado, Virginia, Texas, North Carolina and
    Arizona, for unnecessary allergy, H1N1 virus and respiratory panel testing. The United States
    also contended that NextCare inflated billings for urgent care medical services in the years
    under review.

•   In February 2012, Accela Medical LLC, a laboratory established to bill Medicare for
    diagnostic testing services, and six other defendants (Western Slope Laboratory, Coventry
    Diagnostics LLC, Performance Labs, Inc., and individual defendants) paid $5.4 million to
    resolve FCA claims that they fraudulently secured a provider number for McCormick, who
    had been excluded from the Medicare program, to further the scheme. The United States
    further contended that the defendants billed Medicare for quantitative opiate tests that were
    never performed. A non-party investor in defendant Coventry Diagnostics separately paid the
    United States $400,000 in Medicare funds he had received from Coventry.

•   In December 2011, February 2012, and June 2011, three individuals were sentenced to 7
    years, 5 years and 3 months, and 2 years and 6 months of incarceration, respectively.
    Between December 2007 and February 2008, these co-conspirators laundered fraudulent
    proceeds from five pharmacies and DME companies. One individual was charged with 15
    counts of money laundering and 2 counts of structuring to avoid reporting requirements and
    was ordered to pay $250,000 in restitution following his jury trial conviction. After the
    convictions of these individuals and with cooperation from other defendants, the owner of the
    pharmacies and DME companies was indicted for allegations of crimes, including health care
    fraud and aggravated identity theft.

•   In November 2011, a private citizen was sentenced to 7 years and 2 months of incarceration
    for possession with intent to distribute, as well as for distributing the Schedule II drug
    Oxycodone. The individual was part of a fraud scheme that entailed obtaining paper
    Oxycodone prescriptions from a local physician who prescribed the controlled substances to



                                               36
Medicare and Medicaid beneficiaries, despite lack of medical necessity. He then assisted in
filling the prescriptions and trafficking the drugs to street dealers.




                                           37
  DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                     Office of Inspector General

A certain portion of the funds appropriated under HIPAA are, by law, set aside for Medicare and
Medicaid activities of HHS/OIG. 13 In FY 2012, the Secretary and the Attorney General jointly
allotted $196.1 million to HHS/OIG. Additionally, Congress appropriated $29.7 million in
discretionary funding for HHS/OIG HCFAC activities.

HHS/OIG conducted investigations or other inquiries that resulted in 1,145 prosecutions or
settlements in FY 2012, of which 1,047, or 91 percent, were health care cases. A number of these
are highlighted in the Accomplishments section. In addition, during FY 2012, HHS/OIG
excluded a total of 3,131 individuals and entities, the details of which are below.

In FY 2012, HHS/OIG continued to staff and support Medicare Strike Force operations worked in
conjunction with DOJ Criminal Division’s Fraud Section, local USAOs, the FBI, and State and
local law enforcement agencies. HHS/OIG has assigned agents to Strike Forces in Miami, New
York City, Houston, Tampa, Detroit, Los Angeles, Baton Rouge, Dallas, and Chicago. HHS/OIG
has supported Strike Force operations by providing investigative, analytic, and forensic resources.
These Strike Forces have effectively investigated and prosecuted individuals and entities that do
not provide legitimate health care services, but exist solely for the purpose of defrauding
Medicare and other Government health care programs. The continued support of Medicare Strike
Force operations is a top priority for HHS/OIG.

Program Savings

Frequently, investigations, audits, and evaluations reveal vulnerabilities or incentives for
questionable or fraudulent practices in agency programs or administrative processes. As required
by the Inspector General Act, HHS/OIG makes recommendations to agency managers to address
these vulnerabilities. In turn, agency managers recommend legislative proposals or other
corrective actions that, when enacted or implemented, close loopholes and reduce improper
payments or conduct. The savings from these joint efforts toward program improvements can be
substantial. During FY 2012, HHS/OIG reported that legislative and administrative actions to
make funds available for better use resulted in an estimated $8.5 billion in health care savings
attributable to FY 2012 – $8 billion in Medicare savings and $525 million in savings to the
Federal share of Medicaid.

Additional information about savings achieved through such policy and procedural changes may

13
  In addition to the funds made available to OIG from the HCFAC account under HIPAA, Congress has provided
funds to OIG specifically for oversight of the Medicaid program. The Deficit Reduction Act of 2005 (DRA, P.L.
109-171), and the Supplemental Appropriations Act of 2008 (Pub. L. 110-252) at § 7001(b) each appropriated
funding for Medicaid-related oversight efforts. Therefore, OIG’s Medicaid activities cited throughout this report
may have drawn from these funding sources, in addition to HCFAC.


                                                       38
be found in the HHS/OIG Semiannual Report, on-line at http://oig.hhs.gov.

Exclusions

One important mechanism for safeguarding the care provided to program beneficiaries is through
exclusion of providers and suppliers who have engaged in the abuse or neglect of patients or fraud
from participation in Medicare, Medicaid, and other Federal health care programs. During
FY 2012, HHS/OIG excluded a total of 3,131 individuals and entities. Among these were
exclusions based on criminal convictions for crimes related to Medicare and Medicaid (912) or to
other health care programs (287); for patient abuse or neglect (212); or as a result of licensure
revocations (1,463). This list of conduct is not meant to be exhaustive, but identifies the most
prevalent causes underlying HHS/OIG’s exclusions of individuals or entities in FY 2012.
Exclusion actions by HHS/OIG included:

•   Texas – In September 2012, a nurse was excluded from participation in Federal health care
    programs for a period of 60 years after she was sentenced to life in prison without parole for
    capital murder. In April 2008, the nurse worked at a dialysis center in Lufkin, Texas, which
    serviced Medicare beneficiaries. During the time of her employment, the facility experienced
    an unusual rate of patients suffering cardiac arrest while undergoing dialysis. According to
    court records, on April 28, 2008, two patients witnessed the nurse draw bleach into a syringe
    and inject it into the dialysis lines of patients at the dialysis center, causing the patients to
    suffer distress and respiratory arrest. It was determined that at least five patients died and five
    others suffered cardiac arrest that did not result in death due to the nurse injecting bleach into
    their dialysis lines or directly into their bloodstream.

•   Iowa – In December 2011, a certified medication aide at a residential facility was excluded for
    20 years for his conviction on two counts of dependent adult abuse. He sexually exploited
    two dependent adults and caused them to suffer mental injuries and increased symptoms
    regarding their mental health problems. The medication aide also has a prior criminal history
    that includes convictions for driving with a suspended license; assault with intent to cause
    pain or injury; theft in the fifth degree; driving while barred – habitual offender; and
    possession of a controlled substance.

•   Florida – In December 2011, the owner of durable medical equipment companies was
    excluded for 95 years on the basis of his conviction of health care fraud and conspiracy to
    commit health care fraud. From 2002 to about August 2004, the owner and his co-
    conspirators submitted false Medicare claims on behalf of the companies, seeking
    reimbursement for DME that was neither ordered by a physician nor provided to the
    beneficiary. The court ordered him to pay $35.1 million in restitution and to serve 168 months
    of incarceration.

•   Ohio – In January 2012, a pediatrician was excluded for 50 years on the basis of his
    conviction of unlawful sexual conduct with a minor, bribery, complicity to deception to obtain
    dangerous drugs, and compelling prostitution. From about March 1992 to about December
    2008, this physician provided prescriptions for controlled substances or money to patients in


                                                 39
    return for sexual favors. The court sentenced him to 13 years of incarceration. The Ohio
    State Board of Medicine permanently revoked his license to practice medicine.

•   California – In June 2012, the former medical doctor of a famous pop singer was excluded for
    a minimum period of 50 years based on his conviction for involuntary manslaughter.
    According to court documents, the doctor’s actions included administering Propofol, an
    anesthetic drug used to induce and maintain anesthesia to the singer on a nightly basis for over
    2 months. On June 25, 2009, he administered Propofol, along with another drug to the singer
    and then abandoned him. When he directed his attention back to his patient, he found that he
    was no longer breathing. It is alleged that the doctor waited at least 20 minutes prior to
    summoning emergency personnel. In November 2011, a jury convicted him of involuntary
    manslaughter for his actions. He was sentenced to 4 years of incarceration, ordered to pay
    $101,827,871 in restitution, and ordered to cease and desist from practicing medicine in the
    State of California.

•   Arizona – In May 2012, an Arizona medical doctor specializing in pediatrics was excluded
    indefinitely based on the revocation of his license by the Arizona Medical Board. According
    to court records, an FBI agent from the Innocent Images Unit signed into a file sharing
    program on the internet and came into contact with a person later identified as this physician,
    who was sharing approximately 10,000 files. The files contained multiple images of child
    pornography. After being charged with distributing child pornography in interstate
    commerce, the Medical Boards of California and Texas revoked the physician’s license to
    practice medicine in their States. On September 2010, while on house confinement, the
    physician removed his electronic monitoring unit and absconded. He remains a fugitive.

Other Administrative Enforcement Actions – Civil Monetary Penalties

HHS/OIG has the authority to impose civil monetary penalties (CMPs) against providers and
suppliers who knowingly submit false claims to the Federal government, who participate in
unlawful patient referral or kickback schemes, who fail to appropriately treat or refer patients at
hospital emergency rooms, or who engage in other activities prescribed in statute. HHS/OIG has
continued to pursue its affirmative enforcement actions under these authorities. Examples
include:

•   Mississippi – OIG reached settlements with eight physicians who allegedly violated the Civil
    Monetary Penalties Law (CMPL) by causing the submission of false claims to Medicare from
    physical medicine companies. Specifically, the physicians reassigned their Medicare
    payments to various physical medicine companies in exchange for medical directorship
    positions. The companies then falsely billed Medicare using the physicians’ reassigned
    provider numbers as if the physicians had personally rendered the services or directly
    supervised individuals rendering the services. The eight physicians have collectively paid
    $604,874 to resolve their CMPL liability. Several owners and operators of the physical
    medicine companies were criminally prosecuted in Federal court for their roles in these
    schemes.



                                                40
•   New Jersey – In December 2011, Sandoz Inc. (Sandoz), a pharmaceutical manufacturer,
    agreed to pay $230,000 to resolve its potential liability under the CMPL. Specifically, the
    Government contended that Sandoz failed to timely submit pricing data required under the
    Medicaid Drug Rebate Program.

•   Georgia – In October 2011, Piedmont Hospital (Piedmont) agreed to pay $50,000 to resolve
    its potential liability under the Emergency Medical Treatment and Active Labor Act
    (EMTALA). The Government alleged that Piedmont failed to provide an appropriate medical
    screening exam and stabilizing treatment for an individual who presented to Piedmont’s
    emergency department for evaluation and treatment of an emergency medical condition. The
    individual made repeated requests for treatment for approximately 8 hours without success.
    The individual left Piedmont, went to another hospital, and was diagnosed and treated for
    deep vein thrombosis and pulmonary embolus.

•   Tennessee – In December 2011, Vanderbilt University Medical Center (Vanderbilt) agreed to
    pay $45,000 to resolve its potential liability under EMTALA. The Government alleged that
    Vanderbilt refused to accept the appropriate transfer of a 66-year-old patient suffering from a
    large subdural hematoma on the brain with a midline shift. The patient, who had an unstable
    emergency medical condition that required the specialized capabilities available at Vanderbilt,
    died a few hours later at another hospital. The neurosurgeon on call at Vanderbilt agreed to
    pay $35,000 to resolve his potential liability as a responsible physician under EMTALA for
    refusing to accept an appropriate transfer of an individual with an unstable emergency medical
    condition that required the services of a neurosurgeon.

•   Massachusetts – In April 2012, Baypointe Rehabilitation and Skilled Care Center, a nursing
    home, agreed to pay $351,255 to resolve its liability under the CMPL. Baypointe employed
    an excluded nurse as its Assistant Director of Nursing from January 2006 through July 2009.
    OIG excluded the nurse after the Mississippi Board of Nursing revoked her license following
    a positive pre-employment drug test. The Government contended that Baypointe should have
    known that the nurse was excluded.

Audits and Evaluations

Every year, HHS/OIG conducts a substantial number audits and evaluations that disclose
questionable or improper conduct in Medicare and Medicaid, and recommends corrective actions
that, when implemented, correct program vulnerabilities and save program funds. Among those
completed in FY 2012 were:

Medicaid Drugs

    •   HHS/OIG found that states could better approximate pharmacies’ invoice prices of drugs
        by developing separate reimbursement methodologies for major categories of drugs
        (single-source drugs, brand-name multiple-source drugs, and generic multiple-source
        drugs). Numerous OIG reviews have found that the basis that states historically used for
        Medicaid drug reimbursements did not represent pharmacies’ actual costs to acquire drug

                                               41
       ingredients (invoice prices) and as a result, states often have over-reimbursed pharmacies
       for those costs. This review evaluated the relationships between three recognized pricing
       benchmarks and pharmacy invoice prices for Medicaid-reimbursed drugs and found
       variations depending on whether the drugs were brand-name or generic. HHS/OIG
       recommended that CMS share the results of this review with states to use when
       considering changes to their pharmacy reimbursement methodologies, including those for
       major categories of drugs.

   •   HHS/OIG found that neither CMS nor the 14 state agencies that it reviewed had adequate
       controls to ensure that all drug expenditures complied with Federal requirements. Federal
       Medicaid funding is generally available for covered outpatient drugs if the drug
       manufacturers have rebate agreements with CMS and pay rebates to the states. The
       agreements require manufacturers to provide a list of all covered outpatient drugs to CMS
       quarterly. However, manufacturers did not always provide information timely. In
       addition, HHS/OIG found that the states generally did not use the quarterly Medicaid drug
       tapes (quarterly listings) to determine whether a drug was eligible for coverage and did not
       contact CMS to determine whether a drug was eligible for coverage if the drug was not on
       the tapes. HHS/OIG recommended that CMS instruct states to ensure compliance with
       Federal requirements, appropriately report terminated drug expenditures to states, and
       require that states use the reports to ensure compliance. CMS should also work with
       manufacturers to ensure that they collect and submit complete and accurate information
       and take appropriate action if they are not timely in providing the information.

Medicaid Personal Care Services

Medicaid reimburses for personal care services, which are generally furnished to individuals
residing in their homes and not residing in hospitals, nursing facilities, intermediate care facilities
for the mentally retarded, or institutions for mental diseases. Further, Medicaid beneficiaries are
authorized for personal care services by a physician in accordance with a plan of treatment or with
a service plan approved by each state. Other requirements may also apply based on state
regulations.

   •   HHS/OIG found that New Jersey improperly claimed an estimated $145 million in Federal
       Medicaid reimbursement for PCS. Types of deficiencies in the claims reviewed included
       lapses relating to: authorizations, in-service education for personal care attendants,
       nursing supervision, documentation of services, nursing assessments, and certification of
       personal care attendants by the New Jersey Board of Nursing. New Jersey did not
       effectively monitor the PCS program for compliance with Federal and State requirements.
       HHS/OIG recommended that the state refund $145 million to the Federal government and
       improve its monitoring of the PCS program to help ensure compliance with Federal and
       state requirements.

   •   HHS/OIG found that New Mexico improperly claimed about $889,000 in Federal
       reimbursement for PCS provider Ambercare that did not always comply with certain
       Federal and state requirements. The deficiencies included lapses with attendant training,

                                                 42
       lack of support for the number of units claimed for attendant services, and prior approval
       for PCS provided by a legal guardian. HHS/OIG recommended that New Mexico refund
       $889,000 to the Federal government and ensure that PCS providers maintain evidence that
       they comply with Federal and State requirements.

   •   HHS/OIG found that New Mexico did not always ensure that PCS provider Coordinated
       Home Health’s (Coordinated’s) claims for Medicaid personal care services complied with
       certain Federal and state requirements. Based on sample results, HHS/OIG estimated that
       Coordinated improperly claimed at least $11 million (Federal share) for personal care
       services during the period October 1, 2006, through September 30, 2008. Of the 100
       claims in the sample, 54 complied with requirements, but 46 did not. Three of the 46
       claims were partially allowable. The 46 claims contained a total of 60 deficiencies,
       including insufficient attendant qualifications. HHS/OIG recommended, among other
       things, that the state refund to the Federal government the $11 million paid to Coordinated
       for unallowable personal care services.

   •   For the period October 1, 2006, through September 30, 2008, HHS/OIG estimated that
       New Mexico paid PCS provider Heritage Home Healthcare (Heritage) approximately $4.5
       million for personal care services claims that did not always comply with certain Federal
       and State requirements. Of the 100 claims in the random sample, 36 did not comply with
       these requirements. The deficiencies included insufficient attendant training, missing prior
       approval for services, and unsupported units of service claimed. HHS/OIG recommended,
       among other things, that the state refund to the Federal government the $4.5 million paid
       to Heritage for unallowable personal care services.

   •   On the basis of sample results, HHS/OIG estimated that the Missouri Department of
       Social Services (State agency) claimed $26.7 million (Federal share) in reimbursement for
       Medicaid personal care services that did not comply with Federal and State requirements.
       In addition, the state agency claimed $213,000 (Federal share) for personal care services
       that were not supported by the claim data because the State agency did not have
       procedures to maintain that supporting documentation. Of the 100 grouped line items in
       our sample, 50 complied with Federal and state requirements. HHS/OIG recommended,
       among other things, that the State agency refund $26.9 million to the Federal government.

Medicaid Continuing Day Treatments

   •   HHS/OIG found that more than half of the claims for continuing day treatment (CDT)
       services that it reviewed did not comply with one or more of New York State’s
       requirements for payment, resulting in unallowable Federal reimbursements estimated at
       about $84.4 million. CDT is a form of clinic services performed by non-hospital
       providers that New York includes among its licensed outpatient programs. Providers did
       not properly document the type of CDT services billed, recipients’ clinical progress,
       and/or recipients’ contacts with outpatient program staff. Although the State conducts
       periodic onsite monitoring, its monitoring program did not ensure that providers complied


                                               43
       with all state requirements. HHS/OIG recommended that the State refund $84.4 million to
       the Federal government, work with the State Office of Mental Health to issue guidance to
       the provider community regarding State requirements for claiming Medicaid
       reimbursement for CDT services, and work with the state office to improve its monitoring
       of the CDT program to ensure compliance with State requirements.

Medicaid Transportation Services

States are required to ensure necessary transportation for Medicaid beneficiaries to and from
providers. Pursuant to New York State regulations, nonemergency medical transportation
(NEMT) services may be delivered through the use of an ambulance, an ambulette, a taxicab, or
livery service. However, prior authorization must be obtained; a medical practitioner’s order
justifying the beneficiary’s use of NEMT services must be documented in the beneficiary’s
medical record; and a transportation provider must notify the New York Department of Motor
Vehicles within 10 days of the date on which an ambulette driver commences employment.

   •   HHS/OIG found that New York improperly claimed an estimated $13.5 million in Federal
       Medicaid reimbursement for NEMT services. The deficiencies occurred because New
       York State’s policies, procedures, and mechanisms for overseeing the Medicaid program
       did not ensure that providers complied with Federal and state requirements for ordering,
       documenting, providing, and claiming such services. HHS/OIG recommended that the
       state refund $13.5 million to the Federal government; strengthen policies and procedures
       to ensure compliance with requirements for ordering, documenting, and claiming NEMT
       services; and require the New York State social services districts to strengthen their
       quality assurance mechanism to ensure that NEMT services are properly provided.

   •   HHS/OIG found that during a 1-year period, New York improperly claimed Federal
       reimbursement for almost 1 million NEMT claims for services in New York City. We set
       aside for further analysis additional New York City NEMT claims that may also have
       been noncompliant. New York’s policies and procedures did not ensure that providers
       complied with Federal and state requirements for ordering, documenting, and claiming
       NEMT services, and New York City’s social services district’s quality assurance
       mechanism did not ensure that NEMT services were properly provided. HHS/OIG
       recommended that the state refund an estimated $17 million to the Federal government;
       resolve $2.9 million set aside for further analysis; and strengthen policies, procedures, and
       quality controls.

Medicaid Managed Care

   •   HHS/OIG found that 11 excluded providers enrolled in 4 of 12 Medicaid managed care
       entities (MCE) provider networks. Only providers enrolled in the 12 selected MCEs were
       reviewed; additional excluded individuals may be employed by providers enrolled in the 663
       MCEs not included in this study. States may benefit from sharing information regarding
       the failures that led to the inclusion of these few excluded providers in MCE provider
       networks. For example, two MCEs explained that excluded providers had joined their

                                                44
       MCE networks through their acquisition of other MCEs or the providers had simply not
       been removed from the enrollment data when their last contracts expired or were
       terminated. This report also describes the safeguards MCEs use to identify excluded
       providers. HHS/OIG recommended that CMS periodically remind states of their
       obligation to ensure that no excluded providers receive Medicaid payments.

   •   Medicaid MCE reported to HHS/OIG that they took steps to oversee fraud and abuse
       safeguards, but they remain concerned about the prevalence of fraud. CMS, states, and
       Medicaid MCEs expressed that services billed but not rendered are their primary concern
       with respect to fraud and abuse in Medicaid managed care. Other concerns include
       rendering services that are not medically necessary, upcoding by providers, questionable
       beneficiary eligibility, and prescription drug abuse by beneficiaries. All MCEs in our
       sample reported taking steps to meet Federal program integrity requirements. HHS/OIG
       recommended that CMS require that state contracts with MCEs include a method to verify
       with beneficiaries whether they received services billed by providers. HHS/OIG also
       recommended that CMS update guidance to reflect concerns expressed by MCEs and
       States.

Medicaid Contractors

The Deficit Reduction Act (DRA) of 2005 established the Medicaid Integrity Program as the first
comprehensive effort by CMS to fight fraud, waste, and abuse within Medicaid. CMS defined
three types of Medicaid Integrity Contractors to perform the program integrity activities listed in
the DRA: Review MICs, Audit MICs, and Education MICs. Review MICs review State
Medicaid claims data and identify potential overpayments. Audit MICs conduct audits of
providers and identify actual overpayments. Education MICs educate providers and beneficiaries
on program integrity issues. During FY2012, HHS/OIG conducted two reviews of activities
conducted by Audit and Review MICs.

   •   HHS/OIG found that Review MICs completed 81 percent of their assignments; however,
       they had limited involvement in recommending specific audit leads and identifying
       potential fraud. Further, because data were missing or inaccurate, Review MICs were
       hindered in their ability to accurately complete data analysis assignments. States
       invalidated more than one-third of sampled potential overpayments from assignments,
       mainly because data were missing or inaccurate. As a result, some of Review MICs’ data
       analyses may not lead to recoveries. HHS/OIG recommended that CMS improve the
       quality of data that Review MICs can access for conducting data analysis and require
       Review MICs to recommend specific audit leads.

   •   HHS/OIG found that the performance of Audit MICs was hindered because audit targets
       were poorly identified. Audit targets were misidentified because of data problems and
       because S tate program policies were applied incorrectly. Of the 370 audits assigned to
       Audit MICs, 81 percent of audits either did not or are unlikely to identify overpayments.
        Only 11 percent of assigned audits were completed with findings of $6.9 million
       in overpayments, $6.2 million of which resulted from seven completed collaborative

                                                45
       audits. HHS/OIG recommended that CMS increase collaboration among Audit and
       Review MICs, CMS, and States to improve target selection.

Medicaid Administrative Claims

   •   HHS/OIG found that for FYs 2005 and 2006 New Jersey’s Medicaid Administrative
       Claim (MAC) did not comply with Federal requirements for claiming costs associated
       with the administration of the state Medicaid plan. Specifically, Maximus Inc.
       (Maximus), the contractor that computed the MAC, included unallowable salaries and
       operating costs in the cost pool used to compute the MAC, resulting in a claim for $22.2
       million ($11.1 million Federal share) in excess Medicaid administrative costs. HHS/OIG
       recommended, among other things, that the state refund $22.5 million to the Federal
       government.

   •   HHS/OIG found that for FY 2007 New Jersey’s MAC did not comply with Federal
       requirements. Specifically, the state agency's contractor, Maximus, included unallowable
       costs in the cost pool used to compute the MAC, resulting in a claim for $10 million ($5
       million Federal share) in excess Medicaid administrative costs. However, HHS/OIG was
       unable to express an opinion on the allowability of the remaining $15.9 million ($8
       million Federal share) claimed on the State agency's MAC. HHS/OIG recommended,
       among other things, that New Jersey refund $5 million to the Federal government and
       work with CMS to determine what portion of the remaining $8 million in Medicaid
       administration costs claimed for FY 2007 was allowable under Federal requirements.

Medicaid Waiver Programs

   •   HHS/OIG found that for calendar years 2005 through 2007 New Jersey claimed Federal
       Medicaid reimbursement for some Community Care Waiver (CCW) program services that
       did not comply with certain Federal and state requirements. HHS/OIG estimated that, as a
       result, the State improperly claimed $60.7 million in Federal Medicaid reimbursement.
       The CCW program allows the state agency to claim Medicaid reimbursement for home
       and community-based services (HCBS) provided to individuals with intellectual and
       developmental disabilities. Without HCBS, these individuals would require
       institutionalization in an Intermediate Care Facility for the Mentally Retarded (ICF/MR).
       HHS/OIG recommended, among other things, that the state refund $60.7 million to the
       Federal government.

   •   Based on sample results, HHS/OIG estimated that New Jersey improperly claimed
       approximately $2.7 million in Federal Medicaid reimbursement for CCW program
       services provided by Bancroft NeuroHealth (Bancroft) that did not comply with certain
       Federal and state requirements during calendar years 2005 through 2007. The claims for
       unallowable services were made because: Bancroft and the State's Division of
       Developmental Disabilities (the division) did not ensure that they only claimed for
       documented, allowable CCW program services; the division did not ensure that CCW


                                              46
       program services were provided only to beneficiaries with completed and approved
       individual habilitation plans; and the division did not ensure and document that all
       beneficiaries were assessed and certified to require an ICF/MR level of care. HHS/OIG
       recommended, among other things, that New Jersey refund $2.7 million to the Federal
       government.

   •   The New York State Department of Health (DOH) claimed Federal Medicaid
       reimbursement for some Office for People With Developmental Disabilities (OPWDD)
       waiver program services provided by New York City providers that did not comply with
       certain Federal and State requirements. Based on sample results, HHS/OIG estimate that
       DOH improperly claimed $7.8 million in Federal Medicaid reimbursement for OPWDD
       waiver program services during calendar years 2006 through 2008. The claims for
       unallowable services were made because DOH and OPWDD’s policies and procedures for
       overseeing and administering the waiver program were not adequate to ensure that
       providers claimed reimbursement only for services actually provided and maintained all
       the required documentation to support services billed; and OPWDD waiver program
       services were provided only to beneficiaries pursuant to written plans of care. HHS/OIG
       recommended, among other things, that DOH refund $7.8 million to the Federal
       government.

Medicaid Fraud Control Units

HHS/OIG is responsible for overseeing the activities of all Medicaid Fraud Control Units
(MFCUs or Units). As part of this oversight, HHS/OIG conducts periodic onsite reviews of the
Units. These reviews describe the Units’ caseload and assess their performance; identify any
opportunities for improvement and instances of noncompliance with laws, regulations, and policy
transmittals; and identify noteworthy practices.

   •   In its review of the New York MFCU, HHS/OIG found, among other things, that from
       fiscal years 2008 to 2010 the Unit filed criminal charges against more than 400
       defendants, obtained over 400 convictions, and was awarded more than $750 million in
       recoveries. However, the Unit did not establish annual training plans for each of the three
       professional disciplines (auditors, investigators, or attorneys) and provided limited training
       opportunities to staff. The Unit also lacked policies and procedures to reflect many of its
       current practices, and its case files lacked consistency and uniform supervisory reviews.
       At the same time, the review found no evidence of significant noncompliance with
       applicable laws, regulations, or policy transmittals. HHS/OIG recommended that the New
       York MFCU, among other things, establish annual training plans and increase the number
       of training opportunities available to staff, ensure that its memorandum of understanding,
       policies, and procedures reflect current practices, and ensure that its case files are
       maintained with greater consistency and reviewed more frequently.




                                                47
Quality of Care

   •   HHS/OIG found that State survey and certification agencies’ (State agencies) responses to
       allegations of serious harm to hospital patients were generally timely. However, State
       agencies often missed opportunities to incorporate patient safety principles. In addition,
       CMS often failed to inform the Joint Commission concerning complaints about the
       hospitals it accredits, thereby impeding the Joint Commission’s oversight. Together, five
       types of in-hospital adverse events represented half or more of the complaints in our
       sample: sexual assault, medication error, physical abuse by hospital staff, restraint
       problems, and suicide. Investigations into these types of events led to most of the citations
       issued. State agencies conducted the investigations on behalf of Medicare. The hospitals’
       corrective actions resulted largely in training, coupled with policy and process changes.
       HHS/OIG recommended that CMS require that State surveys evaluate compliance with
       quality improvement requirements, ensure that States monitor hospitals’ corrective
       actions, amend guidance on State agency disclosure of the nature of complaints to
       hospitals, and improve communication with accreditors.

Medicare-Medicaid Data Matching

   •   The Medicare-Medicaid Data Match program (Medi-Medi program) enables program
       safeguard contractors and participating Federal and State government agencies to
       collaboratively analyze billing trends across the Medicare and Medicaid programs to
       identify potential fraud, waste, and abuse. Participation is optional. In its review of this
       program, HHS/OIG found that the Medi-Medi program produced limited results and few
       fraud referrals. In addition, during 2007 and 2008, the program – in which 10 states had
       chosen to participate – received $60 million in appropriations and it avoided and recouped
       $57.8 million. Also, of the $46.2 million total in Medicare and Medicaid expenditures
       recouped through the program during 2007 and 2008, more than three quarters, $34.9
       million, was recouped for Medicare. HHS/OIG recommended that CMS reevaluate the
       goals, structure, and operations of the Medi-Medi program to determine what aspect of the
       program, if any, should be part of CMS's overall program integrity strategy.

Medicare Physician Services

   •   Two reviews of paid claims for cardiovascular and musculoskeletal surgeries in 2007
       revealed that Medicare’s payment methodology often did not reflect the actual number of
       evaluation and management (E/M) services actually provided to beneficiaries, resulting in
       wasteful spending. The physician fee schedule includes global surgery fees for the
       surgical service and the related preoperative and postoperative E/M services provided
       during the global surgery period. In determining a global surgery fee, CMS estimates the
       number of E/M services that a physician provides to a typical beneficiary during the
       global surgery period and compensates physicians regardless of the E/M services actually
       provided. For the two types of surgeries, Medicare paid an estimated $63 million in E/M
       services that were not provided in 2007. HHS/OIG recommended that CMS adjust the
       estimated number of E/M services within cardiovascular and musculoskeletal global

                                               48
       surgery fees to reflect the actual number of such services being provided to beneficiaries
       or use the results of this audit during the annual update of the physician fee schedule.

Comprehensive Outpatient Rehabilitation Facilities

   •   HHS/OIG found that 18 of the 101 South Florida Comprehensive Outpatient
       Rehabilitation Facilities (CORF) included in its analysis were not operational. Ten of the
       18 CORFs were not at the locations on file with CMS and 8 were not open during business
       hours. Medicare allowed $2.2 million in 2010 for services billed by these nonoperational
       CORFs. This HEAT initiative review was limited to determining whether the CORFs
       were operational. In prior reviews at three South Florida CORFs, HHS/OIG estimated
       that each audited CORF received between $720,000 and $1.6 million for services that did
       not meet Medicare reimbursement requirements. HHS/OIG recommended that CMS
       continue to periodically conduct unannounced site visits to CORFs and implement
       additional program safeguards for CORFs.

Community Mental Health Centers

   •   HHS/OIG found that in 2010 approximately half of CMHCs met or exceeded thresholds
       that indicated unusually high billing for at least one of nine questionable billing
       characteristics. Approximately one-third of these CMHCs had at least two of the
       characteristics. Additionally, approximately two-thirds of CMHCs with questionable
       billing were located in eight metropolitan areas. Finally, 90 percent of CMHCs with
       questionable billing were located in states that do not require CMHCs to be licensed or
       certified. During 2010, 206 CMHCs received an estimated $218.6 million for providing
       PHP services to approximately 25,000 Medicare beneficiaries with mental disorders. Past
       OIG studies have found vulnerabilities in Medicare payments to CMHCs for PHPs.
       HHS/OIG recommend that CMS increase its monitoring of CMHCs’ Medicare billing and
       fraud prevention controls; enforce the requirement that certifying physicians be listed on
       the PHP claims submitted by CMHCs; finalize and implement the proposed conditions of
       participation for CMHCs; and review and take appropriate action against CMHCs with
       questionable billing identified in the report.

Medicare Outpatient Services

   •   HHS/OIG’s review of outpatient line items for which Medicare payments significantly
       exceeded billed charges revealed frequent errors, including incorrect units of services,
       incorrect codes, billing for unallowable services, and inadequate supporting
       documentation, causing Medicare to overpay for the services. Billed charges are the
       prices that a provider sets for its services. These reviews focused on billings in which
       Medicare’s payments significantly exceeded billed charges. Millions of dollars in
       overpayments have occurred in part because key Medicare systems (the Fiscal
       Intermediary Standard System and the Common Working File (CWF)) did not have
       sufficient edits in place during the audit periods to prevent or detect the overpayments.
       For the 18 reviews conducted of Medicare payment contractors, HHS/OIG identified

                                               49
       nearly $67 million in overpayments. HHS/OIG recommended that Medicare’s payment
       contractors recover the identified overpayments, implement suggested system edits, and
       use the results of our audits in provider education activities.

Medicare Home Health Agencies

Medicare beneficiaries who are generally confined to their homes may be eligible to receive
certain medical services at home. Home health services include part-time or intermittent skilled
nursing care, as well as other skilled care services, such as physical, occupational, and speech
therapy; medical social work; and home health aide services. The services are provided by
certified HHAs.

   •   In a review of HHAs compliance with data reporting requirements, HHS/OIG found that
       HHAs did not properly submit required Outcome and Assessment Information Set
       (OASIS) data for six percent of claims filed in 2009, which represented over $1 billion in
       Medicare payments. Among other important uses, states use OASIS data in the survey
       and certification of HHAs, which ensures that HHAs are meeting all conditions of
       participation required by Medicare. CMS holds states accountable for ensuring that
       HHAs submit timely and accurate OASIS data; however, it does not provide guidance on
       how states should oversee this process. HHS/OIG recommended that CMS identify all
       HHAs that failed to submit OASIS data and apply its two-percent payment reduction
       authority, establish and implement enforcement actions for late submission of the data,
       and develop clear guidelines that delineate expectations regarding data accuracy and
       timeliness.

   •   In a review of the availability of intermediate sanctions, CMS issued a Notice of Proposed
       Rulemaking (NPRM) in 1991 to implement intermediate sanctions for HHAs found to be
       noncompliant with Medicare’s conditions of participation; however, CMS did not issue a
       final rule and withdrew the NPRM in August 2000. CMS said that legislative changes and
       other demands impeded promulgation of a final rule. Intermediate sanctions, such as civil
       money penalties, payment suspensions, and appointments of temporary management, will
       provide CMS with important tools to enforce compliance. HHS/OIG concluded that CMS
       should make HHA intermediate sanctions a high priority and complete their
       implementation as soon as possible. Most recently, CMS published a new NPRM on July
       13, 2012, which proposes to implement intermediate sanctions for HHAs effective January
       1, 2013.

   •   In a review of HHAs’ compliance with documentation requirements, HHS/OIG found that
       HHAs usually documented Medicare’s coverage requirements in beneficiaries’ medical
       records. However, for the claims reviewed, HHS/OIG also found that 22 percent were in
       error, resulting in $432 million in improper payments. This review, which examined the
       medical records supporting a sample of HHAs’ claims to Medicare, showed that HHAs’
       records nearly always documented the information necessary to demonstrate compliance
       with key Medicare coverage requirements – that beneficiaries were homebound, needed
       skilled nursing care or therapy services, and were under the care of a physician. However,

                                               50
       other HHS/OIG reviews and investigations, as well as joint efforts between the HHS and
       DOJ, have demonstrated that home health is an area at increased risk for fraud. HHS/OIG
       concluded that further reviews beyond the medical records are needed to determine
       whether beneficiaries are actually eligible, services are furnished, and Medicare
       requirements for payment are met.

Medicare Contractors

   •   HHS/OIG found that the workload data that CMS uses to oversee Zone Program Integrity
       Contractors (ZPICs) were not accurate or uniform, and inaccuracies and lack of uniformity
       in the ZPICs’ data prevented a conclusive assessment of ZPICs’ activities. ZPICs are the
       contactors that perform benefit integrity work for Medicare Parts A and B. The
       inaccuracies and lack of uniformity in ZPICs’ data resulted from system issues in CMS’s
       Analysis, Reporting, and Tracking System (CMS ARTS); ZPIC reporting errors; ZPICs’
       interpretations of workload definitions; and inconsistencies in requests for information
       reports. ZPICs’ performance evaluations contained few workload statistics, and data
       access issues affected ZPICs’ program integrity activities. These conditions are serious
       obstacles to CMS’s oversight of ZPIC operations and effectiveness. HHS/OIG
       recommended that CMS clarify definitions in CMS ARTS, perform a timely review of
       data in CMS ARTS, use and report ZPIC workload statistics in ZPIC evaluations, and
       ensure that ZPICs have access to necessary data.

   •   HHS/OIG found that CMS had not resolved, or taken significant action to resolve, 77
       percent of vulnerabilities that its Medicare benefit integrity contractors reported in 2009.
       The estimated impact of vulnerabilities, such as those in claims coding and provider
       identifiers was at least $1.2 billion. Only two of the vulnerabilities reported in 2009 had
       been resolved as of January 2011. Although CMS has procedures to consistently track
       and review vulnerabilities, it lacks procedures to ensure that vulnerabilities are resolved.
       HHS/OIG recommended that CMS determine the status of all unresolved vulnerabilities
       and take action to address them, require contractors to report monetary impact, and ensure
       that vulnerabilities are resolved by establishing formal written procedures.

   •   HHS/OIG found that, as of October 2010, Medicare had not recovered the majority of
       overpaid amounts OIG identified in audit reports during FYs 2007 and 2008 and the first 6
       months of FY 2009. Collection efforts were obstructed by time constraints imposed by
       the statute of limitations. Also, Medicare contractors lacked adequate guidance for
       collecting overpayments and CMS did not have an effective system for monitoring
       contractors’ collection efforts. We identified inaccuracies and could not verify the $84.2
       million that CMS reported collecting. HHS/OIG recommended, among other things, that
       CMS collect sustained amounts related to OIG recommendations made after the audit
       period and verify that the $84.2 million reported as collected has actually been collected.

   •   In a July 2012 report, HHS/OIG found that ZPIC offerors (companies that submit
       proposals for ZPIC contracts) and their subcontractors often had business and contractual


                                               51
       relationships with CMS and with other offerors, but rarely considered them to be actual
       conflicts of interest. Conflicts of interest could introduce bias, which in turn could
       influence ZPICs’ efforts to reduce fraud, waste, and abuse in the Medicare program.
       Offerors, subcontractors, and CMS identified 1,919 business and contractual relationships
       as possible conflicts and 16 as actual conflicts. However, descriptions of the conflicts of
       interest presented were often unclear and some did not distinguish actual conflicts from
       possible conflicts. In addition, some ZPIC offerors and their subcontractors failed to
       provide all the requisite information regarding financial interests in other entities.
       HHS/OIG recommended that CMS provide clear guidance to offerors and subcontractors
       regarding which business and contractual relationships should be identified as actual or
       possible conflicts and develop a formal, written policy outlining how conflict of interest
       information provided by offerors should be reviewed by CMS staff.

Medicare Advantage Organizations

   •   In two reports, HHS/OIG found that two Medicare Advantage (MA) organizations were
       overpaid in 2007 because the diagnoses and/or supporting documentation that they
       submitted to CMS for use in CMS’s risk score calculations did not always comply with
       Federal requirements. CMS uses risk scores to adjust the monthly capitated payments to
       MA organizations for the next payment period. The first MA organization, which was
       overpaid an estimated $115.4 million, did not have written policies and procedures for
       obtaining, processing, and submitting diagnoses to CMS and its practices were not
       effective in ensuring that the diagnoses it submitted to CMS complied with Federal
       requirements. For the second MA organization, which was overpaid and estimated $18.2
       million, the documentation submitted did not support the diagnoses, was incomplete or
       missing, or the diagnoses were unconfirmed, causing CMS’s risk scores to be invalid.
       HHS/OIG recommended that the two organizations refund to the Federal government
       overpayments identified for sampled beneficiaries and work with CMS to determine the
       correct contract level adjustment for the projected overpayments.

Medicare Part D

   •   In a review of Part D billing by retail pharmacies, HHS/OIG found that over 2,600
       pharmacies nationwide had questionable billing, indicating vulnerabilities in the oversight
       of the Part D program. These pharmacies had extremely high billing for at least one of
       eight measures. They represented 4 percent of all retail pharmacies nationwide. Together,
       they billed $5.6 billion to Part D in 2009. Many billed for extremely high dollar amounts
       or numbers of prescriptions per beneficiary or per prescriber. Many also billed for high
       percentages of Schedule II or III controlled substances. HHS/OIG recommended, among
       other things, that CMS strengthen the Medicare Drug Integrity Contractors’ monitoring of
       pharmacies and ability to identify pharmacies for further review; provide additional
       guidance to sponsors on monitoring pharmacy billing; require sponsors to refer potential
       fraud and abuse incidents that may warrant further investigation; and develop risk scores
       for pharmacies.


                                               52
Medicare Error Rates

CMS’s Comprehensive Error Rate Testing (CERT) program contractors collect and review
documents supporting claims for payment, identify improper payments, and calculate a national
Medicare fee for service error rate. HHS/OIG found the following issues in current CERT
practices.

   •   HHS/OIG found that a CERT contractor’s error rate calculations did not account for
       pending appeals. If the CERT statistical contractor had included overturned CERT claim
       payment denials in its error rate calculations, it would have decreased the estimated value
       of reported errors for FYs 2009 and 2010 by approximately $2 billion each year. CMS
       could improve the accuracy of the reported estimate of improper payment error rates by
       including an adjustment for overturned CERT claim payment denials. HHS/OIG
       recommended that CMS improve the accuracy of the reported estimate of improper
       payment error rates by including an adjustment for overturned CERT claim payment
       denials.

   •   HHS/OIG found that the necessary documentation required for the CERT contractors to
       conduct claims reviews was not provided by the cutoff date for the error rate calculation.
       The submission of this documentation to the CERT contractor upon initial claim review
       and before the cutoff date would have reduced the estimate of improper payments for FY
       2010 by almost $1 billion. HHS/OIG recommended that CMS should continue to educate
       providers on the documentation required, assess the improper payments and overturned
       denials of claim payments to identify the population of providers that would benefit from
       additional requests for medical records, and ensure that the CERT documentation
       contractor continues following established procedures in seeking signature attestations.

Other Fraud and Abuse Prevention Activities

HHS/OIG’s HEAT Provider Compliance Training initiative (HEAT PCT), launched in 2011,
provided free, high-quality compliance training for providers, compliance professionals, and
attorneys in Strike Force cities and elsewhere, and online. During FY 2011, HEAT PCT, which
included presenters from HHS/OIG, CMS Regional Offices, CMS Program Integrity, USAOs,
and state Medicaid Fraud Control Units, held sessions in Houston, Tampa, Kansas City, Baton
Rouge, Denver, and Washington, D.C., training a total of 737 in-person attendees. In addition,
the final HEAT PCT session in Washington, D.C., was webcast live to 2,335 participants.
HHS/OIG developed comprehensive training materials to accompany HEAT PCT, and those
materials are now available online at no charge, together with sixteen video modules dividing the
webcast by subject area. HEAT PCT continues to reach the health care community with
HHS/OIG’s message of compliance and prevention via a series of twelve free, downloadable
video and audio podcasts, which were rolled out during FY 2012. The podcasts summarize a
range of compliance topics covered in the HEAT PCT initiative materials.

HCFAC funding also supported HHS/OIG’s continued enhancement of data analysis and mining

                                               53
capabilities for detecting health care fraud, including tools that allow for complex data analysis.
OIG continues to use data mining, predictive analytics, trend evaluation, and modeling
approaches to better analyze and target the oversight of HHS programs. Analysis teams use near-
time data to examine Medicare claims for known fraud patterns, identify suspected fraud trends,
and to calculate ratios of allowed services as compared with national averages, as well as other
assessments. When united with the expertise of OIG agents, auditors, and evaluators, as well as
our HEAT partners, HHS/OIG’s data analysis fosters a highly effective combination of
technologies and traditional skills to the fight against fraud, waste, and abuse.

Industry Outreach and Guidance

Advisory Opinions

Central to the HIPAA guidance initiatives is an advisory opinion process through which parties
may obtain binding legal guidance as to whether their existing or proposed health care business
transactions run afoul of the AKS, the CMP laws, or the exclusion provisions. During FY 2012,
the HHS/OIG, in consultation with DOJ, issued 19 advisory opinions and two modifications of
advisory opinions. A total of 276 advisory opinions have been issued during the 16 years of the
HCFAC program.

Corporate and Other Integrity Agreements

Many health care providers that enter agreements with the government to settle potential
liabilities for violations of the FCA also agree to adhere to a separate CIA, Integrity Agreement,
or other similar agreement. Under these agreements, the provider or supplier commits to
establishing a program or taking other specified steps to ensure its future compliance with
Medicare and Medicaid rules. At the close of FY 2012, HHS/OIG was monitoring compliance
with 214 such agreements.

OIG Round Tables

On February 23, 2012, HHS/OIG convened a Pharmaceutical Compliance Roundtable. The
Roundtable provided an opportunity for OIG to discuss with compliance professionals in the
pharmaceutical industry their experiences under CIAs and with various types of compliance
activities. Forty-two compliance officers and other compliance professionals from 23
pharmaceutical manufacturers currently under CIAs attended the day-long event. One goal of the
event was to identify compliance measures that the participants have found to be effective. A
publicly-available report about the Roundtable shared the participants’ insights with others in and
beyond the pharmaceutical industry.

Also, on August 7, 2012, HHS/OIG held a roundtable meeting titled “Focus on Compliance: The
Next Generation of CIAs.” The roundtable included representatives from 32 companies that have
entered into CIAs since 2009. The companies represented included hospitals, ambulance
companies, medical device manufacturers, physician practices, laboratories, home health
agencies, and skilled nursing facilities. The purpose of the roundtable was to solicit feedback


                                                54
from the company representatives regarding their current compliance best practices and their
efforts to implement the requirements of their CIAs. The OIG will provide a summary of the
roundtable in a whitepaper that will be posted on the OIG’s website.

Centers for Medicare & Medicaid Services

In FY 2012, CMS was allocated approximately $14.5 million by HHS, and appropriated $250.4
million in discretionary funds by Congress to support a variety of projects related to fraud, waste,
and abuse in the Medicare and Medicaid programs and the Children’s Health Insurance Program
(CHIP). With these funds, CMS is building on existing fraud prevention activities and new
advanced technology to ensure that accurate payments are made to legitimate providers for
appropriate and reasonable services for eligible beneficiaries of the federal health care programs.
CMS has also engaged in many program integrity activities that are beyond the scope of this
report because they are not funded directly by the HCFAC Account or discretionary HCFAC
funding. Medicare Fee-for-Service error rate measurement, activities and Recovery Audit
activities are discussed in separate reports, and CMS will submit a combined Medicare and
Medicaid Integrity Program report to Congress later this year.

CMS has taken four major approaches to fraud prevention and organizing its key anti-fraud,
waste, and abuse activities:

     1.   Prevention
     2.   Detection
     3.   Transparency and Accountability
     4.   Recovery

1.   Prevention

The Affordable Care Act (ACA)

The new authorities granted to HHS and CMS under ACA have been instrumental in clamping
down on fraudulent activity in the health care sector. CMS has begun to implement these
authorities and published one final rule on provider identification numbers and a Notice of
Proposed Rule-Making on reporting and returning overpayments.

In FY 2012, CMS implemented ACA authorities to keep fraudulent providers and suppliers out of
Medicare and Medicaid. CMS published a Final Rule entitled “Medicare and Medicaid
Programs; Changes in Provider and Supplier Enrollment, Ordering and Referring, and
Documentation Requirements; and Changes in Provider Agreements” (CMS-6010-F) on April 27,
2012. This rule finalized ACA provisions that were addressed in a May 5, 2010 interim final rule.
It requires all providers of medical or other items or services and suppliers that qualify for a
National Provider Identifier (NPI) to include their NPI on all enrollment applications for
Medicare and Medicaid programs and on all claims for payment submitted under those programs.
In addition, it requires physicians and other professionals who are permitted to order and certify
covered items and services for Medicare beneficiaries to be enrolled in Medicare. Finally, it


                                                55
establishes document retention and provision requirements on providers and supplier that order
and certify items and services for Medicare beneficiaries.

CMS also published a NPRM entitled “Medicare Program; Reporting and Returning of
Overpayments” on February 16, 2012. This proposed rule would require providers and suppliers,
who receive funds under Medicare, to report and return overpayments 60 days after the later of
the date that the overpayment was identified, or the date that any corresponding cost report is due.

The Fraud Prevention System

The Fraud Prevention System (FPS) was launched on June 30, 2011 pursuant to the Small Business
Jobs Act of 2010. While the development of the FPS is not directly funded by HCFAC, many
activities in this report both support and rely on the FPS. The FPS analyzes all Medicare fee-for-
service claims using risk-based algorithms developed by CMS and the private sector, prior to
payment, allowing CMS to take prompt action where appropriate. CMS uses the FPS to target
investigative resources to suspect claims and providers, and swiftly impose administrative action
when warranted. The system generates alerts in priority order, allowing program integrity
analysts to further investigate the most egregious, suspect, or aberrant activity. CMS and our
program integrity contractors use the FPS information to stop, prevent, and identify improper
payments using a variety of administrative tools and actions, including claim denials, payment
suspensions, revocation of Medicare billing privileges, and referrals to law enforcement.

Automated Provider Screening

To strengthen and help implement the new provider enrollment requirements under the ACA,
CMS launched the Automated Provider Screening (APS) system in December 2011. The APS is
designed to verify the data submitted on enrollment applications against independent commercial
and health care data to establish eligibility for enrollment into Medicare. It assesses risk of
potential fraud of each individual and organization, and returns the results and supporting data to
a web-based user interface accessible to CMS and its designees. In FY 2012 CMS began the
process of screening all 1.5 million Medicare- enrolled providers through the new Automated
Provider Screening (APS) system which identifies ineligible providers and suppliers prior to
enrollment or revalidation to verify the data in the Provider Enrollment, Chain and Ownership
System (PECOS). This baseline screen of existing Medicare enrollments enables CMS to quickly
identify ineligible and potentially fraudulent providers within existing enrollments. This process
was followed by nightly screens of updated enrollments and new applications in a pilot with three
Medicare Administrative Contractors in June 2012. The integration of this automated provider
screening tool with the enrollment data in PECOS and the claims data in the Fraud Prevention
System (FPS) will improve CMS’ ability to screen and identify questionable entities efficiently,
and lead to cost-avoidance and increased savings for Medicare.

Provider Screening Lab

CMS worked with a national health research organization managing a Federally Funded Research
and Development Center to establish the Provider Screening Lab. The lab tests concepts for new
provider screening data sources, methodologies, and associated algorithms. To date, the lab has

                                                56
provided analytic support to develop approximately 59 criteria to assess provider eligibility and
potential risk as part of effective provider screening. A variety of CMS data sets, such as
Provider Enrollment, Chain and Ownership System (PECOS), the Federal Investigations
Database (FID), the Compromised Numbers Checklist (CNC), and the Medicare Exclusion
Database (MED) were used in the development of these criteria; External data have also been
used for criteria around criminal, financial and identity verification. CMS is continuously
evaluating additional data sources to develop new criteria for use in the provider screening
solution.

Revalidation Project

In FY 2012, CMS embarked on an ambitious project to revalidate the enrollments of all existing
1.5 million Medicare suppliers and providers by 2015 under the new ACA screening
requirements. Since March 25, 2011, CMS enrolled or revalidated enrollment information for
approximately 409,150 Medicare providers and suppliers under the enhanced screening
requirements of the ACA. These efforts will ensure that only qualified and legitimate providers
and suppliers can provide health care items and services to Medicare beneficiaries.

The FPS, APS, and other enrollment enhancements promote synergy in CMS program integrity
activities. For example, based on FPS leads, CMS identified specific providers and suppliers as
top priorities for revalidation. As a result of the screening performed as part of revalidation, CMS
has moved to revoke and deactivate the billing privileges and enrollment records of providers and
suppliers that do not meet Medicare enrollment requirements. The first phase of revalidation led
to 17,620 deactivations of provider practice locations for non-response to the revalidation request,
as of September 1, 2012. The second phase of revalidation has resulted in the deactivation of
21,114 provider enrollments records for non-response and 6,630 revocations after it was
determined the providers were not properly licensed in the state in which they were enrolled, as of
September 1, 2012. 14 These initiatives complement the traditional program integrity work and
additional provider enrollment enhancements that CMS performs.

One Program Integrity

In FY 2012, CMS made improvements and changes to the One Program Integrity (One PI), CMS’
centralized portal that provides CMS contractors and law enforcement with a single access point
to Medicare data as well as analytic tools to review the data. CMS moved from an integration
contractor to a system support contractor while continuing to enhance the existing analytic tools.
One PI users now have access to the CMS Integrated Data Repository (IDR) as the basis of their
data analytics. The IDR contains a comprehensive and accurate set of Medicare provider,
beneficiary and claims data for Medicare Parts A, B, and D back to January 2006. One PI
improves CMS’ ability to detect fraud, waste, and abuse with consistent, reliable, and timely
analytics.



14
   We note that the first and second phase revalidation results are preliminary results as deactivated providers could reactivate over
time with updated practice information or after showing evidence of proper licensing.

                                                                57
Over the last 12 months, CMS has expanded the IDR to include shared systems data, providing
access to Part B and Part B-DME claims data from both before and after final payment has been
made. This access allows ZPICs to perform pre-payment analytics on historical data and develop
models that can be applied in the FPS. With shared systems history going back to FY 2006,
ZPICs will also be able to improve their analytics for post-payment detection of fraud, waste, and
abuse. Part A data from the shared systems will be added in the near future.

The new system support contract includes onsite training at ZPICs sites, which began in July of
2012, and is scheduled to occur at one ZPIC each month into calendar year 2013. This training
will be replaced by web-based training once the new modules are completed in 2013.

Next Generation Desktop

The Next Generation Desktop (NGD) was developed to provide single access point that interacts
with all Medicare claims processing systems and multiple other government data sources. NGD
has been adapted for law enforcement purposes, providing investigators the ability to examine all
claims associated with a specific provider tax ID or a Medicare beneficiary. CMS implemented
enhancements to the Next Generation Desktop in September of 2012. These enhancements are a
result of collaboration between CMS, National Government Services (NGS), the NGD contractor,
and Medicare Administrative Contractor (MAC), with specific requests from law enforcement for
enhanced views of provider data. CMS and NGS developed tailored training material for law
enforcement partners and have scheduled four 3-day training sessions in FY 2013. CMS
anticipates training up to 100 or more individuals in FY 2013.

Compromised Number Checklist

In January 2010, CMS developed its first national database of compromised Medicare beneficiary
and provider ID numbers called the Compromised Number Checklist (CNC). This database is
populated by monthly submissions from program integrity contractors. The purpose of the CNC
is to share compromised ID numbers and any associated corrective actions that have been taken.
CMS uses this national CNC database to enhance efforts detecting and preventing fraud and
abuse in Medicare.

The compromised numbers are updated on a monthly basis. In FY 2012, as part of its refinement
of and assignment of risk assessment indicators to the CNC database, CMS and the PSCS/ZPICs
and MEDIC have removed some providers and beneficiaries whose identifiers were closely
linked to compromised providers or beneficiaries but were not themselves compromised. This
refinement process has reduced the number of providers from approximately 5,000 to 2,185, and
reduced the number of beneficiaries from approximately 284,000 to 226,000.

SAS Statistical Programming License

CMS established an analytics lab to develop and test new models for the FPS using SAS
statistical programming software to analyze claims data to identify aberrant billing patterns and
program vulnerabilities. As of the end of FY 2012, CMS has added 31 new models to the FPS,


                                                58
and 29 additional models were under active development for future integration in the FPS. Going
forward, CMS will develop models on a continuous basis.

The Command Center

In FY 2012, CMS established the Command Center to improve health care fraud detection and
investigation, drive innovation, and help reduce fraud and improper payments in the Medicare and
Medicaid programs. The Command Center provides the advanced technologies and collaborative
environment for a multi-disciplinary team of experts and decision makers to more efficiently
coordinate policies and case actions, reduce duplication of efforts, and streamline fraud
investigations for more immediate administrative action.

CMS anticipates that the Command Center collaborative activities will help increase CMS’ ability
to take administrative actions, such as revoking Medicare billing privileges and payment
suspensions, more quickly and efficiently. From the opening of the Command Center on July 31,
2012 through September 27, 2012 the Command Center conducted 22 missions and identified 223
action items that will lead to improvements in the fraud prevention and detection process.
Missions are facilitated collaboration sessions that bring together experts from various disciplines
to improve the processes for fraud prevention in Medicare and Medicaid. Approximately 290
experts met during this period representing policy analysts, investigators, lab modelers, FBI, OIG,
ZPICS, field office staff, clinicians, Contracting Officer Representatives (CORs), and other CMS
staff.

DME Initiatives

CMS has undertaken a comprehensive strategy to address program integrity concerns with
durable medical equipment, prosthetics, orthotics and supplies (DMEPOS) suppliers:

   •   DMEPOS Enrollment Requirements: In the February 2, 2011 final rule, CMS assigned
       newly enrolling DMEPOS suppliers to the high level of screening. As a result, such
       suppliers are subject to an announced or unannounced site visit prior to the approval of
       their application. Newly enrolling DMEPOS suppliers will also be subject to a FBI
       criminal history record check once CMS completes the procurement of an FBI-approved
       channeler. Enrolled DMEPOS suppliers are assigned to the “moderate” screening level,
       and are also subject to an announced or unannounced site visit prior to the approval of
       their revalidation.

   •   DMEPOS Surety Bond: Since 2009, CMS has required DMEPOS suppliers to post surety
       bonds prior to enrollment. CMS also implemented DMEPOS Accreditation Standards,
       which have been in effect since October 1, 2009. Supplier numbers cannot be issued or
       renewed unless the supplier - assuming it does not otherwise qualify for an exception
       under 42 CFR § 424.57(d)(15) - obtains and maintains a surety bond of at least $50,000
       and meets the accreditation standards on a continuous basis.

       CMS finalized its DMEPOS surety bond collection procedures in January 2012. CMS has


                                                59
       thus far collected approximately $263,000 in DMEPOS supplier overpayments from
       sureties. The DME MACs are continuing to make requests for payments from sureties,
       and CMS expects more overpayments to be collected as a result. In addition, CMS has
       recouped approximately $65,000 in overpayments from suppliers immediately after their
       debts were referred to their respective sureties for payment. In many cases, once
       suppliers learn that their debt has been sent to their surety for collection, they proceed to
       pay back the debt themselves. This is an encouraging sign that the surety bond collection
       process is spurring DMEPOS suppliers to satisfy their debts earlier than would otherwise
       have been the case.

   •   DMEPOS Swipe Card Pilot: The DMEPOS Swipe Card pilot was designed in part to
       assess the effectiveness of new regulatory requirements as a result of the Affordable Care
       Act, Section 6406. Physicians and other suppliers that participated in the pilot on a
       voluntary basis used swipe magnetic cards (similar to credit cards), and entered a code
       into existing credit card terminals when placing or filling DMEPOS orders. CMS, through
       its contract with National Government Services (NGS), extracted the DMEPOS data from
       the financial network, and used the data to confirm that the orders were appropriately
       initiated and filled.

       The Swipe Card pilot began in early 2011 with a series of meetings to plan out the issuing
       of swipe cards to providers and suppliers in the Greater Indianapolis area and concluded in
       FY2012. CMS found that the voluntary nature of the pilot led to low participation, and
       that a significant number of providers do not have swipe terminals in their office. CMS is
       evaluating these results to identify opportunities for future pilots.

Fraud Prevention Campaign

In FY 2012, CMS worked with the Assistant Secretary for Public Affairs (ASPA) to expand the
Fraud Prevention Campaign, which was launched in January 2010 to increase public awareness
about Medicare’s fight against fraud. HCFAC funding in FY 2012 – supported by FY 2011
HCFAC dollars — was used to support outreach to inform Medicare beneficiaries how to prevent,
detect and report Medicare fraud.

Outreach included a national television campaign featuring a “cracking-down” spot, print, and
digital advertising as well as targeted in-language advertising. In-language advertising included
print and radio advertising in Russian in New York, in Armenian in Los Angeles and in Spanish
in Miami. The national television advertising delivered an estimated 140,580,420 impressions.
The digital advertising delivered an additional 11.1 million views of the “cracking-down” spot.

Medicaid and CHIP Business Information Solutions (MACBIS)

The Medicaid and CHIP Business Information Solutions (MACBIS) is a CMS enterprise-wide
initiative to modernize and transform the information and data exchanges with States and other
key health reform stakeholders in order to ensure we have high performing Medicaid and CHIP
programs. This initiative creates a more robust and comprehensive information management


                                                60
strategy for Medicaid and CHIP. We have designed a “transformed data state” that will, for the
first time, integrate Medicaid and CHIP program, operational, quality, and performance data.
Specifically, the data will be used to support detection of fraudulent patterns in State Medicaid
programs as well as comparative analytics across state lines.

The accomplishments for FY 2012 include:

•    MACBIS – Completed Medicaid & CHIP enterprise data work resulting in an expanded data
     dictionary.

•    TMSIS – Completed and evaluated an 11-State pilot to test an expanded operational data set
     (Transformed MSIS); developed a plan to launch a national implementation of TMSIS in
     2014.

•    MACPro – Collected business requirements to complete system development to adjudicate a
     limited set of Medicaid and CHIP plans and waiver actions for January 2013 implementation.
     Subsequent phases will cover the remaining actions for full implementation by 2016.

•    Information Technology Support – Integrated MACBIS processes into CMS’s enterprise
     shared services efforts including, master data management, identity management, and portal
     development.

2.   Detection

Strengthened Program Integrity Activities in Medicare Advantage and Medicare Part D

In FY 2011, CMS established a contract for Medicare Advantage (Part C) and Medicare
Prescription Drug (Part D) outreach and education. This contractor is responsible for
coordinating all Part C and Part D program integrity outreach activities for all stakeholders,
including plan sponsors and law enforcement. In addition, this contractor supports compliance
audits and fraud audits.

CMS continued to fund the Program Integrity Technical Assistance contractor to support Part C
and Part D program integrity strategy, ROI methodology, performance measure database
maintenance, development of program risk assessment processes, and other technical assistance
as requested. CMS also contracted with the Compliance and Enforcement Medicare Drug
Integrity Contractor (MEDIC) to conduct ad-hoc studies and analysis with a special focus on
select geographic areas.

Additionally, CMS continued to invest HCFAC discretionary funds to strengthen Medicare Part C
and Part D oversight. CMS contracts with the MEDICs for all Medicare Advantage and Part D
program integrity work, including:

     •   Managing all incoming complaints about Part C and Part D fraud, waste, and abuse;
     •   Utilizing new and innovative techniques to monitor and analyze information to help
         identify potential fraud;

                                                61
   •   Working with law enforcement, MA, and prescription drug plans, consumer groups, and
       other key partners to protect consumers and enforce Medicare’s rules;
   •   Providing basic tips for consumers on how to protect themselves from potential scams;
   •   Identifying program vulnerabilities; and
   •   Performing proactive research utilizing all available data to find trends in order to ferret
       out fraud, waste, and abuse activities.

As of May 2012, the national benefit integrity MEDIC received approximately 348 actionable
complaints (within the MEDIC’s scope) per month; processed 27 requests for information from
law enforcement per month; and referred an average of 34 cases to law enforcement per month.

In addition to the work of the MEDICs, CMS enhanced other Part C and Part D oversight
functions in FY 2012: to address new complexities facing law enforcement, contract and plan
oversight functions, monitor plan performance assessment and surveillance/secret shopper
activities, audit programs, and conduct routine compliance and enforcement tracking. Also in FY
2012, CMS conducted 33 program audits of sponsoring organizations and tested for compliance
with program requirements relating to Part D formulary and benefit administration, Part C and D
organizational/coverage determinations, appeals, and grievances, part C Access,
Enrollment/Disenrollment, Late Enrollment Penalty (LEP), independent agent and broker
oversight, and compliance program effectiveness. These audits covered programs that accounted
for 27 percent of all MA and Prescription Drug Plan contracts and 28 percent of all beneficiaries
enrolled as of September 2012.

CMS also strengthened program integrity in MA and Part D through marketing surveillance
activities and compliance actions based on surveillance activities:

Marketing Surveillance Activities

In FY 2012, CMS conducted many marketing surveillance activities, such as secret shopping and
examining newspaper ads for unreported marketing events and content. These activities have
improved plan sponsor oversight of marketing activities and lessened incidents of agent/broker
marketplace misconduct.

For the 2012 Annual Enrollment Period (AEP), CMS conducted 1,661 secret shopping events.
Secret shopping is the undercover surveillance of formal, public MA and Part D plan marketing
events to ensure agents and brokers are providing accurate information to Medicare beneficiaries
and are in compliance with CMS marketing rules for Parts C and D. Of the 1,661 shops, almost
80 percent had no validated deficiencies and were considered entirely compliant with Medicare
regulations. The percentage of plan sponsors with no validated deficiencies improved from 2011
to 2012, with 31 of 84 plan sponsors (36.9 percent) having no deficiencies notes from events
shopped (from 18.7 percent plan sponsors in 2011). This improvement demonstrates a continued
increase in compliance likely due, in part; to CMS’ market surveillance efforts. CMS estimates
that over 850,000 beneficiaries who attended marketing events during the 2012 AEP were
protected by CMS’ marketing surveillance efforts this year.



                                                62
       Unreported Marketing Events
       The unreported marketing events initiative was an effort to determine if plan sponsors
       appropriately reported and represented their sales events activity to CMS. The CMS
       contractor reviewed daily and weekly print publications in U.S. domestic markets
       nationwide, including advertisements from Armenian, English, Korean, Mandarin,
       Russian and Spanish publications. None of the reviewed Armenian or Russian
       publications contained Medicare marketing events. Each of the remaining language
       publications advertised marketing events that were not properly reported to CMS in a
       timely manner.

       Under CMS’ direction, the surveillance contractor reviewed 9,714 unique events (derived
       from 2,162 Medicare advertisements in 579 newspapers) collected from October 24, 2011
       through December 29, 2011 from a total of 86 plan sponsors. Results by plan sponsor
       included: 42 plan sponsors (approx. 49 percent submitted all clipped marketing events to
       CMS; an additional 41 plans (approx. 4 percent) submitted at least 95 percent of clipped
       marketing events to CMS ; and 3 plan sponsors (approx. 4 percent) failed to submit at
       least 5 percent of their clipped events. These three plan sponsors were issued notices of
       non-compliance for their failure to submit at least 95 percent of all of their events to CMS.

Compliance Actions Based on Surveillance Activities

CMS may issue the following types of letters to sponsors who have had deficiencies related to our
surveillance. They include Technical Assistance Letters (which are not formal compliance
letters), Notices of Non-Compliance, Warning Letters, and Ad-hoc Corrective Action Plans
(CAPs). Listed below are the compliance actions taken for each primary surveillance activity.

       Compliance Actions

             Compliance Action                           Secret      Unreported
                                                         Shopping    Marketing
                                                         Events*     Events
             Technical Assistance Letter*                        105                    0
             Notice of Non-compliance                             12                    3
             Warning Letter with Business Plan                     1                    0
             Ad-hoc CAP                                            0                    0
             Total Letters Issued                                118                    3

       *Totals include results from both AEP and post-AEP shopping.
       *Technical Assistance Letters were sent to plan sponsors that were shopped, but either did
       not meet the minimum number of shops, no matter how many deficiencies were found, or
       had minimal findings.

Medicare Advantage Encounter Data Processing System Contract

The Medicare Advantage (MA) Encounter Data Processing System (EDPS) is currently being


                                                63
developed out of guidance published in the final FY 2009 inpatient prospective payment system
(IPPS) rule. In that rule, CMS revised regulations to clarify that CMS has the authority to require
MA organizations to submit encounter data for each item and service provided to MA plan
enrollees. Consistent with this authority, CMS is requiring MA organizations to submit encounter
data for dates of service January 3, 2012 and later. MA plans are required to submit data for all
institutional, professional and DME services provided to MA plan enrollees on or after that date.

What program needs will EDPS be addressing? Over the past several years there has been
dramatic growth in the Medicare Advantage program. Today, one-fourth of Medicare
beneficiaries are enrolled in Medicare Advantage plans. CMS pays Medicare Advantage
organizations approximately $145 billion per year for the care provided to these 13 million
beneficiaries. To date, however, CMS has not had detailed information on the care we are
purchasing. This is because Medicare Advantage organizations are paid a fixed amount (monthly
capitation) per beneficiary and, therefore, do not bill CMS for each service provided. Encounter
data will provide CMS with information that is equivalent to the information provided on a FFS
claim record. The diagnosis data provided on these claims will be used to risk adjust payments
and, as a result, CMS will need complete encounter data records for the MA population being
served. Sampling is not an option for processing the approximately 330 million encounter data
claims any more than it would be for processing Medicare FFS claims.

To better ensure that CMS is a more prudent purchaser, earlier this year the agency launched an
initiative to collect encounter data from Medicare Advantage organizations. Essentially the
encounter data are “no pay” claims that detail each item and service provided to enrollees of
Medicare Advantage organizations. CMS can collect and process these data for an estimated
average annual cost of $25 million. These records are comparable in format and detail to claims
submitted to the MACs by FFS providers.

How will CMS use the data collected by EDPS? CMS will be able to use encounter data to
make more accurate risk adjusted payments, recognize cost efficiencies, better assess the value of
what we are purchasing for beneficiaries, and more closely monitor fraud, waste and abuse in the
MA program. For example, using encounter data, CMS will be able to compute quality metrics,
such as hospital readmission rates, for Medicare Advantage as a whole, as well as for individual
Medicare Advantage organizations.

In addition, using procedure and diagnosis information for each health care service provided,
CMS will shadow price each encounter using FFS payment rules. This will allow CMS to
conduct cost comparisons against FFS relative to the actual services used.

Under the new EDPS system, MA plans face significant differences from the current Risk
Adjustment Processing System. Most notably, data collection changes from 5 data elements
currently collected to all of the required data elements on the HIPAA 5010 version of the X12
standards. The collection of MA encounter data is expected to provide CMS with a complete
picture of MA member utilization and will provide CMS the ability to perform, such as:




                                               64
     •   Encounter data can be utilized to identify provider types and facilities with increased
         fraudulent or incorrect billing to Medicare.

     •   Claims, where Medicare is the secondary payer, can be analyzed focusing on coordination
         of benefits, employer group health plans, or other government issued benefits.

     •   CMS can utilize analysis of DME data, and make cost comparisons by region and location
         of DME service provider or supplier to determine that diagnostic, procedural and costs
         patterns are appropriate. Careful analysis of the DME fee schedule will be employed to
         ascertain accurate payment reimbursement methods.

Medicaid/CHIP Financial Management Project

Under this project, funding specialists, including accountants and financial analysts, worked to
improve CMS’s financial oversight of the Medicaid program and CHIP. In FY 2012, through the
continued efforts of these specialists, CMS removed an estimated $895 million (with
approximately $451 million recovered and $444 million resolved) of approximately $7.8 billion
identified in questionable Medicaid costs.

Furthermore, an estimated $128 million in questionable reimbursement was actually averted due
to the funding specialists’ preventive work with states to promote proper state Medicaid
financing. The funding specialists’ activities included reviews of proposed Medicaid state plan
amendments that related to reimbursement; development of financial management reviews;
research regarding state Medicaid financing policy and practices; collaboration with states to
resolve the Medicaid and CHIP portions of the A-133 “Single State” audits; and identification of
sources of the non-Federal share of Medicaid program payments to ensure proper financing of
Medicaid program costs.

HHS/OIG Hotline Database

CMS and its contractor use the OIG Hotline database to perform program integrity activities.
Specifically, the contractor currently receives and processes the complaints OIG receives through
its TIPS Hotline and uploads them to the OIG Hotline database for review by the MACs. The
complaints from both the OIG Hotline and 1-800-Medicare have been in two separate databases
and followed two distinct processes for resolution. These processes will improve as we
consolidate and integrate all the complaints received by OIG and 1-800-MEDICARE. The CMS
contractor is coordinating this effort with the OIG, ECM and NGD. CMS and the OIG anticipate
implementing the new process by December 2012.

3.   Transparency and Accountability

Measured Error Rate - Payment Error Rate Measurement (PERM)

The Improper Payments Information Act (IPIA) of 2002, amended by the Improper Payments
Elimination and Recovery Act of 2010 (IPERA), requires each agency to periodically review


                                                  65
programs it administers, identify programs that may be susceptible to significant improper
payments, estimate the amount of improper payments, submit those estimates to Congress, and
report on actions the Agency is taking to reduce improper payments.

The Medicaid program and CHIP have been identified as at risk for significant erroneous
payments. To comply with the IPIA and IPERA, CMS established the Payment Error Rate
Measurement (PERM) to estimate improper payment error rates in Medicaid and CHIP. The
error rates are based on reviews of the fee-for-service (FFS), managed care, and eligibility
components of Medicaid and CHIP in the fiscal year under review. CMS uses federal contractors
to measure Medicaid and CHIP error rates using a 17-state rotation so that each state is reviewed
once every three years. After several years of development, piloting and implementing the PERM
error rate was published for the first time in FY 2008.

HHS calculated, and is reporting in the FY 2012 Agency Financial Report, the three-year
weighted average national Medicaid error rate that includes the rates reported in fiscal years 2010,
2011, and 2012. This three-year rolling national error rate is 7.1 percent or $19.2 billion in
estimated improper payments and has decreased from FY 2011 (8.1 percent or $21.9 billion).
The weighted national error components rates are as follows: Medicaid FFS, 3.0 percent;
Medicaid managed care, 0.3 percent; and Medicaid eligibility, 4.9 percent. The most common
cause of errors in fee-for-service claims is lack of sufficient documentation to support the
payment. The vast majority of the eligibility errors were due to beneficiaries found to be
ineligible or whose eligibility status could not be determined.

Section 601 of the Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA)
prohibited HHS from calculating or publishing any national or state-specific error rates for CHIP
until six months after a new PERM final rule was effective. In addition, Section 205(c) of the
Medicare and Medicaid Extenders Act of 2010 exempted HHS from reporting a 2011 CHIP
improper payment rate. On August 11, 2010, as part of enhanced efforts to reduce improper
payments in federal programs, HHS issued the final regulations that fully implemented
improvements to the PERM program. Therefore, HHS commenced CHIP error rate measurement
in 2011 and is reporting the single-year FY 2012 national CHIP error rate in the FY 2012 Agency
Financial Report. The FY 2012 national CHIP error rate is 8.2 percent or $0.7 billion in estimated
improper payments. The national component error rates are as follows: CHIP FFS – 6.9 percent;
CHIP managed care – 0.1 percent; and CHIP eligibility – 5.8 percent. The most common causes
of errors are due to beneficiaries found to be ineligible. Other errors are due to policy violations,
payments made for non-covered services, and no documentation.

CMS is currently measuring cycles that will be reported in 2013 and 2014. CMS expects the
error rates to decline in future years through program maturation and corrective action initiatives
implemented at the state and Federal levels.

As a result of the Executive Order 13520—Reducing Improper Payments and Eliminating Waste
in Federal Programs, the PERM program has added several new requirements including reporting
error rate information on the Treasury improper payment dashboard – PaymentAccuracy.gov —
and annually reporting comprehensive improper payment measurement and reduction activities to


                                                 66
HHS/OIG.

Error Rate Measurement and Increased Accountability in Medicare Advantage (Part C) and
Medicare Prescription Drug Benefit Program (Part D)

In compliance with IPIA, CMS has implemented a systematic plan regarding improper payments
for Part C and Part D programs. Unlike Medicare fee-for-service, CMS makes prospective,
monthly per-capita payments to Part C organizations and Part D plan sponsors. Each per-person
payment is based on a bid amount, approved by CMS, that reflects the plan's estimate of average
costs to provide benefit coverage to enrollees. CMS risk-adjusts these payments to take into
account the cost associated with treating individual beneficiaries based on health status. In
addition, certain Part D prospective payments are reconciled against actual costs, and risk-sharing
rules set in law are applied to further mitigate plan risk.

The Part C payment error estimate reported for FY 2012 (based on calendar year CY 2010) is
11.4 percent, or $13.1 billion. The Part C payment error estimate has remained relatively constant
compared to FY 2011 of 11.0 percent. The FY 2012 Part C payment error estimate presents the
combined impact on Part C payments of two sources of error: Part C payment system error and
the Risk Adjustment Error. Most of the Part C payment error is driven by errors in risk
adjustment data (clinical diagnosis data) submitted by Part C plans to CMS for payment purposes.
Specifically, the Risk Adjustment Error estimate reflects the extent to which diagnoses that plans
report to CMS are not supported by medical record documentation. In an effort to improve the
Part C error rate, CMS has implemented contract-specific Risk Adjustment Data Validation
(RADV) audits designed to recover overpayments to Part C plans, and to provide outreach and
education to plans. Further, CMS has initiated outreach and education efforts for
physicians/providers for FY 2012.

On February 24, 2012, HHS released the Notice of Final Payment Error Calculation
Methodology for Part C Medicare Advantage Risk Adjustment Data Validation Contract-Level
Audits. The notice clarifies the final audit methodology that will be implemented for audited
contracts going forward. Calendar year 2011 is the first year that CMS will conduct payment
recovery based on extrapolated estimates. CMS expects to audit about 30 MA contracts each
year.

Additionally, the CY 2007 contract-level RADV audits are in the final stages. In FY 2012, CMS
conducted payment recovery (at the beneficiary level) from five of the contracts involved in the
CY 2007 RADV pilot audits totaling $3.5 million.


The Part D payment error estimate reported for FY 2012 (based on CY 2010) is 3.1 percent, or
$1.59 billion. The FY 2012 Part D error estimate presents the combined impact on Part D
payments of five sources of error: Part D payment system error; payment error related to low
income subsidy status; payment error related to incorrect Medicaid status; payment error related
to prescription drug event data validation; and payment error related to direct and indirect
remuneration.


                                                67
Probable Fraud Measurement Pilot

While CMS calculates improper payments error rates in Medicare and Medicaid as described
above, there is no reliable estimate of the amount of fraud in the Medicare program.
Documenting the baseline amount of fraud in Medicare is of critical importance, as it allows
officials to evaluate the success of ongoing fraud prevention activities. In collaboration with the
HHS Office of the Assistant Secretary for Planning and Evaluation, CMS developed the
methodology for the first nationally representative estimate of the extent of probable fraud in the
Medicare fee-for-service program in FY 2011. In FY 2012, CMS developed the measurement
tools for the pilot, and collaborated with government partners, including ASPE, on the strategy for
implementation.

This project will estimate probable fraud within the area of Home Health Agencies (HHAs) to
pilot test the measurement approach and calculate a service-specific estimate. This pilot is
measuring “probable fraud” rather than “fraud” because “fraud” is a legal determination that CMS
cannot make on its own. A review panel of experienced health care analysts, clinicians, policy
experts, and fraud investigators will review all collected data and determine if there is sufficient
evidence to warrant a referral to law enforcement. After the completion of this pilot, CMS will
assess the value of expanding the measurement to other areas of health care. CMS will begin
collecting data on probable fraud and have an estimate of probable fraud within HHAs in 2013.

Fraud Summits

Since June 8, 2010 when President Obama announced a nationwide series of regional fraud
prevention summits as part of a multi-faceted effort to crack down on health care fraud, HHS has
a strong commitment to partnering with the private sector to exchange information on best
practices. The seventh fraud prevention summit was held in Chicago on April 4, 2012
highlighting the new high-tech war against health care fraud being jointly fought by HHS and
DOJ. FY 2010 HCFAC funds totaling $1 million were used to fund these regional fraud summits
and also to underwrite the Fraud Prevention Campaign in both FY 2011 and FY 2012.

4.   Recovery

Field Offices

CMS has been placing resources in Medicare “hot fraud” areas with ZPIC and CMS program
integrity field offices. The ZPIC contracting strategy aligns the anti-fraud contractors with the
Medicare Administrative Contractor (MAC) zones. Additionally, the designated program
integrity field offices are located in or near the HEAT cities of Miami, Los Angeles, and
Brooklyn, and provide a CMS presence in high risk fraud areas of the country. Together, the field
offices and ZPICs conduct data analysis to proactively identify targets and to coordinate efforts
among various contractors and agencies to identify local issues and vulnerabilities with national
or regional impact. All three field offices have staff that are designated CMS Strike Force
Liaisons, who coordinate with law enforcement, facilitate data analysis, and expedite suspension


                                                68
requests.

Enrollment Special Study

The Enrollment Special Study is a project designed to stop fraudulent providers from obtaining
new Medicare provider numbers, reduce the number of habitual “bad providers” from re-entering
the Medicare system after they have been kicked out, and shift from the pay and chase approach
that has existed in years past. In this project, site visits are conducted prior to enrollment, and
providers are targeted for a closer review. The project is limited to Community Mental Health
Centers (CMHCs), Comprehensive Outpatient Rehabilitation Facilities, and Independent
Diagnostic Testing Facilities in South Florida. Once the MAC conducts a site visit, it assesses the
provider’s individual risk. If the provider appears to be suspect or pose an elevated risk of fraud,
the provider is referred to the ZPIC for investigation and administrative action, as appropriate.
This project began as a one year project in July 2009 and has been extended due to its success.

As of July 31, 2012, First Coast Service Operations, Inc. (FCSO), a MAC, has conducted 15,826
activity checks to verify providers/suppliers operational status; deactivated 576 practice locations
and revoked 736 providers’ billing privileges. Since inception, FCSO has saved over $42 million
through prepayment review. In addition, as of July, 14, 2012, SafeGuard Services (SGS), the
ZPIC, conducted 1,296 on-site investigations resulting in 605 requests for provider revocation or
deactivation. SGS placed 618 providers on prepayment review resulting in savings of $18.7
million.

South Florida Fraud Hot Line

CMS also continued a successful initiative aimed at increasing fraud reporting in South Florida.
As part of a two-year infusion therapy demonstration, CMS established a special fraud hotline in
2007 to protect Medicare beneficiaries in South Florida from fraudulent providers of infusion
therapy. As a result of the hotline’s success in FY 2009, CMS expanded the scope of this
infusion therapy fraud hotline to handle all Medicare fraud-related calls in South Florida. The
fraud hotline number is included on monthly Medicare Summary Notices (MSNs) sent to
beneficiaries in Miami-Dade, Broward and Palm Beach counties.

Trained, bilingual, or trilingual staff fielded and routed calls, and acknowledged receipt of
complaints in writing. A rapid response team at the ZPIC investigated the highest priority leads
received from the fraud hotline within 48 hours of receipt of the call and then collaborated with
CMS and law enforcement to pursue appropriate follow up action(s). CMS worked with its
partners to conduct beneficiary outreach and education to ensure beneficiaries understood the
types of fraud that may occur and how to read their MSNs to detect potential fraudulent billings.

As of August 31, 2012, the hotline has received more than 86,535 calls leading to 954 new fraud
investigations. In addition, the ZPIC has placed 191 providers on prepayment review saving $14
million, revoked or deactivated 157 provider numbers, referred 42 cases to law enforcement, and
sent 133 Immediate Advisements to the HHS/OIG. Additionally, law enforcement has seized $3
million in provider bank accounts.


                                                69
DME Stop Gap Plan

The DME Stop Gap Plan was developed in response to the escalation in DMEPOS fraud and the
delay in implementation of DMEPOS competitive bidding. This two-year project was initiated in
FY 2009 to enhance detection and prevention activities in connection with fraud, waste and abuse
in DMEPOS in seven high risk states (California, Florida, Illinois, Michigan, North Carolina,
New York and Texas). The project is intended to address fraud involving high risk suppliers,
ordering physicians, DMEPOS items, and beneficiaries in each area.

Under this project, CMS and its contractors first identify and then interview or conduct site visits
to the highest paid and highest risk DMEPOS suppliers ordering physicians, and utilizing
beneficiaries. These visits and interviews allow CMS to identify and scrutinize the highest billed
and highest risk DMEPOS equipment and supplies.

Based on the findings, administrative actions, as appropriate, are initiated. The second year of the
project concluded on September 30, 2011 and the results to date include onsite interviews/reviews
of 5,371 high risk providers, suppliers, and beneficiaries; implementation of 15,470 claims
processing edits to prevent improper payment (with associated $36.4 million in denied claims);
$69 million in requested overpayments; 1,240 new investigations opened; and 479 suppliers
revoked or deactivated.

As a result of the DME Stop Gap project CPI has decided to incorporate lessons learned from the
DME Stop Gap into the routine DME workload for all ZPICs.

Defending Medical Review Decisions at Administrative Law Judge (ALJ) Hearings

In FY 2011, CMS was awarded HHS Wedge funding to hire additional Contractor Medical
Directors (CMDs) to support CMS anti-fraud and error rate reduction efforts by defending
decisions at the ALJ. The funding was provided to the MACs in FY 2012. As a result, there are
now Medical Directors dedicated to serving as expert witnesses at appeal hearings.

This project supports agency administrative actions by ensuring there are adequate CMDs that can
serve as expert witnesses for the agency at the ALJ level. In a pilot program, CMS had
previously had success with reducing the overturn rate on appeals by having a physician
participate at the ALJ level.

Administration for Community Living

In FY 2012, the Administration for Community Living (ACL) via the Administration on Aging
(AoA) was allocated $3.378 million in HCFAC funding by HHS to support infrastructure,
technical assistance, and the other Senior Medicare Patrol (SMP) program support. In addition to
this funding, ACL was allocated $7.331 million for capacity-building activities designed to
enhance the effectiveness of state-wide SMP programs. During FY 2010 and FY 2011, CMS had
provided this capacity funding to ACL for the SMP projects. In FY 2012, the funding came


                                                70
directly to ACL. The base SMP project grant is funded from a separate Congressional
appropriation.

SMP Project Activities and Outcomes

ACL funds 54 SMP statewide projects (each state, Guam, Puerto Rico, Virgin Islands and D.C.)
with funds authorized in the Older American Act and the HCFAC Wedge. SMP projects recruit
and train senior volunteers to educate their peers on how, as beneficiaries, they can detect and
prevent fraud, waste and abuse in Medicare.

In FY 2012 ACL received the aforementioned $7.3 million in additional HCFAC funds to
continue the expanded funding of statewide SMP projects that began in FY 2010 and continued in
FY 2011. This additional funding has allowed SMP’s to target their expansions in large states
with high instances of fraud.

According to the most recent annual performance report from HHS/OIG’s Deputy Inspector
General for Evaluation and Inspections, dated June 21, 2012, 5,671 active volunteers served SMP
projects during 2011. This represents a 14 percent increase in the number of volunteers from that
of 2010. These volunteers performed an essential function of this program, contributing 88,169
hours in efforts to educate beneficiaries about how to prevent and detect Medicare and Medicaid
fraud within local communities.

Outreach to senior consumers is a key element of the SMP program. During 2011, SMP projects
held 8,800 community outreach education events reaching close to an estimated 1.67 million
people, and were responsible for over 592,000 media airings to increase beneficiary awareness
about issues related to Medicare and Medicaid integrity. During this period, 66,303 one-on-one
counseling sessions were held with or on behalf of a beneficiary on a variety of issues related to
potential Medicare or Medicaid fraud, error, or abuse. In addition, over 431,000 beneficiaries
were educated through 11,109 group educational sessions conducted by SMP programs in local
communities.

SMP projects nationwide resolved 77,367 inquiries for information or assistance in 2011 from or
on behalf of beneficiaries. This included receipt of 2,077 complex issues—i.e., beneficiary
complaints requiring further research, assistance, case development, and/or referral. SMP
projects reported that 1,415 complex issues were resolved for beneficiaries during 2011, while
819 complex issues with an estimated dollar value of over $5.3 million, were referred to law
enforcement, CMS integrity contractors, state Medicaid Fraud Control Units, or other entities for
further action. During this period, HHS/OIG documented that $247,850 in health care
expenditures were avoided and nearly $33,000 in Medicare, Medicaid and other savings resulted
from actions taken by the SMP program.

Since the program’s inception, the program has educated over 4.7 million beneficiaries in group
or one-on-one counseling sessions and has reached nearly 27 million people through community
education outreach events. While SMPs make numerous referrals of potential fraud to CMS
program integrity contractors, it is still difficult to measure the outcome of these cases without a


                                                 71
tracking mechanism. Therefore, we have no measure of these outcomes, though we anticipate that
they would demonstrate an additional benefit of the SMP program’s ability to detect and prevent
fraud and abuse in the Medicare program. In addition, the impact of the SMP program’s primary
activities—education of beneficiaries to prevent health care fraud—is difficult to measure and
impossible to quantify in dollars and cents. As HHS/OIG indicated in the June 2012 report:

        “We continue to emphasize that the number of beneficiaries who have learned from the
       Senior Medicare Patrol Projects to detect fraud, waste, and abuse and who subsequently
       call the OIG fraud hotline or other contacts cannot be tracked. Therefore, the projects may
       not be receiving full credit for savings attributable to their work. In addition, the projects
       are unable to track substantial savings derived from a sentinel effect, whereby fraud and
       errors are reduced in light of Medicare beneficiaries scrutiny of their bills.”

ACL recognizes the importance of measuring the value of the SMP program impact to the fullest
degree possible. Toward that end, in 2012, ACL contracted for the first-ever SMP program
evaluation that will assess the national design and implementation of the SMP program, the
adequacy of current SMP performance measures, and seek to determine the most appropriate
measures of SMP program value (benefits, results and impact). The contract was awarded in
September 2012 and will continue for 15 months.

In addition, during FY 2012, ACL and HHS/OIG continued a collaborative effort to help ensure
SMP referrals of beneficiary complaints of potential fraud are received by law enforcement in a
timely fashion. This has included development of processes for SMP referral of beneficiary
complaints to the HHS/OIG hotline, including mechanisms for capturing outcomes related to
these referrals. In addition, a workgroup between ACL and HHS/OIG meets regularly to review
potential fraud cases for submission to the OIG hotline.

Despite the factors that have limited ACL’s ability to quantify the value of the SMP program in
preventing, identifying, and reporting health care fraud, the OIG has documented close to $106
million in savings attributable to the program as a result of beneficiary complaints since its
inception in 1997.

SMP Infrastructure and Program Support

National Consumer Protection Technical Resource Center

The Center, established October 1, 2003, provides technical assistance, support and training to the
SMP projects, ensuring a fully consolidated national approach to reaching Medicare and Medicaid
beneficiaries. The goal of the Center is to provide professional expertise and technical support,
serve as an accessible and responsive central source of information, and maximize the
effectiveness of the SMP projects in healthcare integrity outreach and education. The Center has
been instrumental in supporting ACL efforts to forge national visibility for the SMP program.

National Hispanic SMP Project Grant



                                                72
In September 2008, AoA awarded an initial three-year grant to the National Hispanic Council on
Aging for the development and implementation of a National Hispanic SMP (NHSMP) Program.
The problem of health care fraud and abuse becomes even more challenging to address with hard-
to-reach populations, particularly those with cultural and language barriers. The NHSMP project
also promotes collaborations among key community players in order to promote the prevention,
detection and reporting of fraud within the Hispanic community. The NHSMP program is working
to create a model to provide technical assistance to SMP projects who work with Hispanic
populations so that they can expand their reach to Hispanic older adults.

                              Office of the General Counsel
In FY 2012, the Office of the General Counsel (OGC) was allocated approximately $8.9 million
in HCFAC funding by HHS to supplement OGC’s efforts to support program integrity activities.
OGC’s efforts in FY 2012 focused heavily on program integrity review, in which OGC reviews
CMS’ programs and HCFAC activities in order to strengthen them against potential fraud, waste,
and abuse. OGC also continued to expand its litigation role in order to assist in the recovery of
program funds. During FY 2012, OGC was involved in a wide range of HCFAC efforts that
resulted in Government recoveries of over $2.8 billion in judgments, settlements, or other types of
recoveries, savings, or receivables described elsewhere in this report.

The Affordable Care Act

The ACA significantly amended existing anti-fraud statutes. These provisions established
fundamental expectations for compliance, disclosure, transparency, and quality of care, and are
matched by corresponding enforcement provisions. Some specific provisions of the ACA that
particularly support HCFAC priorities include amending Medicare and Medicaid
provider/supplier enrollment requirements, overpayment provisions to specifically invoke the
FCA, strengthening the anti-kickback statute, and creating a statutory disclosure protocol for
violations of the physician self-referral prohibition known as the “Stark law.” During FY 2012,
OGC spent significant time and resources working with CMS to implement program integrity
provisions in the ACA. As new ACA programs were implemented, OGC worked with the
relevant agencies to ensure that program integrity issues were reviewed and resolved, and assisted
the agencies in addressing program integrity and compliance problems as they occurred.

HEAT

During FY 2012, OGC was involved in HEAT initiatives and worked closely with other HEAT
members to combat fraud, waste, and abuse in the Medicare and Medicaid programs by providing
advice on the myriad legal issues presented as the government works to initiate innovative anti-
fraud programs in various hotspots throughout the country. OGC continued to assist DOJ in
pursuing both criminal and civil cases involving individuals and entities seeking to defraud the
Medicare and Medicaid programs and to defend any Federal court challenges that are brought as a
result of HEAT initiatives. OGC’s involvement in HEAT also included advising CMS on
provider and supplier revocations, payment suspensions, recoupments, and defending the
administrative appeals that resulted.


                                               73
FCA and Qui Tam Actions

OGC assisted DOJ in assessing qui tam actions filed under the FCA by interpreting complex
Medicare and Medicaid rules and policies in order to assist DOJ in discerning which allegations
were program violations and should be pursued and to help DOJ focus on those matters which
were most likely to result in a recovery of money for the government. When DOJ filed or
intervened in a FCA matter, OGC provided litigation support, including interviewing and
preparing witnesses and responding to requests for documents and information. In FY 2012, OGC
participated in FCA and related matters that recovered over $2.6 billion for the government. The
types of FCA cases that OGC participated included: drug pricing manipulation; illegal marketing
activity by pharmaceutical manufacturers that resulted in Medicare and Medicaid paying for drugs
for indications not covered; underpayment of rebates to state Medicaid programs; physician self-
referral violations; and provider up coding cases.

Provider/Supplier Suspensions and Enrollment Revocations or Denials

Suspensions play a critical role in protecting against the abuse of program funds. OGC advised
CMS on whether to suspend payments to Medicare providers and suppliers and defended the
suspensions when challenged. In FY 2012, OGC attorneys were involved in a myriad of
suspension and recoupment actions, which involved fraudulent billings and different segments of
the health care industry: DME suppliers, ambulance companies, physicians, infusion clinics,
therapists, home health agencies, and diagnostic testing facilities. OGC also represented CMS
when a provider or supplier appealed a denial of enrollment or revocation. In FY 2012, OGC
represented CMS in appeals before the Departmental Appeals Board (DAB) and often resolved
these cases without formal hearings. OGC also continued to advise CMS on the interpretation of
enrollment regulations and reviewed proposed enrollment rules and manual changes.

Medicare Prescription Drug Program (Part D) & Medicare Advantage (Part C) Compliance

During FY 2012, OGC continued to provide extensive advice to CMS on a variety of Part D and
MA-related contract compliance issues, including identifying enforcement options against
sponsors that are noncompliant or violate program rules, such as the Marketing Guidelines. OGC
reviewed compliance-related correspondence that CMS issued to Part D sponsors and MA plans
in the form of warning letters, corrective action plan letters, intermediate sanctions, CMP notices,
and non-renewal or termination notices.

Civil Monetary Penalties

CMS has the responsibility for administering numerous CMP provisions enacted by Congress to
combat fraud, waste, and abuse by enforcing program compliance and payment integrity. In FY
2012, OGC provided legal advice to CMS regarding the development and imposition of CMPs
and defended CMS in many administrative appeals and judicial litigation resulting from these
cases, recovering or establishing the right to recover over $4.5 million in CMPs.



                                                74
Petitions for Remission

OGC collaborated with Federal law enforcement, including the FBI, the USAOs, the Secret
Service, U.S. Postal Service, and the U.S. Marshal’s Service in filing petitions for remission
directed to recover assets subject either to administrative forfeiture by Federal law enforcement or
civil judicial forfeiture by DOJ. Each petition set forth the background of the fraudulent scheme,
the history of Medicare’s payments, and how the fraudulently induced payments could be traced
to the seized assets. During FY 2012, OGC petitioned these agencies to recover funds in both
criminal and civil litigation matters in which Medicare was a victim of fraud involving about $5.4
million seized by law enforcement agencies.

Regulatory Review and Programmatic Advice

In FY 2012, OGC advised CMS on a variety of contract compliance, immediate sanction, and
civil money penalty issues, and assisted CMS with a variety of law enforcement inquiries related
to Parts C and D. OGC also provided extensive legal counsel to CPI on a proposed rule
implementing new section 1128J(d) of the Social Security Act (SSA), which requires providers
and suppliers to report and return overpayments within 60 days of identifying them.

Medicaid Integrity

Continuing recent trends, OGC saw continued increasing involvement in FY 2012 in Medicaid
integrity issues as CMS devoted more resources to financial reviews and oversight and as states
continued to present innovative proposals to reconfigure their programs.

Physician Self-Referral

OGC provided valuable assistance to CMS in navigating the complexities of the Stark physician
self-referral law. In FY 2012, OGC reviewed several draft Stark advisory opinions as well as
various payment or coverage rules and suggested modifications necessary to avoid implicating, or
to conform the regulation to, the Stark law. In addition, OGC has been instrumental in advising
CMS on the newly established (by the ACA) voluntary Self Referral Disclosure Protocol, under
which providers of services and supplies may self-disclose actual or potential violations of the
physician self-referral statute. OGC has advised CMS on how to implement this new provision,
how to apply the protocol, and how to resolve the specific disclosures (now over 100) that CMS
has received.

Medicare Secondary Payer (MSP) Workload

OGC’s efforts to recover conditional payments by Medicare that are the primary responsibility of
other payers directly supports the HCFAC statutory goal of facilitating the enforcement of all
applicable legal remedies for program fraud and abuse. During FY 2012, OGC has been
successful in establishing the right to recover over $17 million for Medicare under the MSP
program. Recent statutory changes implementing reporting requirements to the MSP law have


                                                75
strengthened and expanded OGC’s efforts in this area – to the benefit of the Medicare Trust
Funds – including substantial CMPs for failure to report.

Bankruptcy Litigation

OGC protected Medicare funds when providers sought bankruptcy protections by asserting CMS’
recoupment and set-off rights to collect overpayments. In FY 2012, OGC asserted CMS’ interests
in numerous bankruptcy and receivership actions involving physicians, hospitals, independent
diagnostic test facilities, DME suppliers, nursing homes, and nursing home chains. Further, OGC
negotiated agreements to recover overpayments, and advanced the use of Medicare’s recoupment
and set-off authority, collecting or establishing the right to collect over $4.9 million in recoveries
involving bankrupt providers.

Denial of Claims and Payments

CMS and its contractors engaged in various activities and initiatives to detect and prevent abusive
and fraudulent billing practices. These measures included provider and beneficiary education, use
of claim sampling techniques, and a more rigorous scrutiny of claims with increased medical
review. In FY 2012, OGC played a major role in advising CMS regarding the development and
implementation of these types of program integrity measures and defended CMS in litigation
brought by providers and suppliers who challenged these efforts. OGC continued to aggressively
defend CMS and its contractors in cases seeking damages for the alleged wrongful denial of
claims, for being placed on payment suspension, and for not being granted extended repayment
plans.

                Food and Drug Administration Pharmaceutical Fraud
                                   Program
 In FY 2012, the FDA was allocated $3.4 million in HCFAC funding by HHS for the FDA
 Pharmaceutical Fraud Program (PFP). The PFP has enhanced the health care fraud- related
 activities of FDA's Office of Criminal Investigations (OCI) and the Office of the General
 Counsel (OGC) Food and Drug Division. OCI, with the support of OGC, investigates
 criminal violations of the Food, Drug, and Cosmetic Act (FDCA), the Prescription Drug
 Marketing Act, the Federal Anti-Tampering Act, and related Federal statutes.

 The PFP is designed to detect, prosecute, and prevent pharmaceutical, biologic, and medical
 device fraud. The PFP gathers information from sources inside and outside FDA and focuses
 on fraudulent marketing schemes, application fraud, clinical trial fraud, and flagrant
 manufacturing- related violations related to biologics, drugs, and medical devices. The early
 detection and prosecution of fraudulent conduct furthers FDA’s public health mission and helps
 reduce health care costs and deter future violators. As described below, the PFP has identified
 multiple alleged medical product fraud schemes through various avenues.

Since the inception of the PFP, OCI has opened a total of forty-two criminal investigations. In
FY 2012, FDA’s second full fiscal year of HCFAC Program activity, OCI, through its PFP,


                                                 76
opened seventeen criminal investigations, described below:

   •   Two investigations involving allegations of promotional violations including
       minimization of risk and/or off label promotion of two drugs by different
       manufacturers. One investigation involves the promotion of a drug for conditions not
       indicated in the drug’s labeling. The other investigation involves allegations of
       deceptive marketing practices regarding the safety of a drug product.

   •   One investigation involving allegations of promotional violations involving multiple
       medical devices by a manufacturer. In this investigation, it is alleged that the
       manufacturer was aware of defects and repeated failures of the devices and failed to
       provide safety information to the FDA, doctors and patients.

   •   One investigation involving allegations of off-label promotion, clinical trial and
       application fraud and insurance billing matters regarding a medical device. The device is
       allegedly being promoted off-label and being used in a clinical trial without an
       investigational device exemption for a condition that falls outside the cleared indication
       for use.

   •   Thirteen investigations involving allegations of clinical trial fraud and/or application
       fraud. These investigations consist in part of individuals suspected of falsifying
       clinical trial data, forging signatures of clinical investigators, and enrolling ineligible
       subjects in clinical trials.

In regards to judicial action, one of the PFP clinical trial fraud investigations has resulted in
the convictions of two individuals. The investigation revealed that a physician and a clinical
research coordinator conducting clinical trials of biological product intended to treat allergies
enrolled ineligible participant in the clinical trial, falsified records of physical examinations,
and made false statements to the FDA about the study. Both were charged with conspiracy,
mail fraud, and falsifying information required by the FDA. The defendants each received 12
months probation and were ordered to pay restitution in the amount of $36,040. OCI
forwarded information about the convictions to FDA’s Office of Enforcement for
consideration of appropriate administrative remedies to prevent the defendants from
conducting additional clinical investigations.

In addition to these investigative activities, FDA conducted a three day training session in late
June 2012 for criminal investigators and supervisors covering PFP-related topics. Instruction
provided included legal training by the Office of General Counsel on the Federal Food, Drug, and
Cosmetic Act in areas relevant to PFP cases, investigative scenario training on clinical trial fraud
investigations, case presentations on successful prosecutions involving off-label promotion and
other fraud schemes involving both drugs and medical devices. The training also provided
background on OCI’s participation in the HCFAC Program and resources available to assist in
investigations being conducted under the PFP.




                                                 77
                    THE DEPARTMENT OF JUSTICE

                                   United States Attorneys

In FY 2012, the United States Attorney’s Offices (USAOs) were allocated approximately $35.4
million in HCFAC funding to support civil and criminal health care fraud and abuse litigation, as
exemplified in the Program Accomplishments section. The USAOs dedicated substantial district
resources to combating health care fraud and abuse in 2012, and HCFAC allocations have
supplemented those resources by providing funding for attorneys, paralegals, auditors and
investigators, as well as funds for litigation of resource-intensive health care fraud cases.

The 93 United States Attorneys and their assistants, or AUSAs, are the nation’s principal
prosecutors of Federal crimes, including health care fraud. Each district has a designated
Criminal Health Care Fraud Coordinator and a Civil Health Care Fraud Coordinator. Civil and
criminal health care fraud referrals are often made to USAOs through the law enforcement
network described herein, and these cases are usually handled primarily by the USAOs, although
the civil referrals are sometimes handled jointly with the Civil Division’s Commercial Litigation
Branch (Fraud Section). The other principal source of referrals of civil cases for USAOs is
through the filing of qui tam (or whistleblower) complaints. These cases are often handled jointly
with trial attorneys in the Frauds Section. USAOs also handle most criminal and civil appeals at
the Federal appellate level.

USAOs play a major role in health care fraud enforcement by bringing criminal and affirmative
civil cases to recover funds wrongfully taken from the Medicare Trust Funds and other taxpayer-
funded health care systems as a result of fraud, waste, and abuse. Civil and criminal AUSAs
litigate a wide variety of health care fraud matters, including false billings by physicians and other
providers of medical services, overcharges by hospitals, Medicaid fraud, kickbacks to induce
referrals of Medicare or Medicaid patients, fraud by pharmaceutical and medical device
companies, home health and hospice fraud, and failure of care allegations against nursing home
owners. Working closely with their partners in the Civil Division, several civil health care fraud
AUSAs have focused their efforts on pharmaceutical fraud, resulting in significant recoveries
including: $3.0 billion from GlaxoSmithKline, and $950 million from Merck, Sharp and Dohme.
Most of the civil settlements, including these settlements were part of a global resolution, which
also addressed the criminal liabilities, resulting in criminal pleas, as well as significant fines and
forfeitures. The criminal portion of these investigations and resolutions was handled by criminal
health care fraud AUSAs, often working with their counterparts at the Consumer Protection
Branch of the Civil Division. These global settlements resolved allegations including, reporting
of false and inflated drug prices, manufacturing and distributing adulterated drugs, off-label
marketing and kick-backs. These cases are detailed earlier in this report.

Several of the USAOs have dedicated significant resources to investigate fraud perpetrated on our
most vulnerable citizens. To this end, the USAOs have partnered with Civil Frauds in the Elder
Justice and Nursing Home Initiative to address elder abuse and neglect. As a result of USAO
efforts, the owner and operator of three nursing homes was sentenced to serve 20 years in Federal

                                                 78
prison on charges of conspiring with his wife to defraud the Medicare and Georgia Medicaid
programs by billing them for “worthless services” in the operation of three nursing homes. This is
the first time that a defendant has been convicted after a trial in Federal court for submitting
claims for payment for worthless services. The defendant was also ordered to pay $6.7 million in
restitution to Medicaid and Medicare

The USAOs partner with the Criminal Division in the Strike Forces, which are currently operating
in nine USAOs across the country. Each USAO has dedicated several AUSAs and support
personnel to work with Criminal Division attorneys in this important initiative. The MFSFs use
data analysis to identify high-billing levels in health care hot spots so that emerging or migrating
schemes can be targeted. The significant successes of the MFSFs have been detailed earlier in
this report.

Special Focus Teams, consisting of criminal and civil AUSAs, paralegals, and auditors, are
operational in three districts and focus on pharmaceutical, biologics, and medical device fraud.
The teams have contributed significantly to the success of the pharmaceutical investigations and
recoveries this year. To increase the capacity of other districts to successfully litigate these
complex health care fraud cases, the Special Focus Teams have organized monthly training
Webinars and serve as advisors for the USAO community in the various complex areas of health
care fraud.

In addition to the positions funded by HCFAC, the Executive Office for United States Attorneys’
Office of Legal Education (OLE) uses HCFAC funds to train AUSAs and other DOJ attorneys, as
well as paralegals, investigators, and auditors in the investigation and prosecution of health care
fraud. In 2012, OLE offered a Health Care Fraud Seminar, which was attended by over 100
AUSAs and DOJ trial attorneys. In addition, an ACE Conference, with a heavy concentration on
health care fraud issues, was offered for paralegals, auditors, and investigators. Many USAO
attorneys, investigators, auditors, and paralegals serve as faculty at these OLE trainings, and also
participate in other Federal, state, and private health care fraud seminars.

Criminal Prosecutions

In FY 2012, the USAOs received 1,131 new criminal matters involving 2,148 defendants, and had
2,032 health care fraud criminal matters pending, 15 involving 3,410 defendants. The USAOs filed
criminal charges in 452 cases involving 892 defendants, and obtained 826 Federal health care
fraud related convictions.

Civil Matters and Cases

In FY 2012, the USAOs had opened 885 new civil health care fraud investigations. At the end of
FY 2012, the USAOs had 1,023 civil health care fraud investigations pending.


15
  When a USAO accepts a criminal referral for consideration, the office opens it as a matter pending in the district.
A referral remains a pending matter until an indictment or information is filed or it is declined for prosecution.


                                                        79
                                           Civil Division
In FY 2012, the Civil Division received approximately $25.1 million in HCFAC funding to
support the health care fraud activities of the Commercial Litigation Branch’s Fraud Section and
the Consumer Protection Branch. This amount also included funding to support the Department
of Justice’s Elder Justice and Nursing Home Initiative.

The Commercial Litigation Branch’s Fraud Section

The Civil Division’s Commercial Litigation Branch (Fraud Section) investigates health care fraud
allegations and brings actions under the FCA to recover money on behalf of defrauded Federal
health care programs including Medicare, Medicaid, TRICARE, and the FEHBP. The Fraud
Section works closely with the Consumer Protection Branch, USAOs, HHS/OIG, state Medicaid
Fraud Control Units and other law enforcement agencies. As a result of these efforts, the Fraud
Section has obtained settlements and judgments of over $1 billion almost every year since 2000
and over $3 billion in FY 2012 alone.

The Fraud Section investigates and resolves matters against a wide array of health care providers
and suppliers. Matters involving pharmaceutical and device manufacturers are among the most
complex and resource intensive cases handled by the Fraud Section. These matters commonly
involve nationwide conduct, raise legally and factually complicated issues, and demand
significant resources to investigate, resolve, and litigate, if necessary. Many of these cases,
including the GlaxoSmithKline matter discussed above and in greater detail below, involved
allegations that the pharmaceutical manufacturer improperly promoted its drug for uses not
approved by the FDA and thereby caused Federal health care programs to pay for drugs for
unapproved and non-covered uses. Other cases involved allegations that the manufacturer
provided false and misleading information about their products, or else paid kickbacks to
physicians to prescribe their products. Lastly, some of these matters alleged drug pricing
manipulation by pharmaceutical manufacturers in order to lower their month rebate obligations to
the Medicaid program. In all, the Fraud Section recovered more than $2 billion in matters
involving pharmaceutical and medical device manufacturers.

The Fraud Section also investigated and resolved several matters involving hospice and hospital
providers in FY12. For example, Odyssey Healthcare paid $25 million to resolve FCA
allegations that it submitted claims for medically unnecessary “continuous home care” services
that were intended for patients who are experiencing an acute crisis and whose symptoms could
only be controlled at home through the provision of skilled nursing services. Likewise, the Fraud
Section resolved several hospital matters involving allegations that the hospitals overbilled
Medicare by treating patients on an inpatient basis when they should have been treated as
observation patients or treated on an outpatient basis.

In addition to its investigative responsibilities, the Fraud Section plays a critical role supporting
and providing guidance to its health care fraud partners. It regularly provides training and
guidance to AUSAs and agents on the FCA and health care fraud issues. The Section works
closely with HHS/OIG, Office of General Counsel, in all settlements of health care fraud


                                                  80
allegations in order to ensure that the administrative remedies possessed by HHS are
appropriately considered and to enable the negotiation of compliance terms that diminish the risk
that the offending conduct will be repeated. The Section also collaborates with and counsels
CMS and HHS/OIG on interagency initiatives and proposed rules and regulations.

The Elder Justice and Nursing Home Initiative, which is housed in the Civil Division, coordinates
and supports law enforcement efforts to combat elder abuse, neglect, and financial exploitation.
The Initiative supports law enforcement efforts by maintaining an information bank of Elder
Justice related materials (including briefs, opinions, indictments, plea agreements, subpoenas
templates); funding medical reviewers, auditors, and other consultants to assist DOJ attorneys and
AUSAs in their nursing home and/or long term care facility cases; hosting quarterly
teleconferences with DOJ attorneys and AUSAs across the country to discuss issues or
developments in connection with our nursing home and failure of care cases; and coordinating
nationwide investigations of skilled nursing facilities. In addition to supporting law enforcement
efforts, the Initiative continues to fund research projects awarded by the Office of Justice
Programs, National Institute of Justice, to study the abuse, neglect, and exploitation of elderly
individuals and residents of residential care facilities.

The Consumer Protection Branch

The Consumer Protection Branch (CPB) investigates and prosecutes manufacturers and
individuals who are illegally promoting and distributing unapproved, misbranded, and adulterated
drugs and devices in violation of the FDCA. CPB works closely with the Commercial Litigation
Branch’s Fraud Section, the USAOs, and the FDA on a wide variety of health care fraud matters.
In recent years, CPB has convicted dozens of companies and individuals. The prosecutions
resulted in significant jail terms and fines, penalties, and forfeitures totaling in the billions of
dollars.

In the area of pharmaceutical and device fraud, CPB coordinates complex investigations with
districts nationwide, staffing the cases directly as well as providing assistance to USAOs.
Because these investigations are complicated, both legally and factually, they demand significant
resources. The recent prosecution of GlaxoSmithKline (“GSK”), a major pharmaceutical
company, is an example of the sort of complex health care fraud investigation the Consumer
Protection Branch handles with its investigative partners. GSK agreed to plead guilty and pay $3
billion to resolve criminal and civil liability arising from the company’s unlawful promotion of its
drugs Paxil and Wellbutrin, its failure to report certain safety data for its drug Avandia, and its
civil liability for alleged false price reporting practices. As part of the global resolution—the
largest combined health care fraud recovery in a single global resolution in U.S. history—GSK
pled guilty to three misdemeanor violations of the FDCA. One of the criminal charges involved
the off-label promotion of Paxil, which had been approved only for patients over the age of 18,
and which, since 2004, like other antidepressants, included on its label a “black box warning”
stating that antidepressants may increase the risk of suicidal thinking and behavior based on short-
term studies in patients under age 18. CPB and the USAO developed evidence showing that GSK
prepared, published and distributed a misleading medical journal article that misreported that a
clinical trial of Paxil demonstrated efficacy in the treatment of depression in patients under age


                                                81
18, when the study failed to demonstrate efficacy. At the same time, GSK did not make available
data from two other studies in which Paxil also failed to demonstrate efficacy in treating
depression in patients under 18. The evidence also showed that GSK sponsored dinners, lunches,
spa programs and similar activities to promote the use of Paxil in children and adolescents. GSK
agreed to plead guilty to misbranding Paxil with false and misleading labeling regarding the use
of Paxil for patients under 18.

In addition to prosecuting major pharmaceutical companies for health care offenses, CPB
prosecutes smaller-scale, yet equally dangerous schemes involving drug compounding and drug
diversion. For example, in FY 2012, CPB prosecuted ApothéCure, and its principal, Gary
Osborn, who were convicted of misdemeanor misbranding under the Food, Drug, and Cosmetic
Act. ApothéCure purchased raw active pharmaceutical ingredients for use in the manufacture of
prescription drugs. Three patients who received injections from lots shipped from the company’s
pharmacy died from colchicine toxicity, as some of the vials were super-potent, containing 640
percent of the level of compounded colchicine declared on the drug’s label. ApothéCure and
Osborn pled guilty and each was fined $100,000.

CPB has also taken the lead in investigating and prosecuting drug diversion schemes, in which
prescription drugs are removed from lawful channels of distribution and then reintroduced into
the marketplace for sale to consumers. In such schemes, prescription drugs at issue are often
stolen from warehouses or cargo trucks or repackaged and resold from boxes of free samples.
Drugs diverted from lawful channels of distribution may not have been properly labeled and
stored, which allows for contamination, or they could be expired. In FY2012, CPB and the
USAO prosecuted Altec Medical and William Rodriguez for their role in a drug diversion
scheme. Altec paid Rodriguez approximately $55 million for prescription drugs that it knew had
been diverted from lawful channels of drug wholesale distribution. The diverted drugs were a
wide variety of expensive branded products, including HIV medications, atypical antipsychotics,
diabetes medications (including insulin products, which need to be refrigerated, and were not
refrigerated while they were being diverted) and cholesterol medications. Altec pled guilty, was
fined $2 million, and was ordered to forfeit an additional $1 million; Rodriguez pled guilty, was
sentenced to 120 months’ imprisonment, and ordered to forfeit $55 million. A second co-
conspirator received a sentence of probation of one year.

CPB has also been a leader in investigating and prosecuting Internet pharmacies, which is, in
many ways, the leading edge of health care fraud in the United States. The Internet now provides
an avenue for the illegal dissemination of prescription drugs and controlled substances for drug
abusers and others who divert drugs. Website owners often hire doctors and pharmacists who are
willing to authorize and dispense prescriptions based on an online questionnaire, without any
legitimate doctor-patient relationship, thereby permitting these websites to operate as online “pill
mills.” CPB prosecutes those who unlawfully distribute prescription drugs and controlled
substances over the Internet. As a result of its leadership in this area, CPB is now a primary
source for legal advice to prosecutors around the country pursuing such cases.

In addition, CPB provides expertise and guidance in the prosecution of those selling counterfeit
drugs—which are often sold online and are a growing problem in the United States and abroad.


                                                82
In addition to advising USAOs on this issue, CPB also serves on the Attorney General’s Task
Force on Intellectual Property, which has made it a priority to improve law enforcement with
respect to counterfeit products, such as drugs and devices, which threaten the public health and
safety.

Criminal Division

In FY 2012, the Criminal Division was allocated $8.5 million in HCFAC funding to support
criminal health care fraud litigation and interagency coordination, which is carried out primarily
by the Fraud Section and, to a lesser extent, the Organized Crime and Gang Section (OCGS).

The Fraud Section

The Fraud Section initiates and coordinates complex health care fraud prosecutions and supports
the USAOs with legal and investigative guidance and training and trial attorneys to prosecute
health care fraud cases. Beginning in March 2007, the Fraud Section, working with the local
USAOs, the FBI and law enforcement partners in HHS/OIG, and state and local law enforcement
agencies, launched the Medicare Fraud Strike Force in Miami-Dade County, Florida, to prosecute
individuals and entities that do not provide legitimate health care services but exist solely for the
purpose of defrauding Medicare and other government health care programs. Since 2007, DOJ
and HHS have expanded the Strike Force to nine cities. In FY 2012, the Fraud Section continued
to provide attorney staffing, litigation support, and leadership and management oversight for
numerous Strike Force prosecutions in eight of the nine cities. A summary of the Fraud Section’s
key litigation accomplishments in FY 2012 follows:

     •   Filed 136 new health care fraud cases involving charges against 110 defendants who
         collectively billed the Medicare and Medicaid programs more than $1.3 billion;
     •   Obtained 99 guilty pleas and litigated 10 jury trials, winning guilty verdicts against 21
         defendants; 16
     •   Secured prison sentences in health care fraud cases averaging more than 56 months; and
     •   Secured court-ordered restitution, forfeiture and fines exceeding $373 million.

Fraud Section attorneys staffed and coordinated the Division=s health care fraud litigation
through the existing Medicare Fraud Strike Force teams in Miami, Los Angeles, Detroit, Houston,
Brooklyn, Baton Rouge, Tampa, and Dallas. 17

Section attorneys coordinated a major multi-district Strike Force arrest takedown during the fiscal
year and handled many of the investigations and indictments that were filed in these operations.



16
   Fraud Section attorneys litigated 9 of the 13 Medicare Fraud Strike Force trials during FY 2012. Several of these
trials were summarized previously in the “Medicare Fraud Strike Force” section of this report.
17
  The U.S. Attorney’s Office for the Northern District of Illinois implemented the Strike Force in Chicago and is
providing management and oversight for Strike Force prosecutions in that district.

                                                         83
On May 2, 2012, Fraud Section and USAO Strike Force prosecutors in seven cities executed a
nationwide operation that resulted in charges against 107 individuals, including doctors, nurses,
and other medical professionals, for their alleged participation in Medicare fraud schemes
involving approximately $452 million in false billing. The coordinated operation involved the
highest amount of false Medicare billings in a single takedown in Strike Force history.

Of particular note during the FY2012, the Fraud Section prosecuted one of the largest criminal
health care fraud cases in history, involving American Therapeutic Corporation (ATC). Fraud
Section attorneys tried two cases involving executives, physicians, and others involved in a $205
million fraud at ATC. As part of that prosecution, during the fiscal year, Fraud Section attorneys
obtained three of the longest prison sentences ever handed down in health care fraud prosecutions
for the three owners and operators of ATC – one sentence of 50 years and two sentences of 35
years. In addition to the six defendants convicted at trial, Fraud Section attorneys obtained guilty
pleas from an additional thirteen individuals and the two corporate defendants, including ATC
itself.

In February 2012, Fraud Section attorneys, in conjunction with attorneys from the local United
States Attorney’s Office, obtained an indictment against a Dallas-area doctor and owner of an
association of health care providers, along with six others, in a $374 million home health care
fraud scheme, the largest fraud case ever indicted in terms of the amount of loss charged against a
single doctor. The indictment charges the defendants with fraudulently certifying or directing the
certification of more than 11,000 individual patients from more than 500 home health agencies for
home health services over five years. These certifications allegedly resulted in more than $350
million being fraudulently billed to Medicare and more than $24 million being fraudulently billed
to Medicaid.

In addition to Medicare Fraud Strike Force cases, the Fraud Section handles other types of
complex criminal health care fraud litigation. Often, such cases are handled in a parallel manner
by Fraud Section prosecutors along with DOJ Civil Division attorneys and/or AUSAs from the
USAOs.

In addition to health care fraud litigation, the Fraud Section also provided legal guidance to FBI
and HHS/OIG agents, health program agency staff, AUSAs, and other Criminal Division
attorneys on criminal, civil, and administrative tools to combat health care fraud. From
September 27 through September 28, 2012, the Fraud Section hosted a two-day health care fraud
training conference for approximately 175 Federal prosecutors, FBI agents, HHS/OIG agents, and
others. The Fraud Section also provided advice and written materials on patient medical record
confidentiality and disclosure issues, and coordinated referrals of possible criminal HIPAA
privacy violations from the HHS Office for Civil Rights; monitored and coordinated DOJ
responses to legislative proposals, major regulatory initiatives, and enforcement policy matters;
reviewed and commented on health care provider requests to the HHS/OIG for advisory opinions,
and consulted with the HHS/OIG on draft advisory opinions; worked with CMS to improve
Medicare contractors= fraud detection, referrals to law enforcement for investigation, and case
development work; and prepared and distributed to all USAOs and FBI field offices periodic
summaries of recent and significant health care fraud cases.


                                                84
The Organized Crime and Gang Section (OCGS)

The Criminal Division’s Organized Crime and Gang Section (OCGS) supports investigations and
prosecutions of fraud and abuse targeting the 2.5 million private sector health plans sponsored by
employers and/or unions, as well as investigations and prosecutions of health care frauds
perpetrated by domestic and international organized crime groups. OCGS is also working to
improve strategic coordination in the identification and prosecution of domestic and international
organized crime groups engaged in sophisticated frauds posing a threat to the health care industry.

In FY 2012, OCGS increased the number of attorneys assigned to health care fraud prosecutions
despite substantial budget limitations restricting its available resources. In this fiscal year, two
attorneys have worked with the Organized Crime Strike Force in Philadelphia on cases involving
Medicare fraud. One OCGS attorney partnered with an AUSA in the prosecution of a hospice co-
owner for conspiring to defraud Medicare by submitting $14.3 million in fraudulent medical
claims for hospice services provided to patients who did not receive services or were ineligible.
This attorney is also prosecuting a doctor for the receipt of more than $200 in kickbacks for
Medicare and Medicaid patient referrals to the hospice. A second OCGS attorney is prosecuting
the operator of an ambulance service company, indicted in June 2012, for submitting more than
$5.4 million in false claims to Medicare for medically unnecessary transportation of patients by
ambulance.

 A third OCGS attorney teamed with the OC Strike Force Chief in the Southern District of Florida
in the prosecution of a health care fraud perpetrated by a Eurasian organized crime group alleged
to have significant ties to Russia and Armenia. This criminal conspiracy was indicted in February
2011 as part of a multi-district crackdown on activities of Armenian Power, an international
organized crime group. The health care fraud schemes in Miami involved chiropractic clinics that
allegedly paid individuals to refer “patients” of staged accidents. The clinics then billed private
automobile insurance carriers for treatments that were either not medically necessary or were not
provided. Two defendants were convicted of health care fraud conspiracy in October 2011.

Finally, a fourth OCGS attorney is prosecuting an acting boss of a La Cosa Nostra crime family
for an alleged embezzlement from a health plan operated by Teamsters unions in Philadelphia.

Private sector employment-based group health plans are the leading source of health care
coverage for individuals not covered by Medicare or Medicaid. OCGS attorneys routinely
provide litigation support and advice to AUSAs and criminal investigative agencies to combat
corruption and abuse of such private employment-based group health plans covered by the
Employee Retirement Income Security Act (ERISA). OCGS attorneys provide considerable
support to investigations of fraud schemes by corrupt entities that sell unlicensed health insurance
products and fraud schemes by corrupt employers that cheat workers out of health benefits
required by the prevailing wage laws and regulations. In addition, OCGS attorneys regularly
provide health care fraud and abuse training and legal guidance to AUSAs and to criminal
investigators and agents of the Department of Labor’s Employee Benefits Security Administration
and Office of Inspector General. Such guidance and training has covered prosecutions involving

                                                85
abuses targeting private sector employee health plans subject to ERISA, health plans sponsored
by labor organizations, and multiple employer welfare arrangements. OCGS drafts and reviews
criminal legislative proposals affecting employee health benefit plans.

OCGS also provides legal guidance to prosecutors and required approvals in the use of the
Racketeer Influenced and Corrupt Organizations (RICO) statute in prosecutions of Medicare or
Medicaid fraud or private sector health care frauds. For example, OCGS reviewed and approved
a RICO indictment submitted by the Organized Crime Strike Force in the Eastern District of New
York in which defendants allegedly operated medical clinics to generate medical claims for
treatments that were never performed or not medically needed. The indictment, which was
returned in February 2012, charged that defendants operated nine clinics which billed private
automobile insurance companies for $279 million in unnecessary and excessive medical
treatments claimed to be the result of automobile accidents, including physical therapy,
acupuncture, pain management, psychological services, X-rays, MRIs and other services. The
indictment was believed to be the largest single no-fault insurance fraud ever charged and the first
case of its kind to allege violations of the RICO statute.

                                      Civil Rights Division

In FY 2012, the Civil Rights Division was allocated approximately $4.8 million in HCFAC
funding to support Civil Rights Division litigation activities related to health care fraud and abuse.
The Civil Rights Division pursues relief affecting public, residential health care facilities and
service systems. The Division conducts investigations to eliminate abuse and grossly substandard
care in public, Medicare and Medicaid funded long-term care facilities. Consistent with the
Supreme Court’s decision in Olmstead v. L.C., 527 U.S. 581 (1999), the Division has also
undertaken initiatives to eliminate the needless institutionalization of individuals who require
health care supports and services.

The Division plays a critical role in the HCFAC Program. The Special Litigation Section of the
Civil Rights Division is the sole DOJ component responsible for the Civil Rights of
Institutionalized Persons Act, 42 U.S.C. ' 1997 (CRIPA). CRIPA authorizes the investigation of
conditions of confinement at state and local residential institutions (including facilities for persons
with developmental disabilities or mental illness, and nursing homes) and initiation of civil action
for injunctive relief to remedy a pattern or practice of violations of the Constitution or Federal
statutory rights. The review of conditions in facilities for persons who have mental illness,
facilities for persons with developmental disabilities, and nursing homes comprises a significant
portion of the program.

The Disability Rights Section of the Civil Rights Division has primary enforcement authority for
the Americans with Disabilities Act (ADA). Title II of the ADA authorizes investigation of
allegations of discrimination by public entities against individuals with disabilities, including
discrimination in the form of needless institutionalization of persons who require health care
supports and services. See Olmstead v. L.C., 527 U.S. 581 (1999). Title II also authorizes the
initiation of civil action to remedy discrimination in violation of the ADA. Both the Special



                                                 86
Litigation Section and the Disability Rights Section have undertaken initiatives to combat the
unjustified institutionalization of persons with disabilities.

The Special Litigation and Disability Rights Sections work collaboratively with the USAOs and
HHS.

Fiscal Year 2012 Accomplishments

Special Litigation Section staff conducted preliminary reviews of conditions and services at 19
health care facilities in 16 states during Fiscal Year 2012. The task in preliminary inquiries is to
determine whether there is sufficient information supporting allegations of unlawful conditions
and needless institutionalization to warrant formal investigation under CRIPA and/or the ADA.
The Section reviews information pertaining to areas such as abuse and neglect, medical and
mental health care, use of restraints, fire and environmental safety, and placement in the most
integrated setting appropriate to individual needs. Separately, in Fiscal Year 2012, the Section
opened or continued formal investigations, entered remedial agreements, or monitored existing
remedial agreements regarding 62 health care facilities in19 states, the District of Columbia, and
the Commonwealth of Puerto Rico.

The Section found that conditions and practices at 12 state facilities for persons with intellectual
and developmental disabilities and/or mental illness violate the residents' statutory rights. Those
facilities are: Boswell Regional Center, in Magee, Mississippi; Ellisville State School, in
Ellisville, Mississippi; Hudspeth Regional Center, in Pearl, Mississippi; Southern Mississippi
Regional Center, in Long Beach, Mississippi; Mississippi Adolescent Center, in Brookhaven,
Mississippi; North Mississippi Regional Center, in Oxford, Mississippi; Mississippi State
Hospital, in Whitfield, Mississippi; South Mississippi State Hospital, in Purvis, Mississippi;
Central Mississippi Residential Center, in Newton, Mississippi; East Mississippi State Hospital,
in Meridian, Mississippi; North Mississippi State Hospital, in Tupelo, Mississippi; and the
Specialized Treatment Center, in Gulfport, Mississippi.

In Fiscal Year 2012, the Section entered into a court-enforceable settlement agreement to resolve
its investigations of Central Virginia Training Center, in Lynchburg, Virginia and Virginia’s
state-wide system for serving individuals with disabilities. Pursuant to the Agreement, Virginia
will create a total of approximately 4,200 home and community-based waivers for people who are
on waitlists for community services and individuals transitioning from institutional settings over a
ten year period. Virginia also will provide support services to an additional 1,000 people to
enable them to stay in their home or their family’s home, rather than face institutionalization.
Further, Virginia will create a comprehensive community crisis system to divert individuals from
unnecessary institutionalization or other out-of-home placements. The Agreement also requires
the Commonwealth to create a comprehensive quality and risk management system to ensure that
community-based services are safe and effective.

The Section moved to intervene in two Olmstead actions. The Section moved to intervene in
Lynn v. Lynch, (D. N.H.), a proposed class action involving claims under the ADA that the State
of New Hampshire failed to provide adequate community-based services to persons with mental


                                                 87
illness, unnecessarily segregating them in institutions and placing them at risk of unnecessary and
more costly institutionalization. The case will go to trial in 2014. Separately, in Steward v.
Perry, (W. D. TX.), the court granted the Section’s intervention motion in a proposed class action
involving ADA claims that the State of Texas fails to provide adequate community-based services
to persons with intellectual disabilities residing in nursing homes.

The Section continued its investigations of 10 residential facilities for persons with intellectual
and developmental disabilities, including: Northwest Habilitation Center, in St. Louis, Missouri;
Bellefontaine Habilitation Center, in St. Louis, Missouri; Sonoma Developmental Center, in
Eldridge, California; Lanterman Developmental Center, in Pomona, California; Clyde L. Choate
Developmental Center, in Anna, Illinois; and, five Arkansas facilities, including: Arkadelphia
Human Development Center, in Arkadelphia, Arkansas; Alexander Human Development Center,
in Alexander, Arkansas; Booneville Human Development Center, in Booneville, Arkansas;
Jonesboro Human Development Center, in Jonesboro, Arkansas; and Southeast Arkansas Human
Development Center, in Warren, Arkansas.

The Section also continued its investigations of three facilities for persons with mental illness,
including: Ancora Psychiatric Hospital, in Hammonton, New Jersey; Oregon State Hospital, in
Salem and Portland, Oregon; and Kingsboro Psychiatric Center, in Brooklyn, New York.

The Section also continued its investigations of two nursing facilities: Maple Lawn Nursing
Home, in Palmyra, Missouri; and Casa del Veteranos, in Juana Diaz, Puerto Rico.

The Section monitored the implementation of remedial agreements for 17 facilities for persons
with intellectual and developmental disabilities: Beatrice State Developmental Center, in
Beatrice, Nebraska; Woodbridge Developmental Center, in Woodbridge, New Jersey; Clover
Bottom Developmental Center in Nashville, Tennessee; Greene Valley Developmental Center in
Greeneville, Tennessee; Lubbock State Supported Living Center, in Lubbock, Texas; Denton
State Supported Living Center, in Denton, Texas; Abilene State Supported Living Center, in
Abilene, Texas; Austin State Supported Living Center, in Austin, Texas; Brenham State
Supported Living Center, in Brenham, Texas; Corpus Christi State Supported Living Center, in
Corpus Christi, Texas; El Paso State Supported Living Center, in El Paso, Texas; Lufkin State
Supported Living Center, in Lufkin, Texas; Mexia State Supported Living Center, in Mexia,
Texas; Richmond State Supported Living Center, in Richmond, Texas; Rio Grande State
Supported Living Center, in Harlingen, Texas; San Angelo State Supported Living Center, in
Carlsbad, Texas; San Antonio State Supported Living Center, in San Antonio, Texas. These
remedial agreements include the provision of adequate community supports and services. The
Section also litigated the issue of whether the closure of Arlington Developmental Center in
Memphis, Tennessee should result in the dismissal of its case involving the facility and
community services for individuals with intellectual and developmental disabilities in West
Tennessee; a ruling is forthcoming.

The Section also monitored the implementation of remedial agreements regarding 18 state-
operated residential facilities for persons with mental illness: Metropolitan State Hospital, in
Norwalk, California; Patton State Hospital, in San Bernardino, California, Atascadero State


                                                88
Hospital, in Atascadero, California; Napa State Hospital, in Napa, California; Kings County
Hospital Center, in Brooklyn, New York; Delaware State Psychiatric Center, in New Castle,
Delaware; Georgia Regional Hospital, in Atlanta, Georgia; Georgia Regional Hospital, in
Savannah, Georgia; Central State Hospital, in Milledgeville, Georgia; Southwest State Hospital,
in Thomasville, Georgia; West Central Georgia Hospital, in Columbus, Georgia; East Central
Georgia Regional Hospital, in Augusta, Georgia; St. Elizabeth’s Hospital, in Washington, D.C.;
Connecticut Valley Hospital, in Middletown, Connecticut and, four facilities in North Carolina,
including John Umstead Hospital in Butner; Dorothea Dix Hospital in Raleigh; Cherry Hospital in
Goldsboro; and Broughton Hospital in Morgantown. These remedial agreements include the
provision of adequate support and services to enable individuals to live successfully in the
community.

In addition, the Section continued monitoring of remedial agreements at two nursing facilities:
William F. Green State Veterans’ Nursing Home, in Bay Minette, Alabama; and Ft. Bayard
Medical Center, in Ft. Bayard, New Mexico.

In August 2012, the Disability Rights Section entered a comprehensive, eight-year settlement
agreement with the State of North Carolina resolving the Section’s Olmstead investigation of
North Carolina’s mental health service system, which currently serves thousands of individuals
with mental illness in large institutional settings known as adult care homes. The Agreement,
which is court-enforceable, will expand access to community-based supported housing –
integrated housing that promotes inclusion and independence and enables individuals with mental
illness to participate fully in community life. Pursuant to the Agreement, North Carolina will
provide community-based supported housing to 3,000 individuals unnecessarily segregated in, or
at risk of entry into, adult care homes. The Agreement will also ensure that thousands of people
with mental illness have access to critical community-based mental health services such as
Assertive Community Treatment (ACT) teams, and will expand integrated employment
opportunities for individuals with mental illness by providing supported employment services to
2,500 individuals.

The Section also commenced two statewide Olmstead investigations in FY 2012. In Oregon, the
Section conducted an extensive nine-month investigation of the state’s employment service
system for individuals with intellectual and developmental disabilities, which is funded in
significant part through Medicaid home and community-based waivers pursuant to Section
1915(c) of the Social Security Act. Following the investigation, in June 2012, the Division issued
a Letter of Findings stating that Oregon was violating Title II of the ADA and Olmstead by
unnecessarily segregating individuals with disabilities in sheltered workshops when such
individuals can and want to work in more integrated supported employment settings.
Negotiations with the state to resolve these allegations are ongoing.

The Section also conducted an investigation of the State of Florida regarding allegations that
Florida unnecessarily segregates children with disabilities in private nursing facilities, when such
children could be served in more integrated, community-based settings. In September 2012, the
Section issued a Letter of Findings notifying the State of the Section’s findings that the State
violates the ADA by planning, structuring and administering its system of care for children with


                                                89
disabilities in a manner that causes hundreds of children with disabilities to be unnecessarily
institutionalized in nursing facilities, and places many other children with complex medical
conditions at risk of such institutionalization.

The Section also engaged in ongoing settlement discussions with the State of New York regarding
the state’s administration of its mental health service system, which relies on large, private,
institutional adult homes in New York City to house individuals with mental illness who can and
should be residing in more integrated community settings. The Section also continued its ongoing
investigation of the State of New York regarding the placement of children with disabilities at
certain restrictive out-of-state facilities.

The Division filed ten statements of interest or amicus briefs in litigation raising issues of
needless institutionalization in California, the District of Columbia, Florida, New Hampshire,
Oregon, and Pennsylvania. These briefs have addressed a wide range of issues, including
unnecessary institutionalization of individuals in state-run and private institutions and cuts to
community services placing individuals at risk of unnecessary, and more costly,
institutionalization.




                                                 90
                              Federal Bureau of Investigation
In FY 2012, the FBI was allocated $136.2 million in funding, including $131.8 million from
HIPAA and $3.4 million from discretionary HCFAC, to support the facilitation, coordination and
accomplishment of the goals of the HCFAC Program. This yearly appropriation was used to
support 798 positions (478 Agent, 320 Support). In FY 2012, the FBI initiated 817 new health
care fraud investigations and had 2,835 pending investigations. Investigative efforts produced
1,096 criminal health care fraud convictions and 909 indictments and informations. In addition,
investigative efforts resulted in the operational disruption of 329 criminal fraud organizations and
the dismantlement of the criminal hierarchy of more than 83 HCF criminal enterprises.

The FBI is the primary investigative agency involved in the fight against health care fraud that
has jurisdiction over both the Federal and private insurance programs. Each of the 56 FBI field
offices has personnel assigned specifically to investigate health care fraud matters. With national
health care expenditures projected to exceed $2.8 trillion dollars in FY 2012, it is especially
important to coordinate all investigative efforts to combat the significant fraud and abuse within
the health care system.

The FBI leverages its resources in both the private and public arenas through investigative
partnerships with agencies such as HHS/OIG, the FDA, the DEA, the Defense Criminal
Investigative Service, the Office of Personnel Management, the Internal Revenue Service, state
Medicaid Fraud Control Units, and other state and local agencies. On the private side, the FBI is
actively involved in the Fraud Prevention Partnership, an effort to exchange facts and information
between the public and private sectors in order to reduce the prevalence of health care fraud.
These efforts will enable members to share successful anti-fraud practices and effective
methodologies and strategies for detecting and preventing health care fraud. In addition, the FBI
maintains significant liaison with private insurance national groups, such as the National Health
Care Anti-Fraud Association, the National Insurance Crime Bureau, other professional
associations, and private insurance investigative units.

Health care fraud investigations are considered a high priority within the FBI White Collar Crime
Program. In addition to being a partner in the majority of investigations listed in the body of this
report, FBI field offices throughout the U.S. have pro-actively addressed significant health care
fraud threats through coordinated initiatives, task forces, working groups, and undercover
operations. These activities identify and pursue investigations against the most egregious
offenders, which included criminal enterprises and other crime groups.

In an effort to ensure sufficient FBI HCF resources are dedicated to address priority threats within
the health care system for which the FBI has primary responsibility, the FBI established national
priorities. During FY 2012, the FBI’s top HCF Program National Priorities were Government
Sponsored and Private Insurance Programs. Accordingly, approximately 85 percent of FBI cases
primarily involve these programs. The FBI also investigated violations involving drug diversion,
Internet pharmacy, and other investigations that did not include billings to government sponsored
or private insurance programs.


                                                91
A review of the threats to the health care system reveals that many schemes target multiple FBI
HCF Program National Priority areas, and individual schemes may have considerable impact on
the health care system. In response to these threats the FBI has enhanced its focus on threats to
government sponsored and private insurance programs associated with Large Scale Conspiracies
and Major Providers, in addition to combating traditional provider fraud.

Large scale conspiracies include criminal enterprises and other crime groups involving significant
losses, or potential losses, to health care benefit programs. The criminal activity of these groups
can cross multiple Federal districts and have included the sharing/selling of beneficiary
information, the sharing/selling of referring provider identifiers, and kickback schemes involving
invoices, referrals, and medical services/products. It is not unusual for more complex large scale
conspiracies to conduct other criminal activity in addition to health care fraud. The potential
extent of this type of criminal activity is noted in several investigations that each involved
hundreds of millions of dollars and included numerous providers conspiring together to defraud
health plans. An example of these types of cases was the American Therapeutic Corporation
(ATC) investigation in which kickbacks were made to halfway houses and assisted living
facilities for patient referrals. ATC billed the Medicare program for intensive mental therapy. The
therapy was either not rendered, or rendered to some degree to patients who cannot benefit from
this form of therapy, and therefore, was medically unnecessary. The FBI is committed to
addressing this type crime problem through the disruption, dismantlement and prosecution of
those involved in criminal enterprises and other organized criminal activities.

Major Providers can include companies, corporations, hospitals, provider groups, and other
groups able to significantly bill, or effect billing, to health care benefit programs. The related
schemes are frequently complex and challenging to identify. A principal source of referrals on
these schemes is the filing of qui tams. In FY 2012, the FBI continued to aggressively expand its
involvement in major provider/qui tam investigations. Examples of significant major provider
investigations for FY 2012 included the GlaxoSmithKline LLC agreement to plead guilty and pay
$3 billion to resolve it’s criminal and civil liabilities and the Merck, Sharp and Dohme agreement
to pay $950 million to resolve criminal charges and civil claims. In addition to the work
completed at the field office level, and in response to this substantial and increasing threat, the
FBI has established a centralized squad to provide investigative assistance on these types of cases
nationwide. The FBI coordinates this effort with the DOJ, HHS/OIG, and FDA.

In FY 2012, the FBI continued to staff and support Medicare Strike Force operations worked in
conjunction with DOJ Criminal Division’s Fraud Section, local USAOs, HHS/OIG, and state and
local law enforcement agencies. The FBI has assigned agents to Strike Forces in Miami, New
York City, Houston, Tampa, Detroit, Los Angeles, Baton Rouge, Dallas, and Chicago. In
addition to funding agent resources, the FBI funded undercover operations expenses, financial
and investigative analysis support, offsite and evidence storage locations, and other investigative
costs. These Strike Forces have effectively investigated and prosecuted individuals and entities
that do not provide legitimate health care services, but exist solely for the purpose of defrauding
Medicare and other Federal government health care programs. The continued support of
Medicare Strike Force operations is a top priority for the FBI.



                                                92
In addition to its investigative efforts, the FBI actively provides training and guidance on health
care matters. The FBI has teamed with the DOJ, the United States Attorneys, HHS, and private
insurance organizations to provide training in the priority threat areas of health care fraud.
Funded training has included innovative methods of employing advanced investigative
techniques, basic HCF training for FBI special agent and professional staff newly assigned to
HCF, and sessions on new and current HCF trends and issues. FBI personnel training
opportunities included sessions offered by other government agencies and the private sector. In
FY 2012, more than 400 FBI health care fraud investigators and analysts received training. FBI
personnel also conducted a wide range of training for external audiences, including personnel
involved in the investigation of health care fraud matters and industry representatives.

Funding received by the FBI is used to pay direct and indirect personnel-related costs associated
with the 798 funded positions. Funds not used directly for personnel matters, are used to provide
operational support for major health care fraud investigations, national initiatives, training,
specialized equipment, expert witness testimony, and Strike Force operations.




                                                93
                            Return-on-Investment Calculation

•   The Return-on-Investment (ROI) for the HCFAC program is calculated by dividing the total
    monetary results to the Federal government (not including relator payments) by the annual
    appropriation for the HCFAC Account in a given year (not including portions of CMS
    funding dedicated to the Medicare Integrity Program, listed in the table on page 95).

•   The monetary results include deposits and transfers to the Medicare Part A Trust Fund and the
    Treasury, as well as restitution and compensatory damages to Federal agencies.

•   The HCFAC Account is made up of three funding sources: mandatory funding for HHS and
    DOJ, including HHS/OIG, appropriated through Section 1817(k)(3)(A) of the Social Security
    Act; mandatory funding for FBI activities appropriated through Section 1817(k)(3)(B) of the
    Social Security Act; and discretionary funding for the HCFAC Account appropriated through
    the annual Labor-HHS-Education appropriation. FBI mandatory HIPAA funding is included
    in ROI calculations given the important role the FBI plays in achieving the monetary results
    reflected in the HCFAC annual report and because that statute states that the funds are for the
    same purposes as the funds provided for HHS and DOJ under the Social Security Act, even
    though FBI spending and monetary results are not required to be reported, per the statute.

•   While all mandatory HCFAC Account funding is included in the ROI calculation of this
    report, only certain portions of discretionary HCFAC funding is included. All discretionary
    HCFAC funding for HHS/OIG and DOJ are included in the HCFAC report ROI since they
    spend their discretionary funding on the same types of activities that they support with
    mandatory funding. Only the portion of CMS Medicare discretionary HCFAC funding that
    supports law enforcement is included in the HCFAC report ROI. The remainder of CMS’s
    HCFAC Medicare discretionary funding supports activities in the Medicare Integrity Program
    (MIP) that are included in the MIP ROI, which is calculated separately and outside of the
    HCFAC report. All discretionary CMS Medicaid Integrity program funding is included in a
    separate Medicaid Integrity program ROI published in a separate report.




                                                94
                     Total Health Care Fraud and Abuse Control Resources
The table below sets forth HCFAC funding, by agency, for health care fraud and abuse control
activities in FY 2012. The FBI also receives a stipulated amount of HIPAA funding for use in
support of the Fraud and Abuse Control Program, which is shown below. Separately, CMS
receives additional Mandatory Resources under the Medicare Integrity Program (section
1817(k)(4) of the Social Security Act). The inclusion of the activities supported with these funds
is not required in this report, and this information is included for informational purposes.

Since 2009, Congress has also appropriated annual amounts to help carry out health care fraud
and abuse control activities within DOJ and HHS. Those amounts are set forth as Discretionary
Resources in the table below and the results of the efforts supported with these funds are
contained within this report.


                    Mandatory Resources                                      Fiscal Year 2012
      Office of Inspector General                                              $196,090,169
      Health and Human Services Wedge 1                                         $37,504,593
      Medicare Integrity Program 2                                             $863,128,689
           MIP/Medicare (non-add)                                              $796,734,174
           Medi-Medi (non-add)                                                  $66,394,515
      Department of Justice Wedge1                                              $61,224,749
      Federal Bureau of Investigation 3                                        $131,871,557
      Subtotal, Mandatory HCFAC                                               $1,289,819,757
                   Discretionary Resources
      Office of Inspector General                                                $29,673,810
      CMS Program Integrity                                                     $250,442,817
           Medicare Program Integrity (Non-Add)                                 $219,463,429
           Medicaid Program Integrity (Non-Add) 4                                $30,979,388
      Department of Justice                                                      $29,673,810
      Subtotal, Discretionary HCFAC                                             $309,790,437
      Grand Total, HCFAC                                                      $1,599,610,194




1
  The HHS and DOJ Wedge funds are divided among multiple agencies within HHS and DOJ. Page 7 of this report
includes the allocations of the HHS and DOJ Wedge by agency or activity.
2
  Medicare Integrity Program (MIP) and Medi-Medi fund fraud prevention and detection activities within Medicare
and Medicaid, which are not included in this report to Congress. There is another mandatory report due to Congress
in April regarding MIP activities.
3
  The FBI receives funding annually to conduct anti-fraud activities authorized by HIPAA. This funding is included
in the HCFAC ROI calculation for this report.
4
  This is not to be confused with the Medicaid Integrity Program authorized in the Deficit Reduction Act of 2005,
which receives funding separately from the HCFAC account.

                                                        95
                             Glossary of Terms


The Account - The Health Care Fraud and Abuse Control Account

ACA – Affordable Care Act

AoA - Department of Health and Human Services, Administration on Aging

ACL – Department of Health and Human Services, Administration for Community
Living

ASPA – Assistant Secretary for Public Affairs (HHS)

AUSA - Assistant United States Attorney

CHIP - Children’s Health Insurance Program

CIA - Corporate Integrity Agreement

CMP - Civil Monetary Penalty

CMS - Department of Health and Human Services, Centers for Medicare & Medicaid
Services

CNC – Compromised Number Contractors

CPI – Center Program Integrity

CRIPA - Civil Rights of Institutionalized Persons Act

CY – Calendar Year

DME - Durable Medical Equipment

DMEPOS – Durable Medical Equipment Prosthetics, Orthotics, and Supplies

DOJ - The Department of Justice

FEHBP – Federal Employee Health Benefits Program

FBI - Federal Bureau of Investigation

FCA - False Claims Act


                                        96
FDA - Food and Drug Administration

FDCA – Food, Drug, and Cosmetic Act

FY – Fiscal Year

HCFAC - -Health Care Fraud and Abuse Control Program or the Program

HEAT - Health Care Fraud Prevention & Enforcement Action Team

HHA – Home Health Agency

HHS - The Department of Health and Human Services

HHS/OIG - The Department of Health and Human Services - Office of the Inspector
General

HI - Hospital Insurance Trust Fund

HIPAA, or the Act - The Health Insurance Portability and Accountability Act of 1996,
P.L. 104-191

HIV - Human Immunodeficiency Virus

MEDIC - Medicare Drug Integrity Contractors

MFCU – Medicaid Fraud Control Unit

OCGS - Organized Crime and Gang Section

OGC - Office of the General Counsel, Department of Health and Human Services

PERM - Program Error Rate Measurement

PFP – Pharmaceutical Fraud Pilot Program

The Program - The Health Care Fraud and Abuse Control Program

Secretary - The Secretary of the Department of Health and Human Services

SMP - Senior Medicare Patrol

USAO - United States Attorney=s Office

ZPIC - Zone Program Integrity Contractor

                                      97
